<html>
<title> - PROTECTING CONSUMERS' DATA: POLICY ISSUES RAISED BY CHOICEPOINT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



    PROTECTING CONSUMERS' DATA: POLICY ISSUES RAISED BY CHOICEPOINT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2005

                               __________

                           Serial No. 109-76

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                U.S. GOVERNMENT PRINTING OFFICE
99-916PDF            WASHINGTON : 2005
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

      James D. Barnette, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JAN SCHAKOWSKY, Illinois
NATHAN DEAL, Georgia                   Ranking Member
BARBARA CUBIN, Wyoming               MIKE ROSS, Arkansas
GEORGE RADANOVICH, California        EDWARD J. MARKEY, Massachusetts
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania        SHERROD BROWN, Ohio
MARY BONO, California                BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE FERGUSON, New Jersey            TED STRICKLAND, Ohio
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
C.L. ``BUTCH'' OTTER, Idaho          JIM DAVIS, Florida
SUE MYRICK, North Carolina           CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania             TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Majoras, Deborah Platt, Chairman, Federal Trade Commission...    17
    Sanford, Kurt P., President and Chief Executive Officer, U.S. 
      Corporate and Federal Government Markets, LexisNexis.......    37
    Smith, Derek, Chairman and Chief Executive Officer, 
      ChoicePoint, Inc...........................................    44

             Additional Material Submitted for the Record:

    Smith, Derek, Chairman and Chief Executive Officer, 
      ChoicePoint, Inc, response for the record..................    94

                                 (iii)

  

 
    PROTECTING CONSUMERS' DATA: POLICY ISSUES RAISED BY CHOICEPOINT

                              ----------                              


                        TUESDAY, MARCH 15, 2005

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Cliff 
Stearns (chairman) presiding.
    Members present: Representatives Stearns, Deal, Bass, 
Pitts, Bono, Terry, Otter, Myrick, Murphy, Blackburn, Barton 
(ex officio), Schakowsky, Markey, Towns, Brown, Green, 
Strickland, DeGette, Gonzalez, and Baldwin.
    Staff Present: David Cavicke, chief counsel; Chris Leahy, 
policy coordinator; Shannon Jacquot, majority counsel; Andy 
Black, deputy staff director; Brian McCullough, majority 
professional staff; Will Carty, majority professional staff; 
Bud Albright, staff director; Larry Neal, deputy staff 
director; Jon Tripp, deputy communications director; Kevin 
Schweers, communications director; Billy Harvard, legislative 
clerk; Julie Fields, special assistant to the policy 
coordinator; Consuela Washington, minority counsel; Jonathan 
Cordone, minority counsel; Edith Holleman, minority counsel; 
Voncille Hines, minority staff assistant; and Turney Hall, 
minority staff assistant.
    Mr. Stearns. Good morning, everybody. The subcommittee 
hearing today will come to order on Protecting Consumers' Data: 
Policy Issues Raised by ChoicePoint and identity theft.
    Just like knowledge, information is power. In a world where 
information can be transmitted at the speed of light to anybody 
with the ability to access it, legitimately or fraudulently, 
there are a multitude of potential security issues that 
obviously can occur. The security of that information can be 
compromised within the sanctuary of the data base, along the 
pipeline of the network, and at the final destination, which in 
many cases, is a point of sale.
    What is more worrying is that sensitive information and 
access to it involves very specific pieces about who we are, 
where we live, what we buy, how much money we make, what we 
drive, our criminal history, in fact, and so on. The growing 
business of commercial data collection and brokering has made 
products like packaged consumer information profiles tailored 
for specific requirements and clients, a major and important 
mode of business. These information products and their 
applications are becoming more sophisticated and comprehensive, 
as advances in technology continue to improve the capability to 
collect, store, analyze, and package information, both personal 
and non-personal.
    My colleagues, our focus today is directed at the apparent 
cracks in the comprehensive system of information sharing and 
brokering, including understanding how penetrable and 
vulnerable the data bases and network pipelines are, as well as 
assessing the accuracy and effectiveness of identity 
verification.
    Now, the recent security breaches at two of the biggest and 
most sophisticated companies in the industry, ChoicePoint and 
LexisNexis, which are both represented here today, by their 
CEOs, serve to highlight the need for Congress and this 
committee to examine closely the effectiveness of the current 
regulatory regimes. This would include Federal law, like the 
Fair Credit Reporting Act, and State laws designated to protect 
and secure this highly sensitive information from the criminals 
working to breach these fortifications. These laws tend to 
operate independently in the marketplace, in addition to the 
State requirements. As a result, there is clearly a need to 
consider a comprehensive Federal consumer notification 
requirement, a uniform national standard, so that 
jurisdictional issues don't cause unnecessary problems for 
consumers victimized by this criminal activity. Any solution 
needs to ensure that consumers are notified as quickly as 
possible when these breaches occur. We owe that to every 
American. And additionally, recent events compel us to visit 
the fundamental privacy debate, as it relates to the power of 
the consumer to control the transmission of that data, ensure 
its accuracy, and be given notice when it is being used 
legitimately or compromised for nefarious purposes.
    Now, as we all know, this hearing today is taking place 
against a backdrop of one of the most rapidly growing crimes in 
America, identity theft. As we will hear today, a recent 
Federal Trade Commission survey showed that almost 10 million 
people in the United States discovered that they were involved 
in some sort of identity theft. These numbers translate into 
losses of almost $50 billion for businesses and $5 billion for 
consumers. My colleagues, this is a huge and growing market for 
fraudsters, and according to some reports, for terrorist 
networks seeking to cash in in this lucrative crime.
    The commercializing or monetarizing, as some may suggest, 
of consumer data has made protecting it far more complex and 
important, given its value in the wired marketplace. Today's 
cyber-thieves employ high tech surveillance, in some case slip 
anonymously into secure data bases to complete the heist. More 
traditional criminals simply acquire official identification 
and business licenses fraudulently, then dupe the verification 
process used by the information company, and set up a shop to 
receive their first shipment of sensitive consumer financial 
data, personal data. These two case studies we have before us 
this morning, the high tech and mundane, are now in the 
headlines, and indicate the digital dike is starting to leak 
very sensitive information about ourselves to those who wish to 
do us harm. As we will learn, breaches can occur from inside 
companies as well. Data security firms, including the one 
joining us today are working on novel approaches to secure data 
bases and network traffic before breaches destroy the financial 
soundness and privacy of thousands of Americans.
    At the same time, my colleagues, the ability to access much 
of this personal information obviously facilitates legitimate 
commerce that benefits all of us today. Trusted third parties, 
including data brokers and financial institutions, facilitate 
important commercial and public functions through their ability 
to quickly and securely access vast amounts of consumer data. 
Their technology and products help us, for example, screen out 
risky job applicants from sensitive positions, obtain faster 
credit and more securely, pay less for our insurance products, 
and in a few dramatic cases, allow law enforcement to move 
quickly to find criminal suspects. Many people value these 
services and products, and may not even know about it.
    Today's hearing is not an effort to demonize these 
legitimate practices and companies. But, my colleagues, it is, 
rather, an opportunity to understand the reasons behind the 
recent breaches, examine the legal regimes involved, and create 
a means by which consumers affected by a breach can be provided 
prompt and detailed notice, as well as an opportunity to verify 
and correct their personal information. The average consumers 
loves the convenience many of these systems provide, but 
obviously also want control over the details of his or her 
life, public or not.
    The value of that information in today's digital 
marketplace, coupled with illicit motives, make its proper use 
harder to police. Accordingly, this committee must ensure that 
the commercial application of consumer information retains that 
careful balance between security, the protection of privacy, 
and liberty that every American holds so dear.
    I would like to thank our panel, particularly the 
Chairwoman of the Federal Trade Commission, for being with us, 
and also, the CEOs of both ChoicePoint and LexisNexis, for 
their time and their willingness to come forward with their 
testimony.
    With that, I recognize the Ranking Member, Ms. Schakowsky 
of Illinois.
    [The prepared statement of Hon. Cliff Stearns follows:]
Prepared Statement of Hon. Clifford Stearns, Chairman, Subcommittee on 
                Commerce, Trade, and Consumer Protection
    Good Morning. Just like knowledge, information is power. And in a 
world where information can be transmitted at the speed of light to 
anyone with the ability to access it, legitimately or fraudulently, 
there are a multitude of potential security issues that can occur. The 
security of that information can be compromised within the sanctuary of 
the database, along the pipeline of the network, and at the final 
destination, which in many cases is the point of sale. What's more 
worrying is that sensitive information and access to it involves very 
specific pieces about who we are: where we live, what we buy, how much 
money we make, how we drive, our criminal history, and so on. The 
growing business of commercial data aggregation and brokering has made 
products like packaged consumer information profiles, tailored for 
specific requirements and clients, a major and important business. 
These information products and their applications are becoming more 
sophisticated and comprehensive as advances in technology continue to 
improve the capability to collect, store, analyze, and package 
information, both personal and non-personal. Our focus today is 
directed at the apparent cracks in the comprehensive system of 
information sharing and brokering, including understanding how 
penetrable and vulnerable the databases and network pipelines are, as 
well as assessing the accuracy and effectiveness of identity 
verification.
    The recent security breaches at two of the biggest and most 
sophisticated companies in the industry, Choicepoint and LexisNexis, 
which are represented before us today by their chief executives, serve 
to highlight the need for Congress and this great Committee to examine 
closely the effectiveness of the current regulatory regimes. This would 
include federal law, like the Fair Credit Reporting Act, and state laws 
designed to protect and secure this highly sensitive information from 
the criminals working to breach those fortifications. These laws tend 
to operate independently in the marketplace, in addition to the state 
requirements. As a result, there is clearly a need to consider a 
comprehensive federal consumer notification requirement, a uniform 
national standard, so that jurisdictional issues don't cause 
unnecessary problems for consumers victimized by criminal activity. Any 
solution needs to ensure that consumers are notified as quickly as 
possible when breaches occur. We owe that to every American.
    Additionally, recent events compel us to revisit the fundamental 
privacy debate as it relates to the power of the consumer to control 
the transmission of that data, ensure its accuracy, and be given notice 
when it's being used legitimately or compromised for nefarious 
purposes. As we all know, this hearing today is taking place against 
the backdrop of the most rapidly growing crime in America--identity 
theft. As we will hear today, a recent Federal Trade Commission survey 
showed that almost 10 million people in the United States discovered 
that they were involved in some sort of identity theft. These numbers 
translate into losses of almost $50 billion for businesses and $5 
billion for consumers. This is a huge and growing market for fraudsters 
and, according to some reports, for terrorist networks seeking to cash 
in on this lucrative crime.
    The commercializing or monetizing, as some may suggest, of consumer 
data has made protecting it far more complex and important given its 
value in the wired marketplace. Today's cyber-thieves employ high-tech 
surveillance and, in some cases, slip anonymously into secure databases 
to complete the heist. More traditional criminals simply acquire 
official identification and business licenses fraudulently, dupe the 
verification process used by the information company, and set up shop 
to receive their first shipment of sensitive consumer financial and 
personal data. These two case studies, the high-tech and mundane, are 
now in the headlines and indicate the digital dike is starting to leak 
very sensitive information about ourselves to those who wish to do us 
harm. As we will also learn, breaches can also occur from inside 
companies as well. Data security firms, including the one joining us 
today, are working on novel approaches to secure databases and network 
traffic before breaches destroy the financial soundness and privacy of 
thousands of Americans.
    At the same time, the ability to access much of this personal 
information facilitates legitimate commerce that benefits all of us. 
Trusted third parties, including data brokers and financial 
institutions, facilitate important commercial and public functions 
through their ability to quickly and securely access vast amounts of 
consumer data. Their technology and products help us, for example, 
screen out risky job applicants from sensitive positions, obtain credit 
faster and more securely, pay less for our insurance products, and in a 
few dramatic cases, allow law enforcement to more quickly find criminal 
suspects. Many people value these services and products and may not 
even know it.
    Today's hearing is not an effort to demonize those legitimate 
practices and companies, rather it is an opportunity to understand the 
reasons behind the recent breaches, examine the legal regimes involved, 
and create a means by which consumers affected by a breach can be 
provided prompt and detailed notice, as well as an opportunity to 
verify and correct their personal information. The average consumer 
loves the convenience many of these systems provide, but also wants 
control over the details of his life, public or not. The value of that 
information in today's digital marketplace coupled with illicit motives 
makes its proper use harder to police. Accordingly, this Committee must 
ensure that the commercial application of consumer information retain 
the careful balance between security, the protection of privacy, and 
liberty that every American holds so dear.
    I would like to again graciously thank our distinguished panel of 
witnesses for joining us today. We look forward to your testimony. 
Thank you.

    Ms. Schakowsky. Thank you, Chairman Stearns, for holding 
this hearing today on the risks that consumers face, because 
the data brokers, like ChoicePoint, and problems that they have 
had. We were all shocked to hear that a few criminals were able 
to set up scams which jeopardized the personal and financial 
security of hundreds of thousands of people. We need to close 
the gaps in the law that are putting consumers and their 
sensitive information at greater risk for privacy invasion, 
identity theft, and other crimes.
    Stories of security breaches of data bases of personal and 
financial information have been all over the news in the past 
few weeks. Most notably, we have heard about ChoicePoint 
selling personal records of 145,000 people to sham businesses, 
and of con artists using real accounts and passwords to access 
32,000 people's records in LexisNexis' Seisint data base.
    My own State of Illinois has already ranked ninth in the 
Nation for identity theft cases, and the fact that 5,025 more 
residents are at greater risk because of the ChoicePoint's 
fumble, and 481 more, because of the LexisNexis' problem, I am 
even more troubled by these reports. Chairman Stearns, being 
that Florida is fifth in the Nation for ID theft, I know, and 
you just testified that you are quite aware that these 
breaches, what they can mean for consumers and our 
constituents.
    While our witnesses will admit that some of the data 
accessed as a result of the breaches is sensitive personal 
information, including Social Security numbers and driver's 
license numbers, we are also going to hear disclaimers about 
how most of that information was from public records. 
Downplaying the security breaches does not provide me or many 
others with comfort. Although the information may be public, 
when those records are compiled and then linked to other 
information about consumers, the nature of those records is 
radically changed.
    In fact, the power of aggregated information was one of the 
driving forces before the 1974 Privacy Act, which makes it 
illegal for government agencies to amass the kind of personal 
information that data brokers do today. Our Congressional 
predecessors knew that limits were needed to protect the 
people's privacy from government spying. What they did not 
realize was that Big Business would handle the dirty work for 
Big Brother, and that technology would make it possible to 
gather and store thousands of pieces of personal information 
which is available with just the click of a mouse.
    Despite its power, profit, and reach, the burgeoning data 
brokerage industry is largely unregulated. The lack of 
regulation is seriously troubling for a number of reasons. 
First of all, data brokers sell their information to employers, 
insurance companies, debt collectors, government agencies, and 
in some cases, individuals. They see their role as being ``risk 
mitigators'' for their clients. However, the information they 
sell could cost people jobs, insurance, the right to vote, or 
even their lives, if the information is sold to a stalker or 
abusive spouse, for example.
    The risk is shifted to defenseless and unaware people, at 
times crime victims. There are no guarantees that the 
information that data brokers are selling is accurate, and they 
have few, if any, obligations to consumers to correct it. Data 
brokers could blacklist people, and there is little victims can 
do about it. On top of that, as these recent breaches reveal, 
the very collection and sale of the information could mean that 
even more accurate information is added to--inaccurate, excuse 
me--that even more inaccurate information is added to 
consumers' records.
    Already, 700 people who had their information bought by 
fraudsters from ChoicePoint have become victims to identify 
theft, and although ChoicePoint has promised to help them 
correct the problems they will incur, it will take these 
individuals on average 2 years or longer to clear their names. 
Even then, we have no guarantee that all their future records 
will reflect that, and who knows the costs they will incur 
along the way.
    I find the lax security and regulation of data brokers 
especially disturbing because of the government reliance on 
them. One report put the number of government agencies using 
data brokers at around 7,000, from local police stations to the 
Department of Justice, with $67 million in contracts with 
ChoicePoint in 2004 alone. Hundreds of millions of dollars are 
flowing each year from the taxpayers' pockets and into the data 
brokers' banks. While I am troubled by the prospect that the 
government agencies may be violating the spirit of the 1974 
Privacy Act, I am particularly concerned about the fact that 
they are turning to freewheeling contractors to get their 
information.
    If we are going to be using taxpayer dollars to pay for 
these services, we need to make sure data brokers are 
accountable when it comes to the security and accuracy of the 
data they are compiling. People's very lives are at stake, and 
we do not need a Halliburton of the information industry, or 
another legal black hole through which contractors fall, and 
from which they profit.
    Again, Chairman Stearns, I look forward to working with you 
and the other members of our committee, to do what we can to 
protect consumers. Thank you.
    Mr. Stearns. I thank the gentlelady. The chairman of the 
full committee, the distinguished gentleman from Texas, Mr. 
Barton, is recognized.
    Chairman Barton. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and thank you, Commissioner, for being 
here. I would also like to recognize the former Chairman of the 
Science Committee, Bob Walker of Pennsylvania, is in the 
audience, and we appreciate him being here.
    This is an important hearing. We are all very concerned 
about what has happened. Nobody takes this more seriously than 
I do, along with Congressman Markey of Massachusetts. We are 
original founders of the Privacy Caucus in the House, and in 
the Senate, the founders are Senator Chris Dodd of Connecticut, 
and Senator Shelby of Alabama. So I have not only a 
professional interest as Chairman of the Committee, but a 
personal interest as a privacy--co-chairman of the Privacy 
Caucus, with Mr. Markey here in the House.
    It wasn't so long ago that your Social Security number was 
known to two people, yourself AND the Social Security 
Administration. I have stopped carrying my Social Security 
card. I have just memorized it, but if I forgot it, it wouldn't 
be very hard for me to get it. I could just almost touch base 
with any number of creditors and, I think, get it very easily. 
I didn't find out until I prepared for this hearing that your 
Social Security number is routinely given, along with other 
very sensitive information, a number of agencies--that data is 
collected by two of the companies that are before us today, 
that have had a problem, and that for almost any purpose, it 
can be obtained rather easily. I think that is just wrong. I 
just think that is wrong. If I want to give my Social Security 
number to somebody, I will give it to them. I know if I go to 
the bank, and I want a loan, I am going to have to give them 
some information, and I will voluntarily disclose that in order 
to get the loan, or at least to be reviewed for the loan. But I 
don't see how it serves my purpose as an individual when my 
number and my information is routinely given without my 
permission. I just fundamentally think that is unfair. In the 
Internet age, it is just dangerous.
    With the availability of information sharing and file 
sharing and all that over the Internet, it is just--it is 
frightening. Identify theft, consequently, is becoming one of 
the top issues in consumers' and voters' minds. My former wife 
had her Social Security number stolen and used for medical 
purposes at a hospital in Dallas, and only found out about it 
when the hospital tried to collect some emergency room charges. 
And since she was not in that hospital at any time for medical 
services, we were able to prove that it wasn't her. If somebody 
else had gotten her Social Security number, and tried to use it 
to get medical treatment in Dallas.
    I understand that some of these groups that are here today 
provide a public service by collecting information and selling 
it, so that business groups can market legitimately their 
products, over the Internet and through the mail and by 
telephone. But I don't think that that is a guaranteed right, 
and I do believe that individuals have the right to know what 
is going on with their information. I think that after we hold 
this hearing, we are going to have to make a decision whether 
we need to set some national standards about what can be 
traded, when, and what you have to tell the individual that 
their own information is being used, and whether when, in this 
case, it is stolen, people should be notified of that. 
Currently, there is no Federal standard or Federal law that 
requires that.
    Last year, according to the Federal Trade Commission, 10 
million consumers were victims of identity theft. Ten million. 
That number is going up, and if you are one of those 10 million 
people, just getting your identity stolen is not the end of it. 
It takes years and years, sometimes, to clean up the damage of 
one inadvertent problem. We have a lot of members on this 
committee that are very interested in this issue. I have 
already mentioned Congressman Markey. Chairman Stearns has held 
a number of hearings on this. Congressman Shadegg, our whip on 
the committee, passed a Public Law, the Identity Theft and 
Assumption Deterrence Act of 1998, 7 years ago. So we are ready 
to go. We are going to hear our Chairman of the Federal Trade 
Commission. We are going to hear some of our private sector 
CEOs. Then we will hear some consumer advocates.
    I don't know if this is the only hearing we are going to do 
on this. We may do another one. But some time this spring, we 
are going to sit down after we have listened and digested the 
testimony, and make a decision what legislative strategy, if 
any, we need to employ. But my guess is we are going to move 
forward with some Federal legislation on this issue, and with 
that, Mr. Chairman, I would yield back.
    [The prepared statement of Hon. Joe Barton follows:]
 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce
    Thank you Mr. Chairman for holding this hearing today. It is no 
secret that privacy and information security are important to me. I co-
founded the Congressional Privacy Caucus, and as Chairman of the 
Committee on Energy and Commerce, I have focused on Internet issues 
like the spyware legislation that passed out of the Committee by a vote 
of 43 to 0 just last week.
    Not long ago, your Social Security number was between you and the 
government and nobody else. Nowadays, everybody seems to have your 
number. That knowledge is the key to your financial security. It opens 
a door for identity thieves to sneak into your life and steal both your 
money and your good name.
    I just think this situation is fundamentally wrong any time. And in 
the Internet age, it's downright dangerous. Under current law, anyone 
has a near-perfect right to package your personal information and do 
almost anything they want with it. They can change it, share it, rent 
it or sell it. The constraints are so flimsy they're laughable.
    Although I recognize the consumer benefits of an increased flow of 
information--such as easier and cheaper access to credit--I do believe 
that consumers should have some measure of control over their 
information. In particular, I believe that the businesses that benefit 
from the use of consumer information should bear greater responsibility 
for the security and integrity of that information. While specific 
industries and particular types of information are governed by Federal 
data security standards, Congress has not set comprehensive data 
security standards. It may be time we do so.
    I believe we will need to consider whether there should be national 
standards for protecting consumers when their personal information is 
lost or wrongfully disclosed by a data broker. Consumers have no direct 
relationships with these data brokers. To data brokers, we are not 
customers--information about each of us is a product that is sold for 
many purposes, including marketing without our knowledge or consent.
    I have been troubled by the press accounts that have revealed 
security breaches at companies in a range of industries from financial 
institutions, to data brokers, to retail outlets. Those breaches range 
from misplaced information to outright fraud by identity thieves. No 
matter the particular circumstances, these breaches demonstrate that 
American businesses must do more to outwit identity thieves, and this 
Committee must take the lead in developing appropriate safeguards for 
consumer information.
    Identity theft is big business and the thieves are getting smarter 
and more resourceful. According to the Federal Trade Commission, 
approximately 10 million consumers were victims of identity theft in 
2003. It is estimated that in 2003, identity theft victims spent 297 
million hours trying to clear up the problems and their reputations.
    Even after unauthorized credit cards are closed and charges are 
settled, it can take years for an innocent consumer to repair a credit 
report. All the while, home ownership and other personal goals innate 
to the American Dream could be out of reach. Data brokers do not bear 
direct responsibility, but we have to ask: What are these companies 
doing to cure the epidemic of identity theft?
    This Committee has a deep bench of experts in the areas of identity 
theft and privacy. Chairman Stearns has held numerous hearings parsing 
through important issues surrounding information privacy and security. 
Representative Shadegg was the author of an important public law, the 
Identity Theft and Assumption Deterrence Act of 1998. That Act has 
provided significant tools for enforcement against identity theft. It 
also directed the Federal Trade Commission to set up an identity theft 
consumer resource center. That center has been a success as it has 
gathered important information regarding identity theft, acted as a 
central repository for complaints, and provided important consumer 
education. I am pleased Chairman Majoras is here to testify today as 
she brings much expertise in this area. I am eager to hear her 
proposals for better and more comprehensive Federal data security 
standards.
    I would also like to welcome the other witnesses today and I thank 
them in advance for their testimony. We have a number of witnesses with 
busy schedules and we appreciate their cooperation and assistance in 
working through these challenging policy questions. Thank you and I 
yield back the balance of my time.

    Mr. Stearns. I thank the gentleman. Ms. Baldwin, from 
Wisconsin. I think. He was the first one here. She was the 
first, actually. Mr.----
    Ms. Baldwin. Representative Markey was here before me. I--
--
    Mr. Stearns. Oh, okay.
    Ms. Baldwin. He greeted me as I walked in the door.
    Mr. Stearns. All right. Good. I am glad you corrected. The 
gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. I thank the chairman very much. And I would 
like to reiterate what the chairman of the full committee just 
said, which is that this is an issue which knows no political 
boundaries. Chairman Barton and I co-founded the Privacy 
Caucus, 7 or 8 years ago, because there is a point on privacy 
issues where the libertarian right and the liberal left agree 
wholeheartedly, and that is that the privacy of individuals 
should be inviolate.
    Now, we find that there is a pragmatic middle that argues 
that it interferes with the ability of businesses to make money 
off of the privacy of individuals, but whether you are a 
Democrat or a Republican, regardless of your age, it all polls 
out the same way. Eighty percent to 90 percent of all Americans 
want stronger privacy protections. And Chairman Barton and 
Chairman Stearns and I, Democrats and Republicans, Jan 
Schakowsky, we all agree on this issue. Americans take privacy 
seriously. We guard our credit cards by carefully returning 
them to our wallets. We keep our mortgage records and Social 
Security cards and personal documents locked up.
    How would consumers feel if they discovered that while they 
take extra precautions to guard their personal information, 
their names, Social Security numbers, tax records, credit 
histories, and employment records were piled high into 
wheelbarrows and baskets, and sold to the highest bidder, in a 
bustling marketplace that is as frenetic and unregulated as the 
streets of Bombay? Right here, get your Social Security 
numbers, medical records, employment history, cheaper by the 
dozen. Come, purchase them, the records of all Americans. How 
would we all feel that our Social Security number was in some 
identity vendor's suitcase of wares? How would we feel? We 
would feel violated. That is exactly how two of my 
constituents, Kei and Karen Kishimoto felt this week, when they 
wrote me about a letter they received from ChoicePoint, stating 
that they were among the 145,000 victims whose Social Security 
numbers and other sensitive and personal data were compromised 
by ChoicePoint.
    ``We are furious,'' they wrote, ``that ChoicePoint has 
irresponsibly allowed this to happen. We take every precaution 
within our power to minimize our risk of becoming victims of 
identity theft.'' These are just two of 145,000 victims. They 
had no choice about this, and that is the point. They all feel 
violated, each and every one of them. And so as this scandal 
grows, we must legislate. I have introduced one piece of 
legislation with Senator Bill Nelson from Florida, which would 
require the FTC to put tough new safeguards in place, that all 
of these information brokers will have to abide by, and I have 
a second bill, that Senator Feinstein, in the Senate, has the 
counterpart to, that I have introduced for several years, that 
will make it a crime for a person to sell someone's Social 
Security numbers. I think we have reached a point where all of 
America, through ChoicePoint, has begun to understand how 
vulnerable each and every one of their families has become.
    I thank you, Mr. Chairman, for holding this very important 
hearing.
    Mr. Stearns. I thank the gentleman. Mr. Terry is--if Terry 
is not here, then Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. Thank you for holding 
this very important meeting on a topic that is both timely and 
pertinent in today's world.
    Today, the Federal Trade Commission Chairman will remind us 
that this committee, that in 2003, the FTC estimated almost 10 
million Americans were the victims of identity theft. In the 
last 5 years alone, the FTC estimates that 27 million Americans 
have been victims, costing consumers more than $5 billion. Nary 
a week goes by that I do not see a story on the nightly news 
about the dire effects consumers suffer when they fall victims 
to identify theft.
    The term ``identity theft'' has unfortunately become 
commonplace in the American lexicon. Yet, it is important to 
take a second to consider the term and the crime, and remember 
that it is, in fact, a crime as heinous as burglary or 
extortion. The perpetrators of these crimes are the bane of e-
commerce, and must be hunted down, prosecuted, and imprisoned 
for a long while.
    Too often we hear of schemes involving numerous consumer 
victims, and we focus on the companies that were also 
victimized, instead of placing the blame squarely on the 
shoulders of the terrorists who perpetrate these crimes. Recent 
events have brought this topic into the limelight. ChoicePoint 
and LexisNexis were both victims of malicious and fraudulent 
crimes. ChoicePoint was deceived into selling aggregated 
consumer data to criminals, who may or may not have used it to 
defraud upwards of 150,000 consumers. According to early 
estimates, data from almost 2,000 Pennsylvanians were placed in 
jeopardy, and similarly, a LexisNexis data base was subject to 
criminal hacking, which resulted in thousands of customers 
being placed at risk for financial fraud being committed 
against them.
    I am alarmed at the amount of personal information that 
most of think to be private is sold and traded every day 
without the knowledge of the actual person. It is important for 
Congress and especially this committee to be vigilant in 
monitoring the personal data commodity markets, because an 
infinitesimal number of consumers actually are aware of how 
much their information is publicly available for companies to 
purchase without giving you a dime. It is equally important not 
to fear-monger on this topic. The ability of data aggregators 
to provide accurate information about individuals is vital to 
our credit-based economy, and has become essential to law 
enforcement, and a vital component in our homeland security 
network.
    Every one of us submits to providing the detailed 
information almost every time we enter into contract with a 
vendor, whether it is for a credit card or even a newspaper 
subscription. Some companies refuse to sell consumer--customer 
information to data aggregators. If companies wish not to have 
their data traded or disseminated, then they should seek out 
such companies. However, it is important to emphasize that we 
are not holding this hearing to take gratuitous potshots at an 
industry that is vital. We are here this morning to figure out 
what the industry and Federal Government are doing to ensure 
consumer data does not fall prey to criminals who will use it 
to defraud.
    I am eager to hear from the witnesses, and stand ready to 
take legislative actions to further protect consumers, and more 
harshly punish the pirates that commit these crimes.
    Thank you.
    Mr. Stearns. I thank my colleague. The gentlelady from 
Wisconsin.
    Ms. Baldwin. Thank you, Mr. Chairman.
    Over the past quarter century, we have all witnessed the 
revolution in information technology, and with access to the 
right data bases, a touch of the button, vast amounts of 
information about a person can be immediately accessed, their 
date of birth, Social Security number, credit rating, debt, 
loans, insurance claims, magazine subscriptions, and even DNA 
information. Much of this information is relatively easily 
accessible to companies for a variety of legitimate purposes, 
but such broad compilations raise significant concerns that 
have been insufficiently considered by this Congress, and more 
generally, by the American people.
    First, how do we ensure that the data is not misused? The 
potential here for fraud and abuse is significant, and as we 
know from the Federal Trade Commission, identity theft 
accounted for 39 percent of consumer fraud complaints in 2004. 
Unfortunately, this problem is far greater than just 
ChoicePoint.
    Second, how do we ensure that the data is accurate? The 
everyday lives of Americans are affected by business decisions 
based on personal information dossiers that are compiled 
without their knowledge or input. A person has no easy way to 
review that data, or determine that the information is accurate 
or, perhaps, inaccurate, misleading, perhaps incomplete. And I 
realize, Mr. Chairman, that that second question is beyond the 
scope of today's hearing, but I do hope that the subcommittee 
will also focus on this question in the near future.
    I am concerned that there is an inadequate and a sort of 
patchwork of laws and regulations that cover and govern the 
collection, compilation, distribution, and use of aggregated 
personal and financial information. Today, I hope to hear from 
our witnesses, as they articulate ways in which we can protect 
consumers from identity theft and other misuses of their data.
    Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentlelady. The gentlelady from 
Wisconsin--from California, Ms. Bono. Waive, the gentlelady 
waives. Mr. Deal. Waive. Mr. Pitts. Pass. Mr. Otter. Ms. 
Blackburn. Waive, okay. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Instead of data brokers, it is probably better to think of 
companies like ChoicePoint as data banks. Like financial banks, 
they hold something valuable, and by choosing to profit from 
what they store, they must accept the responsibility to protect 
it from those who misuse it. Imagine that the bank down the 
street has been robbed repeatedly. The vault lock is pretty 
old, the night watchman's vision isn't what it used to be, and 
they have no alarm system. The crooks know the bank is an easy 
mark, so the depositors keep taking it on the chin. Would we 
respond, would we even consider responding only with tougher 
bank robber penalties in mandatory robbery disclosure? Of 
course not. We would make sure that the bank got a state-of-
the-art lock, perhaps Lasik surgery for the guard, and an alarm 
system designed maybe for a nuclear missile silo.
    We have to consider a similar approach here. We ought to 
give the FTC clear authority to set and enforce tough rules for 
data protection. We ought to make all these rules seamless, so 
the bad guys can't sneak in through the cracks, and we ought to 
put the--use the government's purchasing power to promote best 
practices that take security beyond the bare minimum. If the 
Federal Government fails to respond that way here, with a 
comprehensive approach, we are as negligent as the data brokers 
who allowed these violations to occur in the first place.
    The economic impact of the crimes resulting from 
ChoicePoint's negligence may reach the tens of millions of 
dollars, but in a broader context, the stakes are much higher. 
ChoicePoint, this same company, is famous, or should I say 
infamous, for a mistake with the voter files in Florida during 
the 2000 Presidential election. Its error, coupled with the 
errors of public officials, disenfranchised thousands of 
African-American voters, and may have decided the Florida 
elections and the Presidential elections. But ChoicePoint, with 
all of its political connections to the highest levels of the 
government in this country, was not the only party at fault. 
The politician who chooses a contractor to perform a basic 
government function, like administering elections, is just 
asking for trouble, and the costs of contracting out are not 
measured only in terms of dollars.
    The lesson here, and I urge my colleagues to remember all 
of that the next time someone suggests a privatization plan, a 
privatization of any function that has been performed 
effectively and efficiently, and honorably and honestly, by our 
government. And I urge this subcommittee to act thoughtfully, 
but quickly, on legislation to reform the data brokerage 
industry.
    Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. Mr. Green. No, let's 
see. Coming back over here. Okay. Now, Mr. Green. Yeah. The 
gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman. I would like to have my 
full statement in the record, and I won't use all my time.
    Mr. Stearns. By unanimous consent, so ordered.
    [The prepared statement of Hon. Gene Green follows:]
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    I'd like to thank Chairman Stearns and Ranking Member Schakowsky 
for taking the lead on this issue and holding this important hearing. 
I'd also like to welcome Chairwoman Majoras for being here today. Your 
cooperation and willingness to share your knowledge and experience with 
this committee is imperative to our success in combating data and 
identity theft.
    Also, Mr. Smith and Sanford are to be commended for being here as 
the leaders of their companies to share with us how their business 
works, what's wrong with the current system and how we might be able to 
fix it.
    Identity theft is the number one crime in the United States. The 
FTC estimates about $48 billion is lost each year to business due to 
this crime, and $5 billion to consumers. We have held an Identity Theft 
Workshops for our constituents so they know what they can do to lower 
the chance that someone can access their information.
    These workshops only work when credit reporting agencies, financial 
institutions and data brokers do their job to make sure information 
doesn't fall into the wrong hands.
    Now more than ever, we've ``become a number'': Most often, than 
number is our Social Security Number. Every financial institution uses 
that number to verify that you are who you say you are.
    Most of the time, this system works. However, when the information 
has been stolen and others have been using your name to get credit, 
make purchases, or start phony businesses, the results can be tragic. 
Without good credit, you can't buy a home, you may be turned down for a 
job and it can take months even years to repair the damage that's been 
done.
    Our current systems of laws addressing this problem are piecemeal. 
We have the Fair Credit Reporting Act to address Credit Reporting 
Agencies. The Federal Trade Commission Act addresses unfair and 
deceptive trade practices. There is a separate law for Drivers License 
data, Gramm-Leach--bliley addresses Financial Institutions and of 
course, there's HIPPA, which protects the security of our medical 
records.
    Today, there is no encompassing law that addresses this problem on 
the federal level. I believe this is one of the problems. While I 
support crafting legislation specifically to address the unique uses of 
information, we have not sent a message to Americans that this is 
something we are going to be tough on regardless of what type of 
information is stolen or misused.
    In the case of ChoicePoint, information was sold to a faulty 
business and approximately 145,000 people are at risk of having their 
information used without their knowledge. Hundreds are reported to have 
already been affected in California.
    Choice Point brokers information for a variety of purposes and does 
so through some of their subsidiaries such as Database Technologies 
(DBT). DBT was contracted with the State of Florida in 2001 and was 
responsible for the removal of almost ten thousand minorities and 
eligible voters from the rolls in Florida which threw our country into 
uncertainty for several days while we determined who was elected 
President of the United States.
    In addition, Choice Point DNA data was used to help identify many 
of the victims on September 11. The scope of the information out there 
is immense and the responsibility that comes with collecting and 
selling this information is just as large.
    We are here today to begin a dialogue with industry, the FTC and 
our colleagues to see what we can do to make our information as secure 
as possible. Billions of dollars can be made by using this information 
illegally. There will always be those who want to obtain this 
information for illegal purposes. Our purpose is to improve the 
safeguards to the consumer.
    As we will hear today, this issue is complex. However, what is 
clear is that something needs to be done to improve the security of our 
identities. I believe requiring notification of individuals affected by 
a security breech is where we should start.
    I look forward to working with all of you on this important issue.
    Thank you Mr. Chairman. I yield the balance of my time.

    Mr. Green. But I just wanted to make three points.
    One of them, I want to welcome our FTC Chairman here today, 
and identity theft is such a major issue, and when we heard 
about what happened with ChoicePoint, it was frustrating, 
because ChoicePoint may have provided the data for 140,000 
people, and I know they have a great deal of data. The bad part 
is, is that they also struck some voters off the rolls in 
Florida in 2001, but the good point is they were helping, they 
actually helped victims of 9/11 to identify the folks.
    The problem I have is that I know, under Federal law now, 
we are allowed, our constituents and ourselves are allowed 
copies of--annually, of our credit reports from the three major 
agencies. But I have a copy of an MSNBC report about a lady, 
Donna Pierce, who received her ClearPoint, or--sorry, 
ChoicePoint document, and yet, it wasn't supposed to be in our 
hands. Does not--does Federal law not allow me to ask 
ChoicePoint, I want to see what you have on me?
    If it is not, Mr. Chairman, we need to make sure that 
changes, because if it is my information, I ought to have 
access to it and correct it, just like we have now for our 
three major credit agencies.
    With that, Mr. Chairman, I will put my full statement in 
the record. Thank you.
    Mr. Stearns. I thank the gentleman. Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman. I have a full statement 
that I would like to submit for the record.
    But just a couple of points that I would like to make that, 
so far, no member on either side of the aisle has made. And 
that is, in my belief, that your information is actually your 
private property. And maybe it is our general disregard in this 
country, any more, for private property, copyright, patent, 
creative genius, or what have you. That is your private 
property, and so long as you are engaged in peaceful use of 
that private property, then it is the government's job to 
protect that.
    Yet, I also note, from the chairman, from the full 
committee chairman, who was just, I asked him, in his 
recollection, is there any law or any punishment for even a 
government bureaucrat, saying the IRS, or saying some other 
information gathering, Medicaid, Medicare, entity of 
government, is there a penalty for them giving out private 
information? And so far as we have been able to ascertain, 
there is none.
    So Mr. Chairman, this is far and reaching, and I think if 
we just look at the private sector and the private sector only, 
and forget about our privacy, and forget about our personal 
rights to peaceful use of our privacy, we are making a big 
mistake. I do appreciate your having this hearing, and allowing 
a broad perspective research and development of this issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. C.L. ``Butch'' Otter 
follows:]
 Prepared Statement of Hon. C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho
    I would like to thank the chairman for holding this hearing. I 
think it is an extremely important issue and believe we have a real 
opportunity to assist businesses and their customers in providing a 
safe electronic marketplace.
    In recent years there has been an increased awareness of identity 
theft, yet we still hear relatively little about the losses associated 
with these thefts.
    While there will always be those who are dishonest and seek to scam 
the system, we must be more diligent in protecting our electronic 
assets and information. A system of shields employed to provide 
protections is certainly in the best interest of both consumers and 
companies that rely on the Internet to conduct business.
    I am very interested in hearing from the witnesses today on what 
role they believe the government has in safeguarding consumers and 
companies that rely on the Internet and electronic transactions to 
conduct business.
    Mr. Chairman, I thank you again for the opportunity to examine this 
issue and I look forward to hearing from the witnesses.

    Mr. Stearns. I thank the gentleman from Idaho. Mr. 
Gonzalez, the gentleman from Texas.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. I will be 
brief. But I was on Financial Services when the Fair Credit 
Reporting Act and reauthorization and what we were thinking of 
doing came up, and I was there when the Gramm-Leach-Bliley Act 
came up, and we voted it out.
    And the big question, then, was recognizing the economic 
realities of how people do business, and the need to, of 
course, acquire and store, exchange and share information, and 
it was quite a debate. We finally came up and recognized 
realities. But what we are faced with today is something that 
everybody feared, and that is okay, what about the safekeeping 
and the proper sharing with the proper individuals that are 
entitled to the information? We assumed, of course, that there 
would be some mischief out there, but maybe never to the scale 
that we are experiencing today, with some of the stories that 
are out there in the press, and what we are dealing with this 
morning.
    The question then comes down to, because you have heard how 
strongly members on both sides of the aisle feel about the 
nature of this information. If you can't protect it, if you 
cannot secure it, should it be out there at all? And if we are 
not going to have that kind of information collection and 
sharing, how does it, then, impact the day to day businesses of 
what we do in this country? And so I think we have to really 
keep the two issues, and see if we can still, you know, come up 
with some solutions to make sure that we don't impact the 
bigger and greater picture out there, of the necessity for 
responsible collection and sharing of information.
    I yield back.
    Mr. Stearns. The gentleman yields back. The gentlelady from 
Colorado.
    Ms. DeGette. Thank you. Mr. Chairman, I would ask unanimous 
consent to put my full statement in the record.
    Mr. Stearns. By unanimous consent.
    Ms. DeGette. Let me just make a couple of points.
    There is a real human face on this problem. Thirty-two 
thousand people, people, our constituents, were affected by the 
incidence at LexisNexis, and credit card numbers were stolen 
from customers of over 100 stores at a popular retailer. One 
hundred fourty-five thousand people were affected by the 
ChoicePoint security lapse, and of course, 1.2 million Federal 
workers now know that the Bank of America has lost computer 
tapes that contained confidential financial data.
    And what all of this shows together is that the information 
broker business needs a closer look. These companies are 
dealing in the business of people's most confidential 
information, their Social Security numbers, their credit card 
data, their driver's license records, and their other personal 
information, and this is information that belongs to millions 
and millions of people.
    If these companies are vulnerable to hacking and other 
fraudulent practices, which obviously they are, then we have no 
choice but to draw the conclusion that the privacy and overall 
security of our citizens is at risk, and so I am looking 
forward to hearing more from the FTC about the recent study 
that was released showing that in a 1-year period, over 10 
million people in this country had their personal information 
stolen and used in a fraudulent manner, and I am hoping that 
there is some idea as to the new tools that we can use to deal 
with this growing problem.
    Society pays a great price, frankly, the citizen's personal 
information is available to criminals. The economy suffers 
because of business losses, and to individuals who are victims 
of identity theft, it can be utterly devastating, and it takes 
huge numbers of hours for people to try to deal with this. And 
so, Mr. Chairman, I, like everyone else, am glad that you had 
this hearing to decide what tools we have in place to combat 
this problem, but more importantly, I am looking forward to, as 
a committee, determining what more may need to be done to 
protect this very sensitive data.
    And with that, Mr. Chairman, I yield back.
    Mr. Stearns. I thank the gentlelady. The gentleman, Mr. 
Towns, from New York.
    Mr. Towns. Thank you very much, Mr. Chairman, for holding 
this hearing.
    The recent high profile cases of consumers' personal data 
being unwittingly sold or stolen has brought this issue to the 
forefront. The American public is looking for answers to how 
data brokers, such as ChoicePoint, could make such a glaring 
error. I am hopeful today's hearing will begin the important 
process of examining our current laws, and help our committee 
determine what we can do to strengthen those laws, or improve 
enforcement of our existing statutes.
    I have had a longstanding interest in protecting consumers' 
privacy. I first began advocating for safeguarding medical 
records when I found my own medical records in a public trash 
bin, and of course, the hospital had closed, and they threw the 
records out, and the records were just there for anybody to 
grab or to see, and in response, I introduced a bill protecting 
the privacy rights of insurance claimants, which became part of 
HIPAA.
    Since last Congress, I have been working with my colleague, 
Congresswoman Mary Bono, to protect consumer privacy on the 
Internet from spyware. Our committee passed this bill last 
week, and I am hopeful that we can send it to the President's 
desk before the end of this year. But perhaps most frightening 
is the ability of these large companies to aggregate data, so 
that almost anything can be found out about you by a wide range 
of people.
    On one hand, ChoicePoint should be commended for using its 
data to help clear wrongly convicted felons, as part of the 
Innocence Project. However, on the other hand, its data was 
mistakenly used to wrongly disenfranchise thousands of African-
American voters in the 2000 election.
    I look forward to hearing from our witnesses today, Mr. 
Chairman. I think this is a very important hearing, and I think 
that what we do here will determine the lives of many, in terms 
of what they will go through in years to come. So I look 
forward to hearing from the witnesses.
    Mr. Stearns. I thank the gentleman. I think we are ready. 
Mr. Terry, did you have--I will--glad to consider. All right.
    With that, we will have our first panel. Mr. Strickland. I 
am sorry. Did you have an opening statement?
    Mr. Strickland. No, thank you, Mr. Chairman.
    Mr. Stearns. Okay. I thank the gentleman. With that, I 
think the opening statements are complete.
    [Additional statement submitted for the record follows:]
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman, for holding this timely markup.
    I would like to thank the three panels of witnesses who have agreed 
to join us today. The subcommittee has compiled a very respectable list 
of witnesses who will be able to offer us several distinct looks at the 
role of data collection agencies, how these corporations operate, and 
the federal laws governing these information services. The brokerage of 
personal information is a complex issue, and I look forward to 
benefitting from the testimony offered today.
    Throughout my tenure on this subcommittee, we have continuously 
addressed issues relating to privacy protection and the ability of 
third parties to access and distribute personally identifiable 
information. As we will hear today, there are most certainly valid and 
appropriate roles for personal data collection. You can't argue with 
the role data collection agencies play in prosecuting criminals and 
monitoring national security threats. However, with the rapid advance 
of technology, the definition of ``theft'' has been dramatically 
altered. For every genuine and useful role of data collection, there 
seems to be a corresponding opportunity to use this information in a 
criminal nature.
    Internet technology has opened the doors to business and consumer 
opportunities and increased educational access to millions, and this 
increased access is particularly important to the rural areas of 
Wyoming I represent. However, this increasing reliance on web-based 
technologies has opened the door for new crimes. As I said, many of the 
people in Wyoming enjoy the benefits of the internet, but these same 
folks still hold fast to the values of honesty and integrity. These 
principles should not have to be compromised to enjoy the benefits of 
internet technology.
    It is my hope that today's hearing will open a dialogue that will 
demonstrate if Congress is doing enough to protect the common citizen 
from blatant crime and deception posed by identity theft. I also hope 
to hear suggestions regarding what consumers can immediately do to 
protect themselves from identity theft.
    Again, I thank the Chairman, and I yield back the balance of my 
time.

    Mr. Stearns. We welcome the Chairwoman of the Federal Trade 
Commission, Deborah Platt Majoras, for her opening statement, 
and I am very glad to have her. And I had an opportunity to 
meet with her, and we were very impressed, and worked in--close 
together with Tim Muris, your predecessor, and we hope we can 
do the same with you, and we have followed your testimony on 
the Senate Banking Committee, so we hope to hear from you 
again, and with that, welcome.

  STATEMENT OF DEBORAH PLATT MAJORAS, CHAIRMAN, FEDERAL TRADE 
                           COMMISSION

    Ms. Majoras. Thank you very much, Mr. Chairman, members of 
the committee. I am Deborah Majoras, Chairman of the Federal 
Trade Commission. I am grateful for the opportunity to testify 
about identity theft, security of consumer information, and in 
particular, the collection of that information by data brokers.
    Although the views expressed in the written testimony 
represent the views of the Commission, my oral presentation and 
responses to your questions are my own, and do not necessarily 
represent the views of the Commission or any other individual 
Commissioner.
    Recent revelations about security breaches that have 
resulted in disclosure of sensitive personal information about 
thousands of consumers have put a spotlight on the practices of 
data brokers like ChoicePoint that collect and sell this 
information. The data broker industry includes many types of 
businesses, providing a variety of services to an array of 
commercial and governmental entities. Information sold by data 
brokers is used for many purposes, from marketing to assisting 
in law enforcement.
    Despite the potential benefits of these information 
services, the data broker industry is the subject of both 
privacy and information security concerns. As recent events 
demonstrate, if the sensitive information they collect gets 
into the wrong hands, it can cause serious harm to consumers, 
including identity theft.
    As every member here has acknowledged today, identity theft 
is a pernicious problem. As has also been acknowledged several 
times today, our recent survey estimated that as many as 10 
million consumers discovered that they were victims of some 
form of identity theft in the 12 months preceding this survey. 
That is 4.5 percent of our adult population, and it represented 
an estimated nearly $5 billion in losses to consumers, and $48 
billion in losses in business. We must look at ways to reduce 
identity theft, which has shaken consumer confidence to the 
core.
    One means of reducing identity theft is to ensure that 
sensitive, nonpublic information that is collected by data 
brokers is maintained securely. There is no single Federal law 
governing the practices of data brokers. There are, however, 
statutes and regulations that address the security of the 
information they maintain, depending on how the information was 
collected, and how it is used. The Fair Credit Reporting Act, 
for example, makes it illegal to disseminate consumer report 
information, like credit reports, to someone who does not have 
a permissible purpose, that is, a legitimate business purpose 
for using that information. Thus, data brokers are only subject 
to FCRA's requirements to the extent that they provide consumer 
reports as that is defined in the statute.
    Similarly, the Gramm-Leach-Bliley Act, which the Commission 
also enforces, imposes restrictions on the extent to which 
financial institutions may disclose consumer information 
related to financial products and services. Under GLB, the 
Commission issued its Safeguards Rule, which imposes security 
requirements on a broadly defined group of financial 
institutions that hold customer information, and the Commission 
recently brought two cases in which we alleged the companies 
had not taken reasonable precautions to safeguard consumer 
information.
    And finally, Section 5 of the FTC Act prohibits unfair or 
deceptive practices by a broad spectrum of businesses, 
including those involved in the collection or use of consumer 
information. Using this authority, the Commission has brought 
several actions against companies that made false promises 
about how they would use or secure sensitive information, and 
these cases make clear that an actual breach of security is not 
necessary for an enforcement actions under Section 5, if the 
Commission determines that the company's security procedures 
were not reasonable in light of the sensitivity of the 
information being maintained. Evidence of a breach, of course, 
though, may indicate that the company's procedures were not 
adequate.
    Now, it is important to remember that there is no such 
thing as perfect security, and breaches can occur, even for 
companies that have taken reasonable precautions. The 
Commission, consistent with the role that Congress gave us in 
1998, has worked hard to educate consumers and business about 
the risks of identity theft, and to assist victims and law 
enforcement officials. The Commission maintains a website and a 
toll-free hotline, staffed with trained counselors, who advise 
victims on how to reclaim their identities.
    We receive roughly 15,000 to 20,000 contacts per week on 
the hotline, or through our website, or mail from victims, and 
from consumers who want to avoid becoming victims. The 
Commission also facilitates cooperation, information sharing, 
and training among Federal, State, and local law enforcement 
authorities fighting this crime.
    Although data brokers are currently subject to a patchwork 
of laws, depending on the nature of their operations, recent 
events clearly raise the issue of whether these laws are 
sufficient to ensure the security of this information. I 
believe that there may be additional measures that would 
benefit consumers. Although a variety of proposals have been 
put forward, and all should be considered, the most immediate 
need is to address the risks to the security of the 
information.
    Extending the Federal Trade Commission's Safeguards Rule to 
sensitive personal information collected by data brokers is one 
sensible step that could be taken. It also may be appropriate 
to consider a workable Federal requirement for notice to 
consumers when there has been a security breach that raises a 
significant risk of harm to consumers.
    Mr. Chairman, members of the committee, the FTC shares your 
concern for the safety for the security of consumer 
information. We have been working hard on this issue, and we 
will continue to take all steps within our authority to protect 
consumers.
    I thank you for the opportunity to discuss this vitally 
important subject, and I would be happy to respond to your 
questions.
    [The prepared statement of Deborah Platt Majoras follows:]
 Prepared Statement of Deborah Platt Majoras, Chairman, Federal Trade 
                               Commission

                            I. INTRODUCTION
    Mr. Chairman and members of the Subcommittee, I am Deborah Platt 
Majoras, Chairman of the Federal Trade Commission.<SUP>1</SUP> I 
appreciate the opportunity to appear before you today to discuss the 
laws currently applicable to resellers of consumer information, 
commonly known as ``data brokers.''
---------------------------------------------------------------------------
    \1\ This written statement reflects the views of the Federal Trade 
Commission. My oral statements and responses to any questions you may 
have represent my own views, and do not necessarily reflect the views 
of the Commission or any individual Commissioner.
---------------------------------------------------------------------------
    Data brokers provide information services to a wide variety of 
business and government entities. The information they provide may help 
credit card companies detect fraudulent transactions or assist law 
enforcement agencies in locating potential witnesses. Despite these 
benefits, however, there are concerns about the aggregation of 
sensitive consumer information and whether this information is 
protected adequately from misuse and unauthorized disclosure. In 
particular, recent security breaches have raised questions about 
whether sensitive consumer information collected by data brokers may be 
falling into the wrong hands, leading to increased identity theft and 
other frauds. In this testimony, I will briefly describe what types of 
information data brokers collect, how the information is used, and some 
of the current federal laws that may apply to these entities, depending 
on the nature of the information they possess.
    All of this discussion takes place against the background of the 
threat of identity theft, a pernicious crime that harms both consumers 
and financial institutions. A 2003 FTC survey showed that over a one-
year period nearly 10 million people--or 4.6 percent of the adult 
population--had discovered that they were victims of some form of 
identity theft.<SUP>2</SUP> As described in this testimony, the FTC has 
a substantial ongoing program both to assist the victims of identity 
theft and to collect data to assist criminal law enforcement agencies 
in prosecuting the perpetrators of identity theft.
---------------------------------------------------------------------------
    \2\ Federal Trade Commission--Identity Theft Survey Report (Sept. 
2003) (available at http://www.ftc.gov/os/2003/09/synovatereport.pdf).
---------------------------------------------------------------------------

    II. THE COLLECTION AND USE OF CONSUMER INFORMATION <SUP>3</SUP>

---------------------------------------------------------------------------
    \3\ For more information on how consumer data is collected, 
distributed, and used, see generally General Accounting Office, Private 
Sector Entities Routinely Obtain and use SSNs, and Laws Limit the 
Disclosure of this Information (GAO-04-11) (2004); General Accounting 
Office, SSNs Are Widely Used by Government and Could be Better 
Protected, Testimony Before the House Subcommittee on Social Security, 
Committee on Ways and Means (GAO-02-691T) (statement of Barbara D. 
Bovbjerg, April 29, 2002); Federal Trade Commission, Individual 
Reference Services: A Report to Congress (December 1997) (available at 
http://www.ftc.gov/os/1997/12/irs.pdf). The Commission has also held 
two workshops on the collection and use of consumer information. An 
agenda, participant biographies, and transcript of ``Information Flows, 
The Costs and Benefits to Consumers and Businesses of the Collection 
and Use of Consumer Information,'' held on June 18, 2003, is available 
at http://www.ftc.gov/bcp/workshops/infoflows/030618agenda.html. 
Materials related to ``The Information Marketplace: Merging and 
Exchanging Consumer Data,'' held on March 13, 2001, are available at 
http://www.ftc.gov/bcp/workshops/infomktplace/index.html.
---------------------------------------------------------------------------
    The information industry is large and complex and includes 
companies of all sizes. Some collect information from original sources, 
others resell data collected by others, and many do both. Some provide 
information only to government agencies or large companies, while 
others sell information to small companies or the general public.
A. Sources of Consumer Information
    Data brokers obtain their information from a wide variety of 
sources and provide it for many different purposes. The amount and 
scope of information that they collect varies from company to company, 
and many offer a range of products tailored to different markets and 
uses. Some data brokers, such as consumer reporting agencies, store 
collected information in a database and allow access to various 
customers. Some data brokers may collect information for one-time use 
by a single customer. For example, a data broker may collect 
information for an employee background check and provide that 
information to one employer.
    There are three broad categories of information that data brokers 
collect and sell: public record information, publicly-available 
information, and non-public information.
1. Public Record Information
    Public records are a primary source of information about consumers. 
This information is obtained from public entities and includes birth 
and death records, property records, tax lien records, voter 
registrations, licensing records, and court records (including criminal 
records, bankruptcy filings, civil case files, and judgments). Although 
these records generally are available to anyone directly from the 
public agency where they are on file, data brokers, often through a 
network of subcontractors, are able to collect and organize large 
amounts of this information, providing access to their customers on a 
regional or national basis. The nature and amount of personal 
information on these records varies with the type of records and agency 
that created them.<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Specific state or federal laws may govern the use of certain 
types of public records. For example, the federal Driver's Privacy 
Protection Act, discussed infra, places restrictions on the disclosure 
of motor vehicle information.
---------------------------------------------------------------------------
2. Publicly-Available Information
    A second type of information collected is information that is not 
from public records but is publicly available. This information is 
available from telephone directories, print publications, Internet 
sites, and other sources accessible to the general public. As is true 
with public record information, the ability of data brokers to amass a 
large volume of publicly-available information allows their customers 
to obtain information from an otherwise disparate array of sources.
3. Non-Public Information
    Data brokers may also obtain personal information that is not 
generally available to members of the public. Types of non-public 
information include:

<bullet> Identifying or contact information submitted to businesses by 
        consumers to obtain products or services (such as name, 
        address, phone number, email address, and Social Security 
        number);
<bullet> Information about the transactions consumers conduct with businesses 
        (such as credit card numbers, products purchased, magazine 
        subscriptions, travel records, types of accounts, claims filed, 
        or fraudulent transactions);
<bullet> Information from applications submitted by consumers to obtain 
        credit, employment, insurance, or other services (such as 
        information about employment history or assets); and
<bullet> Information submitted by consumers for contests, website 
        registrations, warranty registrations, and the like.
B. Uses of Consumer Information
    Business, government, and non-profit entities use information 
provided by data brokers for a wide variety of purposes. For example, 
the commercial or non-profit sectors may use the information to:

<bullet> Authenticate potential customers and to prevent fraud by ensuring 
        that the customer is who he or she purports to be;
<bullet> Evaluate the risk of providing services to a particular consumer, for 
        example to decide whether to extend credit, insurance, rental, 
        or leasing services and on what terms;
<bullet> Ensure compliance with government regulations, such as customer 
        verification requirements under anti-money laundering statutes;
<bullet> Perform background checks on prospective employees;
<bullet> Locate persons for a variety of reasons, including to collect child 
        support or other debts; to find estate beneficiaries or holders 
        of dormant accounts; to find potential organ donors; to find 
        potential contributors; or in connection with private legal 
        actions, such as to locate potential witnesses or defendants;
<bullet> Conduct marketing and market research; and
<bullet> Conduct academic research.
    Government may use information collected by data brokers for:

<bullet> General law enforcement, including to investigate targets and locate 
        witnesses;
<bullet> Homeland security, including to detect and track individuals with 
        links to terrorist groups; and
<bullet> Public health and safety activities, such as locating people who may 
        have been exposed to a certain virus or other pathogen.
    These are just some examples of how these entities use information 
collected by data brokers.
    It is important to understand that the business of data brokers 
could cover a wide spectrum of activities, everything from telephone 
directory information services, to fraud data bases, to sophisticated 
data aggregations.

             III. LAWS CURRENTLY APPLICABLE TO DATA BROKERS
    There is no single federal law that governs all uses or disclosures 
of consumer information. Rather, specific statutes and regulations may 
restrict disclosure of consumer information in certain contexts and 
require entities that maintain this information to take reasonable 
steps to ensure the security and integrity of that data. The FTC's 
efforts in this area have been based on three statutes: the Fair Credit 
Reporting Act (``FCRA''),<SUP>5</SUP> Title V of the Gramm-Leach-Bliley 
Act (``GLBA''),<SUP>6</SUP> and Section 5 of the Federal Trade 
Commission Act (``FTC Act'').<SUP>7</SUP> Although the FCRA is one of 
the oldest private sector data protection laws, it was significantly 
expanded in 1996 and in the last Congress. The Commission is engaged in 
a number of rulemakings to implement the new provisions of the FCRA, 
many of which are directly targeted to the problem of ID Theft. The 
GLBA is a relatively recent law, and its implementing rule on consumer 
information privacy became effective in 2001. Other laws, such as the 
Driver's Privacy Protection Act <SUP>8</SUP> and the Health Insurance 
Portability and Accountability Act <SUP>9</SUP> also restrict the 
disclosure of certain types of information, but are not enforced by the 
Commission. Although these laws all relate in some way to the privacy 
and security of consumer information, they vary in scope, focus, and 
remedies. Determining which--if any--of these laws apply to a given 
data broker requires an examination of the source and use of the 
information at issue.
---------------------------------------------------------------------------
    \5\ 15 U.S.C. Sec. Sec. 1681-1681u, as amended.
    \6\ 15 U.S.C. Sec. Sec. 6801-09.
    \7\ 15 U.S.C. Sec.  45(a).
    \8\ 18 U.S.C. Sec. Sec. 2721-25.
    \9\ 42 U.S.C. Sec. Sec. 1320d et seq.
---------------------------------------------------------------------------
A. The Fair Credit Reporting Act
    Although much of the FCRA focuses on maintaining the accuracy and 
efficiency of the credit reporting system, it also plays a role in 
ensuring consumer privacy.<SUP>10</SUP> The FCRA primarily prohibits 
the distribution of ``consumer reports'' by ``consumer reporting 
agencies'' (``CRAs'') except for specified ``permissible purposes,'' 
and requires CRAs to employ procedures to ensure that they provide 
consumer reports to recipients only for such purposes.
---------------------------------------------------------------------------
    \10\ ``[A] major purpose of the Act is the privacy of a consumer's 
credit-related data.'' Trans Union Corp. v. FTC, 81 F.3d 228, 234 (D.C. 
Cir. 1996).
---------------------------------------------------------------------------
1. Overview
    In common parlance, the FCRA applies to consumer data that is 
gathered and sold to businesses in order to make decisions about 
consumers. In statutory terms, it applies to ``consumer report'' 
information,<SUP>11</SUP> provided by a CRA,<SUP>12</SUP> limiting such 
provision for a ``permissible purpose.'' <SUP>13</SUP> Although the 
most common example of a ``consumer report'' is a credit report and the 
most common CRA is a credit bureau, the scope of the FCRA is much 
broader. For example, there exist many CRAs that provide reports in 
specialized areas, such as tenant screening services (that report to 
landlords on consumers who have applied to rent apartments) and 
employment screening services (that report to employers to assist them 
in evaluating job applicants).
---------------------------------------------------------------------------
    \11\ What constitutes a ``consumer report'' is a matter of 
statutory definition (15 U.S.C. Sec.  1681a(d)) and case law. Among other 
considerations, to constitute a consumer report, information must be 
collected or used for ``eligibility'' purposes. That is, the data must 
not only ``bear on'' a characteristic of the consumer (such as credit 
worthiness, credit capacity, character, general reputation, personal 
characteristics, or mode of living), it must also be used in 
determinations to grant or deny credit, insurance, employment, or in 
other determinations regarding permissible purposes. Trans Union, 81 
F.3d at 234.
    \12\ The FCRA defines a ``consumer reporting agency'' as an entity 
that regularly engages in ``assembling or evaluating consumer credit 
information or other information on consumers for the purpose of 
furnishing consumer reports to third parties . . . .'' 15 U.S.C. Sec.  
1681a(f).
    \13\ As discussed more fully below, the ``permissible purposes'' 
set forth in the FCRA generally allow CRAs to provide consumer reports 
to their customers who have a legitimate business need for the 
information to evaluate a consumer who has applied to the report user 
for credit, employment, insurance, or an apartment rental. 15 U.S.C. Sec.  
1681b(a)(3).
---------------------------------------------------------------------------
    CRAs other than credit bureaus provide many different types of 
consumer reports. They may report information they have compiled 
themselves, purchased from another CRA, or both. For example, a tenant 
screening service may report only the information in its files that it 
has received from landlords, only a consumer report obtained from 
another CRA, or a combination of both its own information and resold 
CRA data, depending on the needs of the business and the information 
available. Data brokers are subject to the requirements of the FCRA 
only to the extent that they are providing ``consumer reports.''
2. ``Permissible Purposes'' For Disclosure of Consumer Reports
    The FCRA limits distribution of consumer reports to those with 
specific, statutorily-defined ``permissible purposes.'' Generally, 
reports may be provided for the purposes of making decisions involving 
credit, insurance, or employment.<SUP>14</SUP> Consumer reporting 
agencies may also provide reports to persons who have a ``legitimate 
business need'' for the information in connection with a consumer-
initiated transaction.<SUP>15</SUP> Target marketing--making 
unsolicited mailings or telephone calls to consumers based on 
information from a consumer report--is generally not a permissible 
purpose.<SUP>16</SUP>
---------------------------------------------------------------------------
    \14\ 15 U.S.C. Sec.  1681b(a)(3)(A), (B), and (C). Consumer reports may 
also be furnished for certain ongoing account-monitoring and collection 
purposes.
    \15\ 15 U.S.C. Sec.  1681b(a)(3)(F). This subsection allows landlords a 
permissible purpose to receive consumer reports. It also provides a 
permissible purpose in other situations, such as for a consumer who 
offers to pay with a personal check.
    \16\ The FCRA permits target marketing for firm offers of credit or 
insurance, subject to statutory procedures, including affording 
consumers the opportunity to opt out of future prescreened 
solicitations. 15 U.S.C. Sec.  1681a(c), (e).
---------------------------------------------------------------------------
    There is no general ``law enforcement'' permissible purpose for 
government agencies. With few exceptions, government agencies are 
treated like other parties--that is, they must have a permissible 
purpose to obtain a consumer report.<SUP>17</SUP> There are only two 
limited areas in which the FCRA makes any special allowance for 
governmental entities. First, the law has always allowed such entities 
to obtain limited identifying information (name, address, employer) 
from CRAs without a ``permissible purpose.'' <SUP>18</SUP> Second, the 
FCRA was amended to add express provisions permitting government use of 
consumer reports for counterintelligence and counter-
terrorism.<SUP>19</SUP>
---------------------------------------------------------------------------
    \17\ For example, a government agency may obtain a consumer report 
in connection with a credit transaction or pursuant to a court order.
    \18\ 15 U.S.C. Sec.  681f. The information a government agency may 
obtain under this provision does not include Social Security numbers.
    \19\ 15 U.S.C. Sec. Sec. 1681u, 1681v.
---------------------------------------------------------------------------
3. ``Reasonable Procedures'' to Identify Recipients of Consumer Reports
    The FCRA also requires that CRAs employ ``reasonable procedures'' 
to ensure that they supply consumer reports only to those with an FCRA-
sanctioned ``permissible purpose.'' Specifically, Section 607(a) 
provides that CRAs must make ``reasonable efforts'' to verify the 
identity of prospective recipients of consumer reports and that they 
have a permissible purpose to use the report.<SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ 15 U.S.C. Sec. 1681e(a).
---------------------------------------------------------------------------
    The Commission has implemented the general and specific 
requirements of this provision in a number of enforcement actions that 
resulted in consent orders with the major nationwide CRAs <SUP>21</SUP> 
and with resellers of consumer reports (businesses that purchase 
consumer reports from the major bureaus and resell them).<SUP>22</SUP> 
For example, in the early 1990s, the FTC charged that resellers of 
consumer report information violated Section 607(a) of the FCRA when 
they provided consumer report information without adequately ensuring 
that their customers had a permissible purpose for obtaining the 
data.<SUP>23</SUP> In settling these charges, the resellers agreed to 
employ additional verification procedures, including verifying the 
identities and business of current and prospective subscribers, 
conducting periodic, unannounced audits of subscribers, and obtaining 
written certifications from subscribers as to the permissible purposes 
for which they seek to obtain consumer reports.<SUP>24</SUP> In 1996, 
Congress amended the FCRA to impose specific duties on resellers of 
consumer reports.<SUP>25</SUP>
---------------------------------------------------------------------------
    \21\ Equifax Credit Information Services, Inc., 130 F.T.C. 577 
(1995); Trans Union Corp. 116 F.T.C. 1357 (1993) (consent settlement of 
prescreening issues only in 1992 target marketing complaint; see also 
Trans Union Corp. v. FTC, 81 F.3d 228 (D.C. Cir. 1996)); FTC v. TRW 
Inc., 784 F. Supp. 362 (N.D. Tex. 1991); Trans Union Corp., 102 F.T.C. 
1109 (1983). Each of these ``omnibus'' orders differed in detail, but 
generally covered a variety of FCRA issues including accuracy, 
disclosure, permissible purposes, and prescreening.
    \22\ W.D.I.A., 117 F.T.C. 757 (1994); CDB Infotek, 116 F.T.C. 280 
(1993); Inter-Fact, Inc., 116 F.T.C. 294 (1993); I.R.S.C., 116 F.T.C. 
266 (1993) (consent agreements against resellers settling allegations 
of failure to adequately insure that users had permissible purposes to 
obtain the reports).
    \23\ Id.
    \24\ A press release describing the consent agreement is available 
at: http://www.ftc.gov/opa/predawn/F93/irsccdb3.htm.
    \25\ Resellers are required to identify their customers (the ``end 
users'') to the CRA providing the report and specify the purpose for 
which the end users bought the report, and to establish reasonable 
procedures to ensure that their customers have permissible purposes for 
the consumer reports they are acquiring through the reseller. 15 U.S.C. 
Sec. 1681f(e).
---------------------------------------------------------------------------
    In addition to the reasonable procedures requirement of Section 
607(a), the FCRA also imposes civil liability on users of consumer 
report information who do not have a permissible purpose and criminal 
liability on persons who obtain such information under false pretenses.
B. The Gramm-Leach-Bliley Act
    The Gramm-Leach-Bliley Act imposes privacy and security obligations 
on ``financial institutions.'' <SUP>26</SUP> Financial institutions are 
defined as businesses that are engaged in certain ``financial 
activities'' described in Section 4(k) of the Bank Holding Company Act 
of 1956 <SUP>27</SUP> and its accompanying regulations.<SUP>28</SUP> 
These activities include traditional banking, lending, and insurance 
functions, as well as other activities such as brokering loans, credit 
reporting, and real estate settlement services. To the extent that data 
brokers fall within the definition of financial institutions, they 
would be subject to the Act.
---------------------------------------------------------------------------
    \26\ 15 U.S.C. Sec.  6809(3)(A).
    \27\ 12 U.S.C. Sec.  1843(k).
    \28\ 12 C.F.R. Sec. Sec. 225.28, 225.86.
---------------------------------------------------------------------------
1. Privacy of Consumer Financial Information
    In general, financial institutions are prohibited by Title V of 
GLBA and its implementing privacy rule <SUP>29</SUP> from disclosing 
nonpublic personal information to non-affiliated third parties without 
first providing consumers with notice and the opportunity to opt out of 
the disclosure.<SUP>30</SUP> However, GLBA provides a number of 
statutory exceptions under which disclosure is permitted without 
specific notice to the consumer. These exceptions include consumer 
reporting (pursuant to the FCRA), fraud prevention, law enforcement and 
regulatory or self-regulatory purposes, compliance with judicial 
process, and public safety investigations.<SUP>31</SUP> Entities that 
receive information under an exception to GLBA are subject to the reuse 
and redisclosure restrictions under the GLBA Privacy Rule, even if 
those entities are not themselves financial institutions.<SUP>32</SUP> 
In particular, the recipients may only use and disclose the information 
``in the ordinary course of business to carry out the activity covered 
by the exception under which . . . the information [was received].'' 
<SUP>33</SUP>
---------------------------------------------------------------------------
    \29\ Privacy of Consumer Financial Information, 16 C.F.R. Part 313 
(``GLBA Privacy Rule'').
    \30\ The GLBA defines ``nonpublic personal information'' as any 
information that a financial institution collects about an individual 
in connection with providing a financial product or service to an 
individual, unless that information is otherwise publicly available. 
This includes basic identifying information about individuals, such as 
name, Social Security number, address, telephone number, mother's 
maiden name, and prior addresses. See, e.g., 65 Fed. Reg. 33,646, 
33,680 (May 24, 2000) (the FTC's Privacy Rule).
    \31\ 15 U.S.C. Sec.  6802(e).
    \32\ 16 C.F.R. Sec.  313.11(a).
    \33\ Id.
---------------------------------------------------------------------------
    Data brokers may receive some of their information from CRAs, 
particularly in the form of identifying information (sometimes referred 
to as ``credit header'' data) that includes name, address, and Social 
Security number. Because credit header data is typically derived from 
information originally provided by financial institutions, data brokers 
who receive this information are limited by GLBA's reuse and 
redisclosure provision. For example, if a data broker obtains credit 
header information from a financial institution pursuant to the GLBA 
exception ``to protect against or prevent actual or potential fraud,'' 
<SUP>34</SUP> then that data broker may not reuse and redisclose that 
information for marketing purposes.
---------------------------------------------------------------------------
    \34\ 15 U.S.C. Sec.  502(e)(3)(B).
---------------------------------------------------------------------------
2. Required Safeguards for Customer Information
    GLBA also requires financial institutions to implement appropriate 
physical, technical, and procedural safeguards to protect the security 
and integrity of the information they receive from customers directly 
or from other financial institutions.<SUP>35</SUP> The FTC's Safeguards 
Rule, which implements these requirements for entities under FTC 
jurisdiction,<SUP>36</SUP> requires financial institutions to develop a 
written information security plan that describes their programs to 
protect customer information. Given the wide variety of entities 
covered, the Safeguards Rule requires a plan that accounts for each 
entity's particular circumstances--its size and complexity, the nature 
and scope of its activities, and the sensitivity of the customer 
information it handles. It also requires covered entities to take 
certain procedural steps (for example, designating appropriate 
personnel to oversee the security plan, conducting a risk assessment, 
and overseeing service providers) in implementing their plans. Since 
the GLBA Safeguards Rule became effective in May 2003, the Commission 
has brought two law enforcement actions against companies that violated 
the Rule by not having reasonable protections for customers'' personal 
information.<SUP>37</SUP>
---------------------------------------------------------------------------
    \35\ 15 U.S.C. Sec.  6801(b); Standards for Safeguarding Customer 
Information, 16 C.F.R. Part 314 (``Safeguards Rule'').
    \36\ The Federal Deposit Insurance Corporation, the National Credit 
Union Administration, the Securities Exchange Commission, the Office of 
the Comptroller of the Currency, the Board of Governors of the Federal 
Reserve System, the Office of Thrift Supervision, and state insurance 
authorities have promulgated comparable information safeguards rules, 
as required by Section 501(b) of the GLBA. 15 U.S.C. Sec.  6801(b); see, 
e.g., Interagency Guidelines Establishing Standards for Safeguarding 
Customer Information and Rescission of Year 2000 Standards for Safety 
and Soundness, 66 Fed. Reg. 8,616-41 (Feb. 1, 2001). The FTC has 
jurisdiction over entities not subject to the jurisdiction of these 
agencies.
    \37\ Sunbelt Lending Services, (Docket No. C-4129) (consent order); 
Nationwide Mortgage Group, Inc., (Docket No. 9319) (consent order).
---------------------------------------------------------------------------
    To the extent that data brokers fall within GLBA's definition of 
``financial institution,'' they must maintain reasonable security for 
customer information. If they fail to do so, the Commission could find 
them in violation of the Rule. The Commission can obtain injunctive 
relief for such violations, as well as consumer redress or disgorgement 
in appropriate cases.<SUP>38</SUP>
---------------------------------------------------------------------------
    \38\ 15 U.S.C. Sec.  6805(a)(7). In enforcing GLBA, the FTC may seek 
any injunctive and other equitable relief available to it under the FTC 
Act.
---------------------------------------------------------------------------
C. Section 5 of the FTC Act
    In addition, Section 5 of the FTC Act prohibits ``unfair or 
deceptive acts or practices in or affecting commerce.'' <SUP>39</SUP> 
Under the FTC Act, the Commission has broad jurisdiction to prevent 
unfair or deceptive practices by a wide variety of entities and 
individuals operating in commerce.
---------------------------------------------------------------------------
    \39\ 15 U.S.C. Sec.  45(a).
---------------------------------------------------------------------------
    Prohibited practices include deceptive claims that companies make 
about privacy, including claims about the security they provide for 
consumer information.<SUP>40</SUP> To date, the Commission has brought 
five cases against companies for deceptive security claims, alleging 
that the companies made explicit or implicit promises to take 
reasonable steps to protect sensitive consumer information. Because 
they allegedly failed to take such steps, their claims were 
deceptive.<SUP>41</SUP> The consent orders settling these cases have 
required the companies to implement rigorous information security 
programs generally conforming to the standards set forth in the GLBA 
Safeguards Rule.<SUP>42</SUP>
---------------------------------------------------------------------------
    \40\ Deceptive practices are defined as material representations or 
omissions that are likely to mislead consumers acting reasonably under 
the circumstances. Cliffdale Associates, Inc., 103 F.T.C. 110 (1984).
    \41\ Petco Animal Supplies, Inc. (Docket No. C-4133); MTS Inc., d/
b/a Tower Records/Books/Video (Docket No. C-4110); Guess?, Inc. (Docket 
No. C-4091); Microsoft Corp., (Docket No. C-4069); Eli Lilly & Co., 
(Docket No. C-4047). Documents related to these enforcement actions are 
available at http://www.ftc.gov/privacy/privacyinitiatives/promises--
enf.html.
    \42\ As the Commission has stated, an actual breach of security is 
not a prerequisite for enforcement under Section 5; however, evidence 
of such a breach may indicate that the company's existing policies and 
procedures were not adequate. It is important to note, however, that 
there is no such thing as perfect security, and breaches can happen 
even when a company has taken every reasonable precaution. See 
Statement of the Federal Trade Commission Before the House Subcommittee 
on Technology, Information Policy, Intergovernmental Relations, and the 
Census, Committee on Government Reform (Apr. 21, 2004) (available at 
http://www.ftc.gov/os/2004/04/042104cybersecuritytestimony.pdf).
---------------------------------------------------------------------------
    In addition to deception, the FTC Act prohibits unfair practices. 
Practices are unfair if they cause or are likely to cause consumers 
substantial injury that is neither reasonably avoidable by consumers 
nor offset by countervailing benefits to consumers or 
competition.<SUP>43</SUP> The Commission has used this authority to 
challenge a variety of injurious practices.<SUP>44</SUP>
---------------------------------------------------------------------------
    \43\ 15 U.S.C. Sec.  45(n).
    \44\ These include, for example, unauthorized charges in connection 
with ``phishing,'' which are high-tech scams that use spam or pop-up 
messages to deceive consumers into disclosing credit card numbers, bank 
account information, Social Security numbers, passwords, or other 
sensitive information. See FTC v. Hill, Civ. No. H 03-5537 (filed S.D. 
Tex. Dec. 3, 2003), http://www.ftc.gov/opa/2004/03/
phishinghilljoint.htm; FTC v. C.J., Civ. No. 03-CV-5275-GHK (RZX) 
(filed C.D. Cal. July 24, 2003), http://www.ftc.gov/os/2003/07/
phishingcomp.pdf.
---------------------------------------------------------------------------
    The Commission can obtain injunctive relief for violations of 
Section 5, as well as consumer redress or disgorgement in appropriate 
cases.
D. Other Laws
    Other federal laws not enforced by the Commission regulate certain 
other specific classes of information. For example, the Driver's 
Privacy Protection Act (``DPPA'') <SUP>45</SUP> prohibits state motor 
vehicle departments from disclosing personal information in motor 
vehicle records, subject to fourteen ``permissible uses,'' including 
law enforcement, motor vehicle safety, and insurance.
---------------------------------------------------------------------------
    \45\ 18 U.S.C. Sec. Sec. 2721-25.
---------------------------------------------------------------------------
    The privacy rule under the Health Information Portability and 
Accountability (``HIPAA'') Act allows for the disclosure of medical 
information (including patient records and billing statements) between 
entities for routine treatment, insurance, and payment 
purposes.<SUP>46</SUP> For non-routine disclosures, the individual must 
first give his or her consent. As with the DPPA, the HIPAA Privacy Rule 
provides a list of uses for which no consent is required before 
disclosure. Like the GLBA Safeguards Rule, the HIPAA Privacy Rule also 
requires entities under its jurisdiction to have in place ``appropriate 
administrative, technical, and physical safeguards to protect the 
privacy of protected health information.'' <SUP>47</SUP>
---------------------------------------------------------------------------
    \46\ 45 C.F.R. Part 164 (``HIPAA Privacy Rule'').
    \47\ 45 C.F.R. Sec. 164.530(c).
---------------------------------------------------------------------------

  IV. THE FEDERAL TRADE COMMISSION'S ROLE IN COMBATING IDENTITY THEFT
    In addition to its regulatory and enforcement efforts, the 
Commission assists consumers with advice on the steps they can take to 
minimize their risk of becoming identity theft victims, supports 
criminal law enforcement efforts, and provides resources for companies 
that have experienced data breaches. The 1998 Identity Theft Assumption 
and Deterrence Act (``the Identity Theft Act'' or ``the Act'') provides 
the FTC with a specific role in combating identity theft.<SUP>48</SUP> 
To fulfill the Act's mandate, the Commission implemented a program that 
focuses on collecting complaints and providing victim assistance 
through a telephone hotline and a dedicated website; maintaining and 
promoting the Clearinghouse, a centralized database of victim 
complaints that serves as an investigative tool for law enforcement; 
and providing outreach and education to consumers, law enforcement, and 
industry.
---------------------------------------------------------------------------
    \48\ Pub. L. No. 105-318, 112 Stat. 3007 (1998) (codified at 18 
U.S.C. Sec. 1028).
---------------------------------------------------------------------------
A. Working with Consumers
    The Commission hosts a toll-free hotline, 1-877-ID THEFT, and a 
secure online complaint form on its website, www.consumer.gov/idtheft. 
We receive about 15,000 to 20,000 contacts per week on the hotline, or 
via our website or mail from victims and consumers who want to learn 
about how to avoid becoming a victim. The callers to the hotline 
receive counseling from trained personnel who provide information on 
prevention of identity theft, and also inform victims of the steps to 
take to resolve the problems resulting from the misuse of their 
identities. Victims are advised to: (1) obtain copies of their credit 
reports and have a fraud alert placed on them; (2) contact each of the 
creditors or service providers where the identity thief has established 
or accessed an account, to request that the account be closed and to 
dispute any associated charges; and (3) report the identity theft to 
the police and, if possible, obtain a police report. A police report is 
helpful both in demonstrating to would-be creditors and debt collectors 
that the consumers are victims of identity theft, and also serves as an 
``identity theft report'' that can be used for exercising various 
rights under the newly enacted Fair and Accurate Credit Transactions 
Act.<SUP>49</SUP> The FTC's identity theft website, www.consumer.gov/
idtheft, has an online complaint form where victims can enter their 
complaint into the Clearinghouse.<SUP>50</SUP>
---------------------------------------------------------------------------
    \49\ These include the right to an extended, seven-year fraud 
alert, the right to block fraudulent trade lines on credit reports, and 
the ability to obtain copies of fraudulent applications and transaction 
reports. See 15 U.S.C. Sec. 1681 et seq., as amended.
    \50\ Once a consumer informs a consumer reporting agency that the 
consumer believes that he or she is the victim of identity theft, the 
consumer reporting agency must provide the consumer with a summary of 
rights titled ``Remedying the Effects of Identity Theft'' (available at 
http://www.ftc.gov/bcp/conline/pubs/credit/idtsummary.pdf).
---------------------------------------------------------------------------
    The FTC has also taken the lead in the development and 
dissemination of consumer education materials. To increase awareness 
for consumers and provide tips for minimizing the risk of identity 
theft, the FTC developed a primer on identity theft, ID Theft: What's 
It All About? Together with the victim recovery guide, Take Charge: 
Fighting Back Against Identity Theft, the two publications help to 
educate consumers. The FTC alone has distributed more than 1.4 million 
copies of the Take Charge booklet since its release in February 2000 
and has recorded more than 1.7 million visits to the Web version. The 
FTC's consumer and business education campaign includes other 
materials, media mailings, and radio and television interviews. The FTC 
also maintains the identity theft website, www.consumer.gov/idtheft, 
which provides publications and links to testimony, reports, press 
releases, identity theft-related state laws, and other resources.
    The Commission has also developed ways to simplify the recovery 
process. One example is the ID Theft Affidavit, which is included in 
the Take Charge booklet and on the website. The FTC worked with 
industry and consumer advocates to create a standard form for victims 
to use in resolving identity theft debts. To date, the FTC has 
distributed more than 293,000 print copies of the ID Theft Affidavit 
and has recorded more than 709,000 hits to the Web version.
B. Working with Law Enforcement
    A primary purpose of the Identity Theft Act was to enable criminal 
law enforcement agencies to use a single database of victim complaints 
to support their investigations. To ensure that the database operates 
as a national clearinghouse for complaints, the FTC accepts complaints 
from state and federal agencies as well as from consumers.
    With almost 800,000 complaints, the Clearinghouse provides a 
picture of the nature, prevalence, and trends of the identity theft 
victims who submit complaints. The Commission publishes annual charts 
showing the prevalence of identity theft complaints by states and 
cities.<SUP>51</SUP> Law enforcement and policy makers use these 
reports to better understand identity theft.
---------------------------------------------------------------------------
    \51\ Federal Trade Commission--National and State Trends in Fraud & 
Identity Theft (Feb. 2004) (available at http://www.consumer.gov/
sentinel/pubs/Top10Fraud2004.pdf).
---------------------------------------------------------------------------
    Since the inception of the Clearinghouse, more than 1,100 law 
enforcement agencies have signed up for the database. Individual 
investigators within those agencies can access the system from their 
desktop computers 24 hours a day, seven days a week.
    The Commission also encourages even greater use of the 
Clearinghouse through training seminars offered to law enforcement. 
Beginning in 2002, the FTC, in cooperation with the Department of 
Justice, the U.S. Postal Inspection Service, and the U.S. Secret 
Service, initiated full day identity theft training seminars for state 
and local law enforcement officers. To date, this group has held 16 
seminars across the country. More than 2,200 officers have attended 
these seminars, representing over 800 different agencies. Future 
seminars are being planned for additional cities.
    The FTC staff also developed an identity theft case referral 
program. The staff creates preliminary investigative reports by 
examining patterns of identity theft activity in the Clearinghouse. The 
staff then refers the investigative reports to Financial Crimes Task 
Forces and other law enforcers for further investigation and potential 
prosecution.
C. Working with Industry
    The private sector can help tackle the problem of identity theft in 
several ways. From prevention of identity theft through better security 
and authentication, to helping victims recover, businesses play a key 
role in addressing identity theft.
    The FTC works with institutions that maintain personal information 
to identify ways to keep that information safe from identity theft. In 
2002, the FTC invited representatives from financial institutions, 
credit issuers, universities, and retailers to a roundtable discussion 
of what steps entities can and do take to prevent identity theft and 
ensure the security of personal information in employee and customer 
records. This type of informal event provides an opportunity for the 
participants to share information and learn about the practices used by 
different entities to protect against identity theft.
    The FTC also provides guidance to businesses about information 
security risks and the precautions they must take to protect or 
minimize risks to personal information. For example, the Commission has 
disseminated guidance for businesses on reducing risks to their 
computer systems,<SUP>52</SUP> as well as guidance for complying with 
the GLBA Safeguards Rule.<SUP>53</SUP> Our emphasis is on preventing 
breaches before they happen by encouraging businesses to make security 
part of their regular operations and corporate culture. The Commission 
has also published Information Compromise and the Risk of Identity 
Theft: Guidance for Your Business, which is a business education 
brochure on managing data compromises.<SUP>54</SUP> This publication 
provides guidance on when it would be appropriate for an entity to 
notify law enforcement and consumers in the event of a breach of 
personal information.
---------------------------------------------------------------------------
    \52\ Security Check: Reducing Risks to Your Computer Systems, 
available at http://www.ftc.gov/bcp/conline/pubs/buspubs/security.htm.
    \53\ Financial Institutions and Customer Data: Complying with the 
Safeguards Rule, available at http://www.ftc.gov/bcp/conline/pubs/
buspubs/safeguards.htm.
    \54\ Information Compromise and the Risk of Identity Theft: 
Guidance for Your Business, available at http://www.ftc.gov/bcp/
conline/pubs/buspubs/idtrespond.pdf.
---------------------------------------------------------------------------

                             V. CONCLUSION
    Data brokers collect and distribute a wide assortment of consumer 
information and may therefore be subject to a variety of federal laws 
with regard to the privacy and security of consumers' personal 
information. Determining which laws apply depends on the type of 
information collected and its intended use. The Commission is committed 
to ensuring the continued safety of consumers' personal information and 
looks forward to working with you to explore this subject in more 
depth.

    Mr. Stearns. I thank the Madam Chairman for her opening 
statement. I will start with my questions. And it might be 
helpful, in light of your opening statement, to indicate in 
your answers whether this is your personal opinion, or whether 
this is the policy of the Federal Trade Commission, if it turns 
out that is the case.
    And if you don't mind, I would like you just to give a yes 
or no here. Should Congress prohibit the disclosure of Social 
Security numbers without consumers' prior consent? Just yes or 
no.
    Ms. Majoras. I will try, Congressman Stearns. I----
    Mr. Stearns. Well, we can go back to this, but you know, 
as--dealing with these hearings, I like to put people right on 
the spot, just yes or no.
    Ms. Majoras. I understand, but I am afraid on that one, I 
have to answer I can't absolutely answer yes.
    Mr. Stearns. Because you are saying there is extenuating 
circumstances.
    Ms. Majoras. Absolutely.
    Mr. Stearns. Okay. Okay. I will accept that. Would you say 
that Social Security numbers that appear on credit headers 
should be truncated?
    Ms. Majoras. It depends on what they are used for.
    Mr. Stearns. Okay. So in your--like the Chairman Barton 
talked about, the Social Security number, and other members are 
saying it is your personal property, so you are saying that 
Congress should not prohibit the disclosure of Social Security 
numbers in some cases?
    Ms. Majoras. Well, that is correct.
    Mr. Stearns. Okay.
    Ms. Majoras. I don't think that would be valuable to 
consumers----
    Mr. Stearns. Okay. So there is a tipping point, then, you 
are saying, where they get much more information of a consumer, 
and where that Social Security number would be conclusive 
enough that it should be----
    Ms. Majoras. No question there is a line drawing.
    Mr. Stearns. Okay. In your--you have indicated that there 
should be a comprehensive Federal law dealing with privacy and 
security of consumer information. That is correct, right?
    Ms. Majoras. Yes.
    Mr. Stearns. And is that your personal opinion, or the 
Federal Trade Commission?
    Ms. Majoras. It is not in my written testimony, so I will 
have to say that it is my opinion that we can extend some of 
the Federal laws in place today, and regulations, much more 
broadly.
    Mr. Stearns. Beyond the Gramm-Leach-Bliley Act----
    Ms. Majoras. Correct.
    Mr. Stearns. [continuing] and beyond the Sarbanes-Oxley, 
you think there is another role for the Federal Government, 
dealing with privacy and security. And I have a privacy bill, 
so I am sympathetic to what you say.
    Ms. Majoras. Yes.
    Mr. Stearns. But I am just trying to--should consumers have 
the right to inspect information maintained about them by data 
brokers, and seek correction of errors in that information?
    Ms. Majoras. It depends on what the data bank is being used 
for. If it is a fraud data bank, for example, we wouldn't want 
fraudsters to be able to see the information collected on them, 
for example.
    Mr. Stearns. But a lot of people would argue that just like 
with a credit report, you can call the credit company and say, 
what does a credit report look like on me, and I think I should 
have the right, which you do today, to correct it.
    Ms. Majoras. Yes.
    Mr. Stearns. So following that line of reasoning, why 
wouldn't consumers have the right to inspect this information 
that is maintained by data brokers, and seek correction of 
errors if there are some?
    Ms. Majoras. And they do, in fact, if data brokers like 
ChoicePoint are providing information that is considered to be 
consumer report information under the statute.
    Mr. Stearns. California has a law dealing with disclosure 
to consumers, and of course, because of that law, that made 
ChoicePoint have to notify these 146,000. That is extremely 
time-consuming. It is difficult if they can find all these 
people, but we can envision 50 States now starting to pass 
their own laws, 49 others. Should there be a nationwide 
requirement for disclosure, sort of a preemption that the 
Federal Government does, so that all companies like 
ChoicePoint, LexisNexis, deal with this Federal law, and not 
have to deal with 50 separate laws?
    Ms. Majoras. Yes. A Federal requirement would be 
appropriate when there is a significant risk to consumers from 
the breach.
    Mr. Stearns. Okay. There is some talk about some people 
saying we should--we are now--and we need a Communications Bill 
of Rights, that specifies what a person dealing in this new 
information technology age, he or she has a consumer--a 
Communications Bill of Rights. Do you see anything like that 
through the Federal Trade Commission?
    Ms. Majoras. I am sorry, not particularly something we are 
calling the Communications Bill of Rights.
    Mr. Stearns. But what are you calling it then?
    Ms. Majoras. I am--I want to make sure I am clear on what 
you are talking about. Are you talking about communication 
between a consumer and, for example, a financial institution?
    Mr. Stearns. Yes. Well, dealing with a data base, and 
dealing with--what are the rights of the consumers, in terms of 
whether they opt in, opt out, and that is my next question, 
whether you would favor it within this, an opt-in or opt-out 
provision.
    Ms. Majoras. First and foremost, we believe consumers want 
to be sure that their personal information is safeguarded. We 
think that is--that security is what consumers are first and 
foremost concerned about, and that they do have the right to 
ensure that those companies that have their information are 
safeguarding it appropriately. No question about that.
    With respect to opt-in or opt-out, I think it is important 
that we learn from the Gramm-Leach-Bliley scheme. What we have 
found is that, in fact, consumers have received millions 
collectively of notices of their right to opt out of a 
financial institution sharing their personal information, and 
they have not exercised that right. They have not wanted to 
bother with that. We believe, again, they really want to just 
make sure that banks and merchants and others are responsibly 
handling their information and safeguarding it.
    Mr. Stearns. Going back to my first question, should 
Congress prohibit the disclosure of Social Security numbers 
without consumers' prior consent. You could not answer that yes 
or no. Can you give me a sentence to answer that? A couple 
sentences.
    Ms. Majoras. Okay. Social Security numbers are used for 
permissible purposes, like matching a particular consumer to a 
particular credit report, for example, and for verifying 
accuracy of credit reports, which is something we have talked 
about here today already. And those are important purposes, 
because there is no other unique identifier for U.S. citizens. 
So the key is to not squelch use of Social Security numbers for 
purposes for which consumers would want to--would want that 
use, because in fact, consumers care a lot about things like 
instant credit, and that is also important.
    But one more sentence, I promise, Mr. Congressman, Mr. 
Chairman. We believe there are instances in which Social 
Security numbers may be asked for or shared just simply out of 
habit, where they are really not necessary, and there, we 
should be looking at whether further restriction would be 
appropriate.
    Mr. Stearns. Okay. My time has expired, but I would 
interpret what you say, that should Congress prohibit the 
disclosure of Social Security numbers without consumers, is you 
would say no, they should not prohibit. That is what I 
interpreted.
    The ranking member, Ms. Schakowsky.
    Ms. Schakowsky. Thank you. Welcome, Chairman Majoras.
    Ms. Majoras. Thank you.
    Ms. Schakowsky. Illinois just became eligible--Illinoisans 
just became eligible to get free credit reports under a 
program, I think, administered by you, that we can now get that 
information. And it is pretty widely known, and I would assume, 
pretty widely used, that consumer--is that correct?
    Ms. Majoras. Yes, ma'am.
    Ms. Schakowsky. People are doing that. But I am wondering 
how many consumers really know about data brokers? You know, we 
all know about credit agencies and about our credit reports, 
but do you think most consumers actually know about data 
brokers?
    Ms. Majoras. Until recently, no. I don't believe so.
    Ms. Schakowsky. I don't think so either. And so, I think 
that this--the revelation that this information is out there, 
and has been--that security has been breached has really been 
an eye-opener, I think, for a lot of people, and I think 
appropriately, now, the Congress is looking on where it fits 
in.
    And one of the questions I had, as I said in my opening 
statement, the 1974 Privacy Act, I thought, said that the--
acknowledged the power of this aggregated information, and made 
it illegal for government agencies to amass the kind of 
personal information that it seems to me that data brokers do. 
And yet, the government agencies, how many are they, that 
actually purchase this information from data brokers? So it 
seems to me that from the government standpoint alone, that 
that is, if not a breach of the actual language of the law, the 
spirit of the law, in saying that well, we can't do that kind 
of data collection, but we will actually purchase it, and then, 
that is further problematic, because that information is not--
there is no safeguards that it is even accurate.
    I wanted your response, in relation to the 1974 law.
    Ms. Majoras. Well, it is true that government agencies use 
information that has been compiled by data brokers, and we need 
to remember that the reason they use it is if there is a strong 
need in tracking down deadbeats who have not paid their child 
support, or in tracking down those, you know, criminals. There 
is a need for information like that, and that is why, as I 
understand it, government agencies have been using data 
brokers.
    Now, I don't enforce that statute, obviously, against 
government agencies, and so I don't have a personal opinion on 
the application of that statute. But I do wholeheartedly agree 
with you that consumers have the right to ensure that the 
information is safeguarded, and certainly, for the types of 
information that data brokers are collecting, that is being 
used for eligibility decisions on consumers, then data brokers 
should be following the Fair Credit Reporting Act, which does 
require certain standards for accuracy and the like.
    Ms. Schakowsky. So who assures that that happens? If 
consumers are unaware, actually, of the existence of these data 
brokers, and if that information, then, is used to deny them 
credit, for example, how do they--how would they know that?
    Ms. Majoras. Well, there are certain requirements under the 
FCRA that accompany--that is giving out the information is 
required to follow. So if, for example--so any company that is 
supplying consumer report information, and that is, generally, 
information that is being used to make eligibility 
determinations, has some requirements that it must follow, but 
it is true that unlike with respect to the three credit 
reporting agencies, who I agree with you, most consumers know 
about, I don't know that at least to date, consumers have known 
about these data brokers.
    Ms. Schakowsky. So if I am applying for a loan, and the 
financial institution is going to one of these data brokers for 
the information, am I supposed to get notified that that is the 
source of the information, that the data broker is the source 
of the information? And does that ever happen?
    Ms. Majoras. I don't believe you would be notified of the 
source of the information, no. I can't think of an--in this 
patchwork of laws we have, I can't think of one requiring in 
particular----
    Ms. Schakowsky. I am confused about what this notification 
provision is for credit reporting agencies, for example. What 
are you saying?
    Ms. Majoras. Well, if information on your credit report is 
used, and an adverse determination is made on that, then a 
consumer----
    Ms. Schakowsky. Is notified at their home.
    Ms. Majoras. [continuing] is notified--would have to be 
notified that they have been denied on the basis of that 
information.
    Ms. Schakowsky. Is that the responsibility of the financial 
institution, rather than the credit reporting agency?
    Ms. Majoras. I believe it is the financial institution.
    Ms. Schakowsky. Okay. So do we know that they are, in fact, 
if they are using this other source of information, are they 
regularly telling consumers that it is, you know, ChoicePoint 
or whatever, that it is the basis--on that basis, you are being 
denied?
    Ms. Majoras. They are being notified that they are being--
that it was on the basis of what has been supplied in their 
consumer report. I don't know whether they are notified as to 
which credit reporting agency or private data broker. I just 
don't know the answer.
    Ms. Schakowsky. Obviously, there is a lot of holes that we 
need to be filling in. Thank you.
    Ms. Majoras. It is very complicated. Thank you.
    Mr. Stearns. The chairman of the full committee, Mr. 
Barton.
    Chairman Barton. Thank you, Mr.--Chairman Stearns. Madam 
Chairwoman, I just have two questions.
    Is there any reason that we should not make it illegal to 
share or trade a person's Social Security number, and the data 
that goes with it, without their permission?
    Ms. Majoras. There are a couple of reasons why, and that 
is, in the context of, for example, a transaction in which the 
consumer is attempting to get credit or a loan.
    Chairman Barton. I said without their permission.
    Ms. Majoras. Right. So if they--if it is being provided. 
The only other place I can think of, Chairman Barton, is with 
respect to tracking down criminals. And if we are tracking down 
criminals, and trying to match criminals, like, for example, 
identity thieves, that might be another area where we would 
want to consider----
    Chairman Barton. So a law enforcement exception, and then, 
when you give permission, in order to get something of value to 
you, that they can check on you, and--so--but other than that, 
you would support a law that Social Security number can't be 
used, period, without your permission?
    Ms. Majoras. I think we would want to take a closer look to 
all the exceptions. For example, in Gramm-Leach-Bliley, which 
are very similar to the law enforcement exceptions, to make 
sure that we are not missing something. But in terms of--for 
marketing purposes, or----
    Chairman Barton. But under Gramm-Leach-Bliley, all they 
have to do is tell you they are doing it. They don't have to 
get your permission.
    Ms. Majoras. Well, that is right, and they give you the 
ability to opt out, but there are some exceptions in Gramm-
Leach-Bliley, where they don't even have to give you the chance 
to opt out, and those are the exceptions, I think, that we 
ought to look at closely, in the same context.
    Chairman Barton. What would the Federal Trade Commission's 
response be to requiring that if your personal information is 
stolen, as has been--has happened in these two instances, that 
at a minimum, the company that had the information compromised 
would have to notify the individual that their information has 
been stolen or compromised?
    Ms. Majoras. If the information that has been stolen or 
compromised puts the consumer at significant risk, then we 
think that the company should be required to take reasonable 
steps to provide notice to consumers.
    Chairman Barton. Take reasonable steps. Define reasonable 
steps.
    Ms. Majoras. Well, it all depends on the circumstances. 
Consumers move around, and so the question is, how--really, the 
question is only to what degree does the company need to spend 
time trying to track down that individual.
    Chairman Barton. What if we said reasonableness is the same 
standard as if you were trying to collect a bill from that 
individual?
    Ms. Majoras. Well, that would be something that most 
companies would be very familiar with. Probably a good----
    Chairman Barton. Well, they--see--you know----
    Ms. Majoras. Probably a good starting point, Chairman.
    Chairman Barton. Okay. Just a second. Staff would like me 
to ask you about your--under Gramm-Leach-Bliley, one of the 
exceptions is for fraud prevention, and my understanding is 
that the ChoicePoint identity theft, or the theft of the 
material, the company, the individuals, falsely portrayed 
themselves to be a corporation that was trying to get 
information to prevent fraud.
    So is that something that we need to tighten up, the--
either eliminate as an exception, or tighten up the conditions 
under which you could use that exception?
    Ms. Majoras. Well, I think we should take a very close look 
at the exception, and make sure it is not swallowing the rule, 
but in addition, in this instance, we also need to look, I 
think, at extending the Commission's Safeguards Rule, so that 
all companies, like consumer reporting agencies, are required 
to take certain steps when information is requested, so that 
they are not just selling it to anyone, but they are, in fact, 
selling it to someone who has a permissible purpose. That is 
the other way we could tighten.
    Chairman Barton. All right. And I guess my final question, 
in general, would it be the Federal Trade Commission's position 
that Federal legislation of some sort is necessary and helpful 
in this area?
    Ms. Majoras. Yes, that is my position.
    Chairman Barton. Okay. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. The gentlelady from 
Wisconsin. Oh, the gentleman from Massachusetts. Yes.
    Mr. Markey. Thank you, Mr. Chairman. Madam Chairlady, in 
the prepared testimony submitted by the Electronic Privacy 
Information Center, EPIC, Marc Rotenberg states that back on 
December 16, 2004, EPIC urged the FTC to investigate 
ChoicePoint and other data brokers for possible violations of 
the Federal privacy laws.
    Did the FTC initiate any investigation into ChoicePoint in 
response to this request?
    Ms. Majoras. The EPIC petition asked us to examine whether 
existing laws provided adequate regulation and oversight over 
companies like ChoicePoint, a very important question.
    We actually had been looking at the issue before we 
received the EPIC petition. When we received the EPIC letter, 
we increased our efforts, and as you may have heard, we have 
recently been able to publicly acknowledge that we have, in 
fact, opened an investigation of ChoicePoint.
    Mr. Markey. But had you officially begun an investigation 
before press reports appeared, indicating that there had been 
security breaches at ChoicePoint?
    Ms. Majoras. No, we had no evidence that ChoicePoint had 
violated the law at that point.
    Mr. Markey. You did not believe that EPIC's information was 
sufficient to trigger an investigation?
    Ms. Majoras. We thought EPIC's information was sufficient 
to look at the entire landscape, to see if new regulation or 
law was necessary.
    Mr. Markey. And what was deficient in EPIC's information? 
What was lacking that you feel was--that would have been 
necessary to trigger an investigation?
    Ms. Majoras. I am sorry, sir, because I have an active 
investigation of ChoicePoint, I am afraid I can't talk further 
about their actual conduct in the public forum.
    Mr. Markey. The point I am trying to make here is that I 
think that there was a warning, that there was information at 
the Federal Trade Commission, that the Federal Trade Commission 
has to be much more aggressive than it has been in the pursuit 
of the protection of the privacy of individuals, and this is a 
perfect example of where the Federal Trade Commission was not 
as aggressive as the American people would expect you to be.
    Now, as I understand it, ChoicePoint maintained some data 
bases of credit reports that would be regulated under the Fair 
Credit Reporting Act, but that it also had other data bases of 
information that did not meet the Federal Credit Reporting 
Act's definition of a credit report. Is that right?
    Ms. Majoras. That is my understanding from public sources, 
yes.
    Mr. Markey. And this information may have been amongst the 
information that was compromised. Is that right?
    Ms. Majoras. That is my understanding, again, from press 
reports.
    Mr. Markey. Now, a Social Security number is not considered 
a credit report, and also, isn't protected under the Federal 
Credit Reporting Act? Is that also correct?
    Ms. Majoras. Correct.
    Mr. Markey. So don't we really need a new law that 
regulates these information brokers, so that we have fair 
information practices in place to protect the public?
    Ms. Majoras. I think we could use new law that focuses on 
misuse and absolutely focuses on the security of sensitive 
information, yes.
    Mr. Markey. Shouldn't we ban the commercial sale of Social 
Security numbers?
    Ms. Majoras. It depends on what they are being used for.
    Mr. Markey. If they are just being used in a way that 
allows my neighbors to gain access to my Social Security 
number, shouldn't that be banned?
    Ms. Majoras. Yes, absolutely.
    Mr. Markey. Should BJ's Wholesale have the ability to get 
my Social Security number?
    Ms. Majoras. Well, it all depends on what they are using it 
for, and consumers, of course, part with their Social Security 
number, indeed, to be able to buy goods and services, or to get 
credit, for example.
    Mr. Markey. But should they be able to obtain it, if I 
haven't given it to them?
    Ms. Majoras. They might--we might want them to be able to 
obtain it, for example, from a credit reporting agency, if they 
are trying to verify, for example, that I am who I say I am, 
and so that is something we need to look at closely. But 
certainly, banning misuse and purposes outside a window, 
absolutely.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. A couple of quick 
questions. First of all, if we do nothing here in correcting 
some of these patterns, what do you anticipate the level this 
will grow to in 5 or 10 years?
    Ms. Majoras. My goodness. I don't know that I can 
speculate. I am--we try to look for good news wherever we can 
find it. This isn't much good news, but at least between--from 
what we can tell, between 2003 and 2004, the number of identity 
theft victims didn't grow. We hope that is because some of the 
steps that we have been able to take under our authority, and 
that banking agencies have been taking, and of course, 
merchants and responsible companies, are having some impact. 
But it is--we do believe that more needs to be done to 
safeguard personal information.
    Mr. Murphy. My point is, do you believe that there will be 
a number of technological advances that companies will make in 
order to safeguard things on their own, or I am thinking your 
testimony did not contain references to legislation needed to 
protect consumers' security and privacy. So I am wondering if 
you think that the current Federal law regarding data security 
and privacy is adequate to protect consumers.
    Ms. Majoras. Yes, sir. As I said in my oral remarks, we 
think there are two places where we should start with respect 
to new legislation, perhaps. The first is extending the 
Commission's GLB Safeguards Rule beyond financial institutions, 
to include far more institutions that collect or disseminate 
personal data.
    And the second would be to consider a Federal requirement 
for notice when there have been security breaches that pose a 
significant risk to consumers.
    Mr. Murphy. All right. Thank you. And I want, you know, I 
appreciate the work you are doing, to make sure you continue on 
with an investigation that is protecting consumers. Thank you 
very much.
    And thank you, Mr. Chairman.
    Ms. Majoras. Thank you.
    Mr. Stearns. I thank the gentleman. The gentlelady from 
Wisconsin.
    Ms. Baldwin. Thank you, Mr. Chairman, and thank you for 
your testimony today.
    I wanted to probe just a little bit more with the 
reasonableness standard that was being discussed earlier. Under 
the Fair Credit Reporting Act, it would also--Gramm-Leach-
Bliley--companies have a duty to take, or make reasonable 
efforts to verify both the identity of prospective recipients 
of consumer reports, and they also have to make reasonable 
efforts to make sure that these prospective recipients have a 
permissible purpose.
    Without getting into the details of any open investigation, 
could you make this real for us by giving some examples of what 
the Commission views as reasonable efforts?
    Ms. Majoras. Okay. Yes.
    We--and we have entered into some consent agreements with 
companies over time, in which we have laid out, in fact, what 
needs to be done. Now, in the statute itself, there are 
requirements that a CRA that falls under the statute must 
require certification of the identity, and certification of the 
permissible purpose. That is one. Beyond that, there are other 
things that can be done, and we understand are done, at times, 
by CRAs, like audits, and like onsite drop-in visits. And 
audits of the actual information as it is going out, and to 
whom it is going to. Those are some of the measures.
    Ms. Baldwin. Okay. And quickly, I wanted to note the 
efforts undertaken by the Commission under the Identity Theft 
Act, to provide consumers with information and assistance, and 
particularly, assistance to victims of identity theft. I also 
appreciate the Commission's leadership in providing educational 
materials to increase consumer awareness about the problem of 
identity theft.
    I am wondering, in that arena, do you feel that the 
Commission has sufficient statutory authority to provide any 
services deemed necessary or advisable under that law?
    Ms. Majoras. I think we do, and we will continue to educate 
consumers, and help any consumers who have fallen victim, and 
of course, what we really want to do is educate consumers in 
advance, because there are a number of things that consumers 
can do to at least decrease the risk.
    It is always a matter of resources. We are a small agency, 
and I think we are doing a lot in stretching our dollars. I 
think our efforts in education and in training of law 
enforcement have been greatly appreciated. I recently received 
an email from a local police officer, talking about how much 
they appreciate our educating them, because of course, they are 
the first line in this. We don't have criminal enforcement 
authority against this crime. We are facilitating the 
prosecution of these thieves, and we are obviously facilitating 
education.
    Mr. Baldwin. Thank you.
    Mr. Stearns. I thank the gentlelady. We have one vote, and 
then we--I am going to come right back. So we are going to 
recess the committee for this one vote, and with your patience, 
if you will stay with us, and I will start immediately, and I 
will urge members to come back quickly, and there is about 7 
minutes before we have--they shut down the vote, so I will be 
right back.
    Ms. Majoras. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Stearns. The subcommittee will reconvene, and the 
gentleman from New Hampshire, Mr. Bass, is recognized.
    Mr. Bass. Thank you very much, and I would just like to ask 
some basic questions, if I could.
    Could you tell the committee, the subcommittee exactly what 
a credit bureau is, and do they sell consumers' information?
    Ms. Majoras. Forgive me. A credit bureau is a company that 
collects information regarding consumers, generally speaking, 
so that it can be compiled and sold, so that merchants, banks, 
and insurance companies and the like can make eligibility 
determinations about consumers.
    Mr. Bass. Do consumers have the ability to opt out of 
information collection by credit bureaus?
    Ms. Majoras. They do not.
    Mr. Bass. Do credit bureaus sell information to entities 
like ChoicePoint and LexisNexis, and is there Federal 
supervision by a regulator of the downstream use of information 
sold by credit bureaus to data brokers?
    Ms. Majoras. Yes, there is some, so yes, they do sell the 
information, and yes, there is some Federal supervision under 
the Fair Credit Reporting Act.
    Mr. Bass. Is there Federal supervision by a regulator of 
the subsequent sale of consumers' information by a data broker 
to other businesses?
    Ms. Majoras. It depends on what kind of information they 
are selling. If it is a consumer report, for example, that they 
are reselling, which they originally got from a CRA, then the 
answer is yes, then they must comply with the requirements of 
the FCRA. There may be other information, however, that data 
brokers collect, in fact, I believe there are, that are not 
subject to the requirements of the FCRA.
    Mr. Bass. Could you explain ``permissible purposes'' for 
which consumer reports can be disclosed under the Fair Credit 
Reporting Act?
    Ms. Majoras. It--generally, a permissible purpose is to 
determine a consumer's eligibility for credit, for insurance, 
for employment, and the like.
    Mr. Bass. You have testified that, ``targeted marketing is 
generally not a permissible purpose.'' When is targeted 
marketing permissible?
    Ms. Majoras. There is an exception in the statute with 
respect to prescreened offers.
    Mr. Bass. Has the FTC brought any enforcement cases against 
firms who have used credit reports for targeted marketing?
    Ms. Majoras. No.
    Mr. Bass. Okay. I yield back, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. Madam Chairman, we 
would like to thank you very much for your patience and for 
attending. We are now going to call up the second panel.
    Ms. Majoras. Okay. Thank you very much, Mr. Chairman.
    Mr. Stearns. We have Mr. Kurt Sanford, President and Chief 
Executive Officer of U.S. Corporate and Federal Government 
Markets, LexisNexis; Mr. Derek Smith, Chairman and CEO of 
ChoicePoint; Mr. Joseph--no, excuse me, that is just the two. 
So we are--just those two on the second panel, and we are going 
to let you start your opening statement.
    We have about 12\1/2\ minutes to a vote, so I was hoping we 
could tear through this, so when we come back, this is a 
surprise vote, we can start on the questions.
    So Mr. Sanford, I will let you start with your opening 
statement. Just make sure the mike is close to you, and it also 
is turned on.

 STATEMENTS OF KURT P. SANFORD, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, U.S. CORPORATE AND FEDERAL GOVERNMENT MARKETS, 
   LEXISNEXIS; AND DEREK SMITH, CHAIRMAN AND CHIEF EXECUTIVE 
                   OFFICER, CHOICEPOINT, INC.

    Mr. Sanford. Good morning, Chairman Stearns and other 
distinguished members of the subcommittee. My name is Kurt 
Sanford. I am the Chief Executive Officer for Corporate and 
Federal Markets at LexisNexis. I appreciate the opportunity to 
be here today to discuss the important public policy issues 
associated with cybercrime, identity theft, and the protection 
of consumer information. LexisNexis commends the subcommittee 
for its leadership on these important issues.
    LexisNexis is a leading provider of authoritative legal, 
public records, and business information. Today, over 3 million 
professionals, law enforcement officials, government agencies, 
financial institutions, and others, subscribe to the LexisNexis 
services. LexisNexis plays a vital role in supporting 
government and business customers, who use our information 
services for important uses, including preventing identity 
theft and fraud, locating suspects, preventing and 
investigating terrorist activities, and locating missing 
children.
    LexisNexis is committed to the responsible use of 
personally identifiable information. We have stringent privacy 
policies and security measures in place to protect the consumer 
information in our data bases. We share the subcommittee's 
concern about the potential misuse of this information to 
commit identity theft and fraud. We look forward to sharing our 
views on possible ways to further enhance information security, 
and address the growing problems of cybercrime and identity 
theft.
    I would like to take a few minutes to discuss data security 
incidents announced last week at Seisint, the information 
company we acquired last September. As part of the integration 
of Seisint with LexisNexis, we are conducting a thorough review 
of the company's verification, authorization, and security 
procedures and policies. During that process, a LexisNexis 
integration team became aware of some billing irregularities 
with several customer accounts. Upon further investigation, the 
team detected some unusual usage pattern within these accounts. 
The team then informed senior management, and I contacted the 
United States Secret Service.
    The incident is still being investigated, but it appears 
that cybercriminals compromised IDs and passwords of legitimate 
Seisint customers, and used those IDs and passwords to access 
public records and certain personally identifying information, 
such as Social Security numbers and driver's license numbers.
    No personal financial, credit, or medical information was 
involved, because Seisint does not collect or sell information 
of this type. Because this is an ongoing law enforcement 
investigation, the U.S. Secret Service has asked us to refer 
all questions regarding the investigation to them. We sincerely 
regret this incident and any adverse impact that this crime may 
have upon the individuals whose information was accessed. We 
have already begun to take steps to assist the affected 
consumers.
    First, based on the investigation to date, we are in the 
process of notifying approximately 32,000 individuals whose 
personal information may have been accessed. We expect to 
complete mailing notices by March 16. Second, we are providing 
all individuals with a consolidated report, containing 
information from the three major credit bureaus, and credit 
monitoring services for 1 year. Third, for those individuals 
who do become victims of fraud as a result of this incident, we 
will provide counselors to help them clear their credit reports 
of any information relating to fraudulent activity.
    I would like to take a minute to discuss the security 
systems at LexisNexis and the specific steps we are taking to 
prevent any future incidents. LexisNexis has long recognized 
the importance of undertaking extensive measures to protect the 
information in our data bases, and has a comprehensive security 
program. Maintaining security is not a static process, but 
rather, involves continuously evaluating and adjusting our 
security program.
    LexisNexis has physical, administrative, and technical 
measures to protect the security of information it maintains. 
Our data facilities are physically secure, and are monitored 24 
by 7. Administratively, we have policies and procedures in 
place to prevent and detect employee misuse of our systems. In 
addition, we limit a customer's access to sensitive 
information, according to the purposes which they seek to use 
the information. Our Chief Privacy Officer and Privacy and 
Policy Review Board work together to help protect the privacy 
of information contained in our data bases.
    We also undertake regular assessments by independent third 
parties of both our privacy and security practices. In addition 
to these security safeguards, LexisNexis has a multilayer 
process in place to screen potential customers to ensure that 
only legitimate customers have access to sensitive information. 
Only those customers with a permissible purpose under Federal 
law are granted access to sensitive data, such as driver's 
license number and Social Security numbers.
    LexisNexis plans to further restrict access to the most 
sensitive data elements by extending the more restrictive 
Social Security number truncation policy currently in place for 
LexisNexis to its recently acquired Seisint business, and by 
adding a policy to include the masking of driver's license 
numbers. We are also enhancing ID and password administration 
procedures. These steps are part of the ongoing review that 
LexisNexis has undertaken on security practices and procedures 
and privacy policies across its businesses.
    I would like to focus the remainder of my time on policy 
issues being considered to further protect consumer 
information. While there are various laws currently in place 
that govern the collection and distribution of personally 
identifiable information, we recognize that additional 
legislation may be necessary to address the growing problem of 
cybercrime and identity theft.
    LexisNexis would support the following legislative 
approaches. First, consistent with the proposal outlined by FTC 
Chairman Majoras in her testimony, we support requiring 
notification in the event of a security breach, where there is 
a substantial risk of harm to consumers. We share the concerns 
that Chairman Majoras raised in her testimony about ensuring 
that there is an appropriate threshold for when consumers 
actually would benefit from receiving notification, such as 
where the breach is likely to result in misuse of customer 
information. In addition, we believe that is it important that 
any such proposal contain Federal preemption.
    Second, we would support the adoption of data security 
safeguards, modeled after the Safeguard Rule of the Gramm-
Leach-Bliley Act. I understand that the FTC is supportive of 
this approach as well.
    And finally, we strongly encourage legislation that imposes 
more stringent penalties for identity theft and cybercrimes. 
Additionally, consumers and industry alike would benefit from 
an enhanced training for law enforcement, and an expansion of 
the resources available to investigate and prosecute the 
perpetrators of identity theft and fraud.
    It is critical that any legislation being considered ensure 
that legitimate businesses, government agencies, and other 
organizations continue to have access to identifying 
information that they depend on for important purposes, 
including fraud detection and prevention, law enforcement, and 
other critical applications. Moreover, legislation must strike 
the right balance between security, protecting privacy, and 
ensuring continued access to critically important information 
that is provided through information service providers.
    Thank you again for the opportunity to be here today to 
provide the subcommittee with our company's perspective on 
these important public policy issues. We look forward to 
working with the subcommittee as it develops proposals to help 
protect consumers and help fight cybercrime and identity theft. 
Thank you.
    [The prepared statement of Kurt P. Sanford follows:]
    Prepared Statement of Kurt P. Sanford, President and CEO, U.S. 
          Corporate and Federal Government Markets, LexisNexis

                              INTRODUCTION
    Good morning. My name is Kurt Sanford. I am the Chief Executive 
Officer for Corporate and Federal Markets at LexisNexis, a division of 
Reed Elsevier Inc. On behalf of LexisNexis, I appreciate the 
opportunity to be here today to discuss the important public policy 
issues associated with the protection of consumer information, 
cybercrime, and identity theft. LexisNexis commends the Subcommittee 
for its leadership on these important issues.
    LexisNexis is a leading provider of authoritative legal, public 
records, and business information. Today, over three million 
professionals--lawyers, law enforcement officials, government agencies, 
financial institutions and others--subscribe to the LexisNexis 
services. Government agencies at all levels, businesses, researchers, 
and others rely on LexisNexis to carry out important functions in our 
society. LexisNexis Risk Management unit plays a vital role in 
supporting government and business customers who use our information 
services for a variety of important uses.
    The following are examples of some of the important ways in which 
the services of LexisNexis are used by customers:

<bullet> Prevent identity theft and fraud--Banks and other financial 
        institutions routinely rely on personally identifying 
        information contained in LexisNexis' databases to verify the 
        identities of individuals and businesses and prevent identity 
        theft and fraud. For example, LexisNexis has partnered with the 
        American Bankers Association to enable banks and other 
        customers to prevent money laundering and ensure compliance 
        with applicable laws by helping the banks determine if they are 
        doing business with legitimate businesses and consumers. The 
        use of this information by financial institutions to verify and 
        validate information on prospective customers is critical to 
        the success of that program. With the help of LexisNexis, major 
        banks and bank card issuers have experienced significant 
        reductions in dollar losses due to fraud, holding down costs 
        charged to consumers. Special investigation units of insurance 
        companies have experienced similar successes through the use of 
        information in our databases.
<bullet> Locating suspects and helping make arrests--Many federal, state and 
        local law enforcement agencies rely on LexisNexis to help them 
        locate criminal suspects and to identify witnesses to a crime. 
        For example, Seisint products were used during the course of 
        the D.C. sniper investigation and helped lead to the arrest of 
        the suspects.
<bullet> Preventing and investigating terrorist activities--Information 
        service providers like LexisNexis offer important tools in the 
        battle against terrorism. Our data, technology, and policy 
        expertise has been instrumental in detecting and preventing 
        terrorist activities.
<bullet> Locating and recovering missing children and assisting in the 
        enforcement of child support obligations--For many years, 
        LexisNexis has partnered with the National Center for Missing 
        and Exploited Children to help that organization locate missing 
        and abducted children. Locating a missing child within the 
        first 48 hours is critical to success in the recovery effort. 
        The NCMEC has told us that information from LexisNexis has been 
        critical in the Center's successful recovery of many children. 
        In addition, public and private agencies rely on information 
        provided by LexisNexis to locate parents who are delinquent in 
        child support payments and to locate and attach assets in 
        satisfying court-ordered judgments. The Association for 
        Children for Enforcement of Support (ACES), a private child 
        support recovery organization, has had tremendous success in 
        locating nonpaying parents using LexisNexis.
    LexisNexis is committed to the responsible use of personally 
identifiable information and to the protection of consumer privacy. We 
share the Subcommittee's concern about the potential misuse of this 
information to commit identity theft and fraud. We look forward to 
sharing our views on possible ways to further enhance information 
security and address the growing problems of cybercrime and identity 
theft.

     THE PENDING INVESTIGATION OF THE SEISINT SECURITY INCIDENTS, 
            LEXISNEXIS' RESPONSE AND CYBERCRIME IMPLICATIONS
    Before I proceed, I would like to take a few minutes to discuss the 
data security incidents we recently discovered at Seisint, the 
information company we acquired last September.
    As part of LexisNexis integration of Seisint, we have been 
conducting a thorough review of the company's verification, 
authorization, and security procedures and policies. During that 
process, a LexisNexis integration team became aware of some billing 
irregularities within several customer accounts. Upon further 
investigation, the team detected within those accounts some unusual 
usage patterns. The team then informed senior management and we 
contacted the United States Secret Service. The U.S. Secret Service was 
notified because of its well-known expertise in investigating 
cybercrime and because of its national High Tech Crime Task Force, in 
which LexisNexis participates.
    The incidents are still being investigated, but it appears that 
cybercriminals compromised IDs and passwords of legitimate Seisint 
customers and used those IDs and passwords to access certain Seisint 
databases. The information accessed was limited to public record 
information and certain identifying information, such as social 
security numbers and driver's license information. No personal 
financial, credit, or medical information was involved because Seisint 
does not collect or distribute information of this type.
    We take these incidents very seriously. LexisNexis has long been 
committed to the protection of consumer privacy and security. We 
sincerely regret that these criminals were able to fraudulently access 
this information. We further regret any adverse impact that this crime 
may have upon the individuals whose information was accessed. We have 
already begun to take steps to assist individuals whose information may 
have been accessed. First, based on the investigation to date, we are 
in the process of notifying approximately 32,000 individuals whose 
personal information may have been accessed and we expect to complete 
mailing notices by March 16. Second, we will be providing all affected 
individuals with a consolidated report containing information from the 
three major credit bureaus. Third, we will be providing credit 
monitoring service for one year. Fourth, for those individuals who do 
become victims of fraud, we will provide them with ID theft counselors 
to help them through the process of clearing their credit reports of 
any information from related fraudulent activity.
    Because this is an ongoing law enforcement investigation, the U.S. 
Secret Service has advised us that discussing additional details could 
compromise its investigation.
    the types of measures used to safeguard identifiable information
    LexisNexis has long recognized the importance of undertaking 
extensive measures to protect the information in our databases and has 
in place a comprehensive security program. Maintaining security is a 
not a static process, but rather involves continuously evaluating and 
adjusting our security program in light of technological advances and 
perceived or real threats.
    LexisNexis has physical, administrative, and technical measures to 
protect the security of information it maintains on its services. Our 
data facilities are physically secure. Comprehensive monitoring 
capabilities exist throughout these facilities. These capabilities 
include interior and exterior cameras and a badge-access system with 
badge readers at all key entry points in the building, which are 
monitored 24x7 by on-site security guards.
    Administratively, we limit access to data center facilities to 
those individuals with job-related needs and management authorization. 
To prevent employee misuse of our systems, we have policies and 
procedures in place to monitor usage and address policy abuses through 
clearly stated measures, up to and including termination.
    In addition, we limit a customer's access to information, including 
sensitive information, in LexisNexis products according to the purposes 
for which they seek to use the information. Our Chief Privacy Officer 
and Privacy and Policy Review Board work together to ensure that 
LexisNexis has strong privacy policies in place to help protect the 
privacy of information contained in our databases. We also undertake 
regular assessments by independent third parties of both our privacy 
and security practices. In addition, because we recognize that the 
success of our security program depends on our employees, we have 
developed training programs on privacy and security policies and 
practices.
    We use a multi-layered technical approach to securing data and 
applications. Preventive and detective technologies are deployed to 
mitigate risk throughout the network and system infrastructure and 
serve to thwart potentially malicious activities.
    In addition to the security safeguards outlined above, LexisNexis 
has a multi-layer process in place to screen potential customers to 
ensure that only legitimate customers have access to sensitive 
information contained in our systems. Our procedures include a detailed 
authentication process to determine the validity of business licenses, 
memberships in professional societies and other credentials. We also 
authenticate the documents provided to us to ensure they have not been 
tampered with or forged.
    We have verification procedures in place to vet customers prior to 
providing them with access to sensitive information. Customers 
requesting access to sensitive information must go through a multi-step 
application and approval process. Only those customers with a 
permissible purpose under federal law are granted access to sensitive 
data such as driver's license information and social security numbers. 
In addition, customers are required to make express representations and 
warranties regarding access and use of sensitive information.
    LexisNexis plans to further restrict access to the most sensitive 
data elements, Social Security Numbers and Driver's License Numbers, by 
extending LexisNexis current more restrictive SSN truncation policy to 
its recently acquired Seisint business and is adding a policy to 
include the masking of DLNs. These steps are part of the on-going 
review that LexisNexis has been conducting on security practices, 
authorization and verification procedures and privacy policies across 
its businesses.
    We have also accelerated our program to review and integrate 
verification and security procedures at LexisNexis and Seisint. 
Specifically, LexisNexis is in the process of:

<bullet> Enhancing ID and password administration procedures;
<bullet> Enhancing security requirements applied to our customers; and
<bullet> Working with law enforcement and outside consultants to establish new 
        procedures and techniques to thwart criminal activity.

           THE TYPES OF INFORMATION MAINTAINED BY LEXISNEXIS
    The information maintained by LexisNexis falls into the following 
three general classifications: public record information, publicly 
available information, and non-public information. I briefly describe 
each below.
    Public record information. Public record information is information 
originally obtained from government records that are available to the 
public. Land records, court records, and professional licensing records 
are examples of public record information collected and maintained by 
the government for public purposes, including dissemination to the 
public.
    Publicly available information. Publicly available information is 
information about an individual that is available to the general public 
from non-governmental sources. Some examples of these non-governmental 
sources are telephone directories, newspaper reports, and other 
general-distribution publications.
    Non-public information. Non-public information is information about 
an individual that is not obtained directly from public record 
information or publicly available information. This information comes 
from proprietary or non-public sources. Non-public data maintained by 
LexisNexis consists primarily of information obtained from either motor 
vehicle records or so-called credit header data. Credit header data is 
the non-financial individual identifying information located at the top 
of a credit report, such as name, current and prior address, listed 
telephone number, social security number, and month and year of birth.

LAWS GOVERNING LEXISNEXIS COMPILATION AND DISSEMINATION OF IDENTIFIABLE 
                              INFORMATION
    There are a wide range of federal and state privacy laws to which 
LexisNexis is subject in the collection and distribution of personally 
identifiable information. These include:
    The Gramm-Leach-Bliley Act. Social security numbers are one of the 
two most sensitive types of information that we maintain in our systems 
and credit headers are the principal commercial source of social 
security numbers. Credit header data is obtained from consumer 
reporting agencies.<SUP>1</SUP> Starting in July 2001, the compilation 
of credit header data is subject to the Gramm-Leach-Bliley Act 
(``GLBA''), 15 U.S.C. Sec. Sec. 6801 et seq., and information subject to the 
GLBA cannot be distributed except for purposes specified by the 
Congress, such as the prevention of fraud. For credit header data 
compiled prior to July 2001, the dissemination of this information is 
subject to a set of industry-developed principles endorsed and enforced 
by the Federal Trade Commission.
---------------------------------------------------------------------------
    \1\ Consumer reporting agencies are governed by the Fair Credit 
Reporting Act (``FCRA''), 15 U.S.C. Sec. Sec. 1681 et seq. Some information 
services, such as Seisint's Securint service and LexisNexis PeopleWise, 
also are subject to the requirements of the FCRA.
---------------------------------------------------------------------------
    Driver's Privacy Protection Act. The compilation and distribution 
of driver's license numbers and other information obtained from 
driver's licenses are subject to the Driver's Privacy Protection Act 
(``DPPA''), 18 U.S.C. Sec. Sec. 2721 et seq., as well as state laws. 
Information subject to the DPPA cannot be distributed except for 
purposes specified by the Congress, such as fraud prevention, insurance 
claim investigation, and the execution of judgments.
    Telecommunications Act of 1996. Telephone directories and similar 
publicly available repositories are a major source of name, address, 
and telephone number information. The dissemination of telephone 
directory and directory assistance information is subject to the 
requirements of the Telecommunications Act of 1996, as well as state 
law.
    FOIA and other Open Records Laws: Records held by local, state, and 
federal governments are another major source of name, address, and 
other personally identifiable information. The Freedom of Information 
Act, state open record laws, and judicial rules govern the ability of 
LexisNexis to access and distribute personally identifiable information 
obtained from government agencies and entities. See, e.g., 5 U.S.C. Sec.  
552.
Other laws:
    Unfair and Deceptive Practice Laws: Section 5 of the Federal Trade 
Commission Act, and its state counterparts, prohibit companies from 
making deceptive claims about their privacy and security practices. 
These laws have served as the basis for enforcement actions by the 
Federal Trade Commission and state attorneys general for inadequate 
information security practices. The consent orders settling these 
enforcement actions typically have required companies to implement 
information security programs that conform to the standards set forth 
in the GLBA Safeguards Rule, 16 C.F.R. Part 314.
    Information Security Laws: A growing body of state law imposes 
obligations upon information service providers to safeguard the 
identifiable information they maintain. For example, California has 
enacted two statutes that require businesses to implement and maintain 
reasonable security practices and procedures and, in the event of a 
security breach, to notify individuals whose personal information has 
been compromised. See California Civil Code Sec. Sec. 1798.81.5, 1798.82-84.

                LEGISLATIVE MEASURES LEXISNEXIS SUPPORTS
    We recognize that additional legislation may be necessary to 
address the growing problem of cybercrime and identity theft. 
LexisNexis supports the following legislative approaches:
    Data Security Breach Notification. Consistent with the proposals 
outlined by FTC Chairman Majoras in her testimony before the Senate 
Banking Committee last week, we support requiring notification in the 
event of a security breach where there is substantial risk of harm to 
consumers. We share the concerns that Chairman Majoras raised in her 
testimony about ensuring that there is an appropriate threshold for 
when customers actually would benefit from receiving notification, such 
as where the breach is likely to result in misuse of customer 
information. In addition, we believe that it is important that any such 
proposal contain federal preemption to insure that companies can 
quickly and effectively notify consumers and not struggle with 
complying with multiple, potentially conflicting and inconsistent state 
laws.
    Adoption of Data Security Safeguards for Information Service 
Providers Modeled After the GLBA Safeguard Rule. LexisNexis would 
support the proposal outlined by Chairman Majoras whereby the types of 
security protections required by the Safeguard Rule of the GLBA would 
be applicable to information service providers that are not themselves 
``financial institutions'' as defined under GLBA.
    Increased penalties for identity theft and other cybercrimes and 
increased resources for law enforcement. LexisNexis strongly encourages 
legislation that imposes more stringent penalties for identity theft 
and other cybercrimes. Additionally, consumers and industry alike would 
benefit from enhanced training for law enforcement and an expansion of 
the resources available to investigate and prosecute the perpetrators 
of identity theft and cybercrime. Too many of our law enforcement 
agencies do not have the resources to neutralize these high-tech 
criminals.
    It is critical that any legislation being considered ensure that 
legitimate businesses, government agencies, and other organizations 
continue to have access to identifying information that they depend on 
for important purposes including fraud detection and prevention, law 
enforcement, and other critical applications. Moreover, legislation 
must strike the right balance between protecting privacy and ensuring 
continued access to critically important information that is provided 
through information service providers.

                               CONCLUSION
    Mr. Chairman, members of the Subcommittee, thank you again for the 
opportunity to testify before you today. LexisNexis is committed to:

<bullet> Developing effective products involving the responsible use of 
        personally identifiable information to support law enforcement, 
        government, and responsible businesses ;
<bullet> Safeguarding consumer privacy; and
<bullet> Protecting the security of our data systems.
    We look forward to working with you as you develop proposals to 
help protect consumers and help fight cybercrime and identity theft.

    Mr. Stearns. Thank you, Mr. Sanford. I was hoping we could 
get the second opening statement in. We have one vote, and then 
no votes for a long period of time.
    So Mr. Smith, we are going to have to recess the 
subcommittee, and I will go vote, and members have just been 
emailed to come back, so the subcommittee is----
    [Brief recess.]
    Mr. Stearns. [continuing] members will be filing in, but 
Mr. Smith, we wanted to give you an opportunity to proceed.
    Mr. Smith. Chairman----
    Mr. Stearns. And just move it a little closer. Sometimes, 
it is--if you don't mind, that would be helpful. Thanks.

                    STATEMENT OF DEREK SMITH

    Mr. Smith. Chairman Stearns, Representative Schakowsky, and 
members of the committee. I am Derek Smith, Chairman and Chief 
Executive Officer of ChoicePoint, Inc.
    I have thought a great deal, both professionally and as a 
father, about the role information can play in making our world 
more or less secure. I have devoted the last 12 years to the 
pursuit of making our society safer through the innovative but 
proper use of information and technology.
    At ChoicePoint, our customers cover a broad spectrum of 
American business, nonprofits, and government services 
organizations, including most of America's Federal, State, and 
local law enforcement agencies. Last year, ChoicePoint helped 
100 million American consumers obtain fairly priced home and 
auto insurance, and thousands of American businesses obtain 
commercial property insurance.
    We also helped 8 million Americans get jobs through our 
workplace pre-employment screening services. We helped more 
than 1 million consumers obtain expedited copies of their vital 
records, birth, death, and marriage certificates. ChoicePoint 
helped government fulfill its mission guarding the safety of 
Americans.
    But regrettably, I know that I am not here today to talk 
only about the good things that ChoicePoint has done. I know I 
am here because your committee and your constituents are 
concerned about the harm that may have been done to 
approximately 145,000 Americans whose information may have 
fallen into the hands of criminals who accessed ChoicePoint 
systems.
    Let me begin by offering an apology on behalf of our 
company, and my own personal apology to those consumers whose 
information may have been accessed by the criminals whose 
fraudulent activity ChoicePoint failed to prevent. Beyond our 
apology, I want to assure the public and the members of this 
committee that we have moved aggressively to safeguard the 
information in our possession from future criminal theft.
    We have also moved promptly to provide assistance to every 
affected individual, to help them avoid financial harm. We are 
also participating in the efforts of--we also welcome 
participating in the efforts of this committee and other 
policymakers seeking to provide an appropriate regulation of 
our industry. We have decided to exit the consumer-sensitive 
data market not covered by the Fair Credit Reporting Act, 
meaning ChoicePoint will no longer sell information products 
containing sensitive consumer data, including Social Security 
and driver's license numbers, except where there is a specific 
consumer-driven transaction or benefit, or where the products 
support Federal, State, or local government and criminal 
justice purposes.
    ChoicePoint will continue to provide authentication, fraud 
prevention, and other services to large, accredited customers, 
where consumers have existing relationships. We have 
strengthened ChoicePoint's customer credentialing process, and 
we are changing our products and services to many customer 
segments. We are requiring additional due diligence, such as 
bank references and site visits, to small business applications 
before allowing access to personally identifiable information.
    We are recredentialing broad sections of our customer base, 
including our small business customers. We are modifying the 
services that ChoicePoint is delivering to our customers. I 
have created an Office of Credentialing Compliance and Privacy 
that will report to our Board of Directors Privacy Committee, 
and be independent of ChoicePoint management. This Office will 
be led by Carol DiBattiste, previously Deputy Administrator of 
the Transportation Security Administration, and a former senior 
prosecutor in the Department of Justice, with extensive 
experience in detection and prosecution of financial fraud.
    I have also appointed Robert McConnell, a 28 year veteran 
of the Secret Service and former chief of the Federal 
Government's Nigerian Organized Crime Taskforce, to serve as 
our liaison to law enforcement officials. These changes reflect 
some of the lessons that we have already learned as a result of 
the breaches of ChoicePoint security, which have resulted in 
the recent convictions of several individuals.
    From what I now know, on September 27, 2004, a ChoicePoint 
employee became suspicious while credentialing a prospective 
small business customer based in the Los Angeles area. This 
employee brought his concerns regarding the application to our 
Security Services Department. After a preliminary review, the 
manager of the Security Services Department alerted the Los 
Angeles County Sheriff's Department. They decided to initiate 
an official police investigation, and asked for our assistance. 
The investigation is still ongoing, and has, I am told, already 
resulted in the arrest and conviction of at least one 
individual.
    After the situation became public last month, I learned 
that another instance in which ChoicePoint had been working 
with law enforcement inquiry also involved a criminal use of 
our information products, and late last year, had resulted in a 
guilty plea.
    With respect to California, we have learned that those 
involved had previously opened ChoicePoint accounts by 
presenting fraudulently obtained California business licenses 
and other fraudulent documents. They were able to access 
information products primarily containing the following 
information: consumer names, current and former addresses, 
Social Security numbers, driver's license numbers, certain 
other public record information such as bankruptcies, liens, 
and judgments, and, in certain cases, credit reports.
    Based on the information currently available, we estimate 
the data from approximately 145,000 consumers may have been 
accessed as a result of unauthorized access to our information 
products. Nearly one quarter of those consumers are California 
residents. California is the only State that statutorily 
requires affected consumers to be notified of a potential 
breach of personally identifiable information, and authorized 
law enforcement officials to delay notification to allow a 
criminal investigation to proceed.
    Last fall, ChoicePoint received such a request from the 
Sheriff's Department, after the issue of consumer notification 
was discussed between ChoicePoint and the Department. At that 
time, ChoicePoint had not yet reconstructed all the searches 
required to identify consumers at risk, and law enforcement 
officers had not yet learned all the pertinent details of the 
crime. Working cooperatively with the Sheriff's Department, and 
after completing the necessary reconstruction, we began the 
process of notifying consumers last month. We voluntarily 
elected to use the California law as the basis for notifying 
consumers in all States.
    Absent specific notification from law enforcement 
personnel, affected consumers, or others, we cannot determine 
whether a particular consumer has been a victim of actual 
identity theft. However, law enforcement officials have 
informed us that they have identified approximately 750 
consumers nationwide, where some attempt was made to compromise 
their identity. The security breach that ChoicePoint discovered 
last fall in California has caused us to go through some 
serious soul searching at ChoicePoint.
    In retrospect, the company should have acted more quickly. 
I should have been notified earlier of the investigation being 
conducted by the Los Angeles County Sheriff's Department. What 
I can tell you today is that from now on, I will be notified 
when ChoicePoint learns of a formal law enforcement inquiry 
involving any potential breach of our security.
    In the meantime, we have taken other steps to help and 
protect the consumers who may have been harmed. First, 
ChoicePoint established a dedicated toll-free customer service 
number, and a special website to respond to inquiries. Second, 
we are providing, free of charge, a combined three bureau 
credit report. Third, we are providing, free of charge, a 1-
year credit monitoring service, and for anyone who has suffered 
actual identity theft from this fraud, ChoicePoint will provide 
further assistance to help them resolve any issue arising from 
that identity theft. We hope these efforts will help those 
individuals protect their personal data from being used in a 
criminal manner, and that they will mitigate any harm.
    Mr. Chairman, to conclude, I would like to state before 
this committee, for the record, my position on further 
regulation or oversight of information and credential 
verification providers. For the past 2 years, I have been 
working to prompt a broad discussion on how we can build a 
framework that defines how personally identifiable information 
should be used, by whom, and for what purpose.
    I have called for independent oversight to give the public 
the confidence it needs. I support increased penalties, 
criminal penalties, for the unauthorized access to information. 
I support a single, reasonable, nationwide, mandatory 
notification requirement of any unauthorized access to 
personally identifiable information.
    Every advance in technology that makes our lives easier 
also makes it easier for enemies to move swiftly against us. 
You and I can be approved for a bank account in a matter of 
minutes, but a person can use that same technology to get a 
false or real driver's license, or to create a fake business. 
The point being, technology and information are neither good 
nor bad. People determine if the power of information is used 
for the benefit of individuals or society, or to create harm.
    I believe that only by adding a more formal structure to 
the current scheme of information use will we realize the full 
value of technology-based tools to society. The architects of 
these guidelines will be working against a backdrop of 
apparently conflicting principles. Increased concerns about 
privacy, balanced against society's need to identify people who 
would do us harm. But it is important to remember that these 
two principles are not mutually exclusive, and that too much 
weight on either end of the spectrum leads not to balance, but 
to immobility, or worse, to a breaking point.
    The privacy debate should not be a choice between civil 
defense and civil liberty. We must aim to preserve both. We 
look forward to participating in the continued discussion of 
these issues, and I pledge our cooperation and my personal 
cooperation to these efforts.
    I thank you for your consideration, and I will be pleased 
to answer any questions you might have.
    [The prepared statement of Derek Smith follows:]
    Prepared Statement of Derek Smith, Chairman and Chief Executive 
                       Officer, ChoicePoint Inc.
    Chairman Stearns, Representative Schakowsky, and Members of the 
Committee: I am Derek Smith, Chairman and Chief Executive Officer of 
ChoicePoint Inc.
    I have thought a great deal, both professionally and as a father, 
about the role information can play in making our world more, or less, 
secure. I have devoted the last 12 years to the pursuit of making our 
society safer through the innovative, but proper, use of technology and 
information.
    At ChoicePoint, our customers cover a broad spectrum of American 
business, non-profits and government service organizations--from half 
the Fortune 1000 to notable community organizations, and most of 
America's federal, state and local law enforcement agencies.
    Last year ChoicePoint helped 100 million American consumers obtain 
fairly priced home and auto insurance, and thousands of American 
businesses obtain commercial property insurance. We also helped 8 
million Americans get jobs through our workplace pre-employment 
screening services. We helped more than one million consumers obtain 
expedited copies of their vital records--birth, death and marriage 
certificates. ChoicePoint helped government fulfill its mission 
guarding the safety of Americans.
    But regretfully, I know that I am not here today to talk only about 
the good things ChoicePoint has done. I know I am here because your 
committee and your constituents are concerned about the harm that may 
have been done to approximately 145,000 Americans, whose information 
may have fallen into the hands of criminals who accessed ChoicePoint 
systems.
    Let me begin by offering an apology on behalf of our company, as 
well as my own personal apology, to those consumers whose information 
may have been accessed by the criminals whose fraudulent activity 
ChoicePoint failed to prevent.
    Beyond our apology, I want to assure the public and the members of 
this committee that we have moved aggressively to safeguard the 
information in our possession from future criminal theft. We have also 
moved promptly to provide assistance to every affected individual to 
help them avoid financial harm. We also welcome participating in the 
efforts of this Committee and other policy-makers seeking to provide an 
appropriate regulation of our industry.
    We have decided to exit the consumer sensitive data market not 
covered by the Fair Credit Reporting Act, meaning ChoicePoint will no 
longer sell information products containing sensitive consumer data 
including social security and drivers license numbers except where 
there is a specific consumer driven transaction or benefit or where the 
products support federal, state or local government and criminal 
justice purposes. ChoicePoint will continue to provide authentication, 
fraud prevention and other services to large accredited corporate 
customers where consumers have existing relationships.
    We have strengthened ChoicePoint's customer credentialing process 
and we are changing our products and services to many customer 
segments. We are requiring additional due diligence such as bank 
references and site visits to small business applicants before allowing 
access to personally identifiable information. We are recredentialing 
broad sections of our customer base, including our small business 
customers. We are modifying the services that ChoicePoint is delivering 
to our customers.
    The remaining ChoicePoint products and services that contain 
sensitive information will satisfy one of three tests:

<bullet> Support consumer driven transactions, for which data is needed to 
        complete or maintain relationships such as insurance, 
        employment or tenant screening.
<bullet> Provide authentication or fraud prevention tools to large, accredited 
        corporate customers to enable services such as identity 
        verification, customer enrollment or insurance claims.
<bullet> Support federal, state or local government and law enforcement 
        purposes.
    I have created an office of Credentialing, Compliance and Privacy 
that will report to our Board of Directors' Privacy Committee and be 
independent of ChoicePoint management. This office will be based here 
in Washington and be led by Carol DiBattiste, previously deputy 
administrator of the Transportation Security Administration and a 
former senior prosecutor in the Department of Justice with extensive 
experience in the detection and prosecution of financial fraud.
    I have also appointed Robert McConnell, a 28-year veteran of the 
Secret Service and former chief of the federal government's Nigerian 
Organized Crime Task Force, to serve as our liaison to law enforcement 
officials.
    These changes reflect some of the lessons we have already learned 
as a result of the breaches of ChoicePoint's security which have 
resulted in the recent convictions of several individuals.
    From what I now know, on September 27, 2004 a ChoicePoint employee 
became suspicious while credentialing a prospective small business 
customer based in the Los Angeles area. This employee brought his 
concerns regarding the application to our Security Services Department. 
After a preliminary review, the manager of the Security Services 
Department alerted the Los Angeles County Sheriff's Department. They 
decided to initiate an official police investigation and asked for our 
assistance. That investigation is still ongoing, and has, I am told, 
already resulted in the arrest and conviction of at least one 
individual.
    After this situation became public last month I learned that 
another instance in which ChoicePoint had been working with a law 
enforcement inquiry also involved a criminal use of our information 
products and, late last year, had resulted in a guilty plea.
    With respect to California, we have learned that those involved had 
previously opened ChoicePoint accounts by presenting fraudulently 
obtained California business licenses and fraudulent documents. They 
were then able to access information products primarily containing the 
following information: consumer names, current and former addresses, 
social security numbers, driver's license numbers, certain other public 
record information such as bankruptcies, liens and judgments and, in 
certain cases, credit reports.
    Based on information currently available, we estimate that data 
from approximately 145,000 consumers may have been accessed as a result 
of unauthorized access to our information products. Nearly one quarter 
of those consumers are California residents. California is the only 
state that statutorily requires affected consumers to be notified of a 
potential breach of personally identifiable information, and authorizes 
law enforcement officials to delay notification to allow a criminal 
investigation to proceed. Last fall, ChoicePoint received such a 
request from the Sheriff's Department after the issue of consumer 
notification was discussed between ChoicePoint and the Department. At 
that time ChoicePoint had not yet reconstructed all of the searches 
required to identify consumers at risk and law enforcement officers had 
not yet learned all of the pertinent details of the crime. Working 
cooperatively with the Sheriff's Department and after completing the 
necessary reconstruction, we began the process of notifying consumers 
last month. We voluntarily elected to use the California law as the 
basis for notifying consumers in all states. Absent specific 
notification from law enforcement personnel, affected consumers or 
others, we can not determine whether a particular consumer has been a 
victim of actual identity theft. However, law enforcement officials 
have informed us that they have identified approximately 750 consumers 
nationwide where some attempt was made to compromise their identity.
    The security breach that ChoicePoint discovered last fall in 
California has caused us to go through some serious soul-searching at 
ChoicePoint. In retrospect, the company should have acted more quickly. 
I should have been notified earlier of the investigation being 
conducted by Los Angeles County Sheriff's Department. What I can tell 
you today is that from now on, I will be notified when ChoicePoint 
learns of a formal law enforcement inquiry involving any potential 
breach of our security.
    In the meantime, we have taken other steps to help and protect the 
consumers who may have been harmed.
    <bullet> First, ChoicePoint has established a dedicated toll-free customer 
service number and a special web site to respond to inquiries;
    <bullet> Second, we are providing, free of charge, a combined three-bureau 
credit report;
    <bullet> Third, we are providing, free of charge, a one-year credit 
monitoring service; and
    <bullet> For anyone who has suffered actual identity theft from this 
fraud, ChoicePoint will provide further assistance to help them resolve 
any issue arising from that identity theft.
    We hope these efforts will help those individuals protect their 
personal data from being used in a criminal manner and that they will 
mitigate any harm.
    Mr. Chairman, I would like to state before this committee, for the 
record, my position on further regulation or oversight of information 
and credential verification providers. For the past two years, I have 
been working to prompt a broad discussion on how we can build a 
framework that defines how personally identifiable information should 
be used, by whom and for what purposes. I have called for independent 
oversight to give the public the confidence it needs. I support 
increased penalties--criminal penalties--for the unauthorized access to 
information. I support a single, reasonable, nationwide mandatory 
notification requirement of any unauthorized access to personally 
identifiable information.
    Every advance in technology that makes our lives easier also makes 
it easier for our enemies to move swiftly against us. You and I can be 
approved for a bank account in a matter of minutes, but a person can 
use that same technology to get a fake or real drivers' license or to 
create a fake business.
    The point being, technology and information are neither good nor 
bad. People determine if the power of information is used for the 
benefit of individuals or society or to create harm.
    I believe that only by adding a more formal structure to the 
current scheme of information use, will we realize the full value of 
technology-based tools to society.
    The architects of these guidelines will be working against a 
backdrop of apparently conflicting principles: increased concerns about 
privacy balanced against society's need to identify people who would do 
us harm. But it is important to remember that these two principles are 
not mutually exclusive, and that too much weight on either end of the 
spectrum leads not to balance, but to immobility, or worse, to a 
breaking point. The privacy debate should not be a choice between civil 
defense and civil liberty. We must aim to preserve both.
    Perhaps I might take a few minutes to describe some of the benefits 
of having access to an individual's personal information. ChoicePoint 
has helped find more than 800 missing children--we were even able to 
find a baby kidnapped from a hospital the day he was born, and return 
him to his parents within 24 hours. Our company works with the largest 
youth services organizations around the country to help them screen 
volunteers--we have helped identify more than 11,000 undisclosed felons 
among those volunteering, or seeking to volunteer. Included in this 
group, individuals who did not disclose they had been convicted of a 
collective 5176 violent crimes, 1137 sex crimes, 11,397 illegal 
substance offenses, 1055 crimes against children. Forty-two of these 
individuals were registered sex offenders.
    ChoicePoint's DNA laboratories have freed those wrongly accused 
from prison, and helped to identify suspects and victims of violent 
crimes. Our labs matched thousands of bone fragments found in the World 
Trade Center rubble with DNA samples provided by victims' families. Our 
scientists are currently in the tsunami ravaged areas of Asia helping 
to identify victims to help bring closure to families devastated by the 
disaster.
    ChoicePoint helped Maryland police identify and locate two men 
named John Allen Muhammad and Lee Boyd Malvo. The two had no obvious 
relationship to one another and no known ties to Washington, DC. 
Information technology found those hidden links, and provided the tools 
for locating the people now known as the DC Snipers.
    In fact, ChoicePoint provides service to more than 7,000 federal, 
state and local law enforcement agencies.
    Not all of what we do is so dramatic. ChoicePoint also serves 700 
insurance companies, a large number of Fortune 500 companies, and many 
large financial services companies.
    And the products involved in these transactions are regulated by 
the FCRA, which represents a significant portion of our business. 
Certain other segments of our business are regulated by Gramm-Leach-
Bliley Act and various state laws.
    We look forward to participating in continued discussion of these 
issues, and I pledge our cooperation to your efforts.
    I thank you for your consideration, and I would be pleased to 
answer any questions you might have.

    Mr. Stearns. I thank you, Mr. Smith, and first of all, I 
would like to thank both of you, a President and CEO, Mr. 
Sanford, and a Chairman and CEO, Mr. Smith, for coming here to 
speak about these important issues.
    And I would caution all members that they cannot actually 
talk about the investigation with the Federal investigation 
going on. It is going to be difficult for them to talk about 
it, but they obviously can talk about what happened, and give 
us policy presentation on what they think should happen.
    Mr. Smith, my first question is to you. And I--you know, 
everything I have read about this report in the paper. We have 
had a little conversation ourselves. This case, a man from Los 
Angeles filled out all the proper applications to receive 
information from ChoicePoint, and it appears that due diligence 
by you was to confirm his application, confirm a copy of a 
business license he had. Evidently, this person paid his bills, 
received information, including consumers' Social Security 
numbers, which the person used fraudulently.
    So the question for you is, based upon that scenario, what 
would you do differently knowing what you do today, to make 
sure that this person who got this business license, who paid 
his bills, that seemed to be, to you, a legitimate customer, 
how would you have stopped that, today?
    Mr. Smith. Well, I think that there are a couple things. 
First, we are strengthening the credentialing procedures now to 
include even a more rigorous analysis of that process----
    Mr. Stearns. Can you strengthen it----
    Mr. Smith. [continuing] to include----
    Mr. Stearns. [continuing] good enough, you think? On your 
own, do you think you can strengthen it good enough?
    Mr. Smith. Well, the reality is, one of the reasons why we 
are exiting the consumer-sensitive market, particularly as it 
relates to small businesses, is that it is possible for a 
business to set up themselves as a legitimate business, operate 
as a legitimate business, and yet, then subsequently use that 
particular business for access to information that would be 
inappropriate.
    We can't find out how we would avoid that, and as we went 
back through our recredentialing procedures, we determined that 
the only way in which we could prevent the data from being 
accessed inappropriately in that circumstance, was in fact, to 
restrict the data and not provide it all in those instances, or 
in a masked format.
    Mr. Stearns. Well, that is what it seems to me. Now, as I 
understand, I read that a scam like this had been perpetrated 
against ChoicePoint before. Is that correct?
    Mr. Smith. Well, what had happened is, back in 2001, we had 
received a subpoena about one particular account. During 2002, 
we actually received three subpoenas asking for additional 
information about that account, but then, we never heard 
anything else for almost a 2\1/2\ year period of time. And 
then, in late 2004, we were asked to testify, potentially, at a 
trial of an individual, which is the first time we had heard 
about that since that point in time, that the person 
subsequently pleaded guilty, and we were not asked to testify. 
So during that previous incident, we had had subpoenas, but we 
had not understood what the nature of the investigation was, or 
what potentially the crime was, until just recently.
    Mr. Stearns. Is there any way for a private citizen to find 
out what types of information ChoicePoint data base may contain 
about him or her?
    Mr. Smith. There are several. I mean, to the extent that a 
majority of products are actually governed under the Fair 
Credit Reporting Act, and you have the right to be able to get 
a copy of those particular reports. In the public record arena, 
we do provide individuals who request access to those reports a 
copy of a specific report, as it references themselves.
    Mr. Stearns. Mr. Stanford, now your case is a little 
differently than ChoicePoint. A person stole sensitive 
information about consumers by the use of passwords 
fraudulently obtained from your customer. And I guess the 
customers affected the breach--do the customers affected by the 
breach have to worry about identity theft for the rest of their 
lives, and when will the elevated risk of identity theft 
subside, if ever?
    Mr. Sanford. Well, sir, in our situation, the facts as we 
understand them, and I think we talked about this yesterday, in 
early February of this year, one of our integration teams, 
recall that we acquired the Seisint business late in 2004, one 
of our integration teams which was charged with the 
responsibility of reviewing the security procedures, 
authentication, verification, and kind of the physical security 
of the business we acquired. It came to their attention that 
there were some irregular billing activities in a handful of 
accounts, and they did that investigation. They gathered more 
facts, they brought that to my attention late in February, I 
think it was the February 28, and on March 2, I got on an 
airplane and flew here to Washington, DC., and met with the 
Assistant Director of the United States Secret Service, and 
asked them if they would investigate it for us, and we have 
turned over our records.
    We don't know yet how that compromise occurred in the 
customer environment. Law enforcement is investigating that, 
and we will be forthright and share the details of that 
investigation when it is completed.
    Mr. Stearns. I am sorry I am asking you to speculate. It is 
probably not fair, but you know, this identity theft, what is 
your experience about--does it last a year, or 2 years? I mean, 
what--I mean, this is--I mean, I've run into people that say it 
is a long time.
    Mr. Sanford. I haven't seen any statistics that indicate a 
time, you know, a cause and effect timeline that says, if an 
identity, you know, if a record is, you know, obtained 
fraudulently, you know, is that going to then be used 4 or 5 
years later? I don't know----
    Mr. Stearns. Okay.
    Mr. Sanford. [continuing] if there are any published 
reports on that, sir.
    Mr. Stearns. Now, in your case, it wasn't LexisNexis. It 
was Seisint. And this company, you acquired. And is it possible 
that Seisint outsourced, in other words, they are a 
subcontractor, they have this information, you are the parent--
they are not a subcontractor, but they are owned by you. But is 
your data base effectively outsourced to all your customers, so 
that a breach of their security systems potentially allows 
criminals access to sensitive information in your data bases?
    Mr. Sanford. I am not sure I understand the question. Let 
me see if I can respond, and let me know if I am responsive to 
what you are looking for. This is our company. We bought this 
company.
    Mr. Stearns. Right.
    Mr. Sanford. This is not a subcontractor.
    Mr. Stearns. Right.
    Mr. Sanford. This is a LexisNexis business----
    Mr. Stearns. Yeah.
    Mr. Sanford. [continuing] that was acquired in the second 
half of 2004. We enter into agreements with legitimate 
businesses who subscribe to services. They have password and ID 
access to a data base that we maintain.
    Mr. Stearns. Does Seisint outsource some of their business 
to some other companies?
    Mr. Sanford. We license some of our data base information 
to----
    Mr. Stearns. Okay. So my question is, when you license it 
to these other companies, is it possible their employees, then, 
would have access to this information, they could fraudulently 
do it?
    Mr. Sanford. I am still not sure I follow the question, 
sir.
    Mr. Stearns. Okay. So if your new company outsources a lot 
of their work, they give them the identity of individuals to 
process, and----
    Mr. Sanford. We license our data to other parties who are 
resellers, credit bureaus, for example.
    Mr. Stearns. Okay.
    Mr. Sanford. And they contractually enter into agreements 
with us to comply with all the same safety, verification, 
security safeguards that we have in place for our business.
    Mr. Stearns. So I think what we are saying is, if you allow 
employees to have access to this information through passwords, 
then you are effectively outsourcing the ability of others to 
get access to this secured information.
    Mr. Sanford. I am--I don't--I still don't understand how I 
am outsourcing to employees.
    Mr. Stearns. Okay. Okay. My time has expired. The Ranking 
woman, Ms. Schakowsky.
    Ms. Schakowsky. Okay. First, Mr. Smith, in your SEC filing 
about the 145,000 consumers that were exposed, you say that 
that number represents those whose data was compromised after 
July 1, 2003, when the California law required you to report.
    We know that there were earlier breaches, in fact, prior to 
2003, that you were unaware of, the Benson case, where they 
pled guilty and were guilty of fraud. So I would assume, then, 
the numbers are higher than 145,000. Do you have any idea what 
that number is, and are you going back at all to review your 
records to find out if there were earlier breaches? What is 
your plan here?
    Mr. Smith. The Board or the committee has sanctioned a 
study to go back and to look at not only this incident, but 
prior incidents, to determine if, in fact, any other such 
circumstances took place. And so that investigation is 
currently underway, and is being done on a very aggressive 
basis.
    Ms. Schakowsky. I have to say that I am pretty surprised, 
and I think a number of other people were, would be as well, to 
find out that there was this case, you said subpoenas were 
issued, but I guess you didn't bother to figure out why or what 
the case was about, that you would have been unaware of a 
criminal prosecution that resulted in a conviction. How could 
that happen, and has anybody been made to take responsibility 
for that at all?
    Mr. Smith. Well, we do receive subpoenas to support law 
enforcement investigations. They don't always give us 
information, because of the sensitive nature of the 
investigation, what type of investigation it might be. It could 
have been involved in a situation such as identity theft, but 
it could have been involved in any other type of criminal 
potential incident.
    Ms. Schakowsky. So in other words, such an instance could 
go unnoticed still?
    Mr. Smith. No, not today, as I have said, that we have now 
changed our procedures so that in any circumstance where we are 
issued a subpoena, it will be elevated to me personally. We 
have also instituted a new department that is in charge of all 
of our credentialing compliance and privacy. It is headed up by 
Carol DiBattiste, who is a recognized leader in this area, and 
she will be assuring that any type situation that this occurs 
in the future will be dealt with very quickly, and will be 
elevated appropriately and responsibly----
    Ms. Schakowsky. Okay.
    Mr. Smith. [continuing] immediately.
    Ms. Schakowsky. You know, you said that some information is 
available to the public if they ask for it. People understand 
about credit reporting agencies, but I have a feeling before 
all this came out with LexisNexis and with ChoicePoint that 
nobody even knew really, hardly anybody knew about you. Could 
you provide us with information, or--unless you have it at your 
fingertips, of how many people have actually asked for their 
information from you before the ChoicePoint, before these 
scandals were revealed?
    Mr. Smith. I will have to get you, and will be pleased to 
get you that particular information.
    Ms. Schakowsky. Do you have any order of magnitude, of how 
many people actually asked for that information?
    Mr. Smith. Again, many of our products and services are 
under the Fair Credit Reporting Act, so that they would 
naturally be part of the new FACT act, which requires a free 
copy of that report----
    Ms. Schakowsky. I understand what the requirement is, but I 
am saying I don't think there is a lot of consumer awareness 
about it, and I am just wondering----
    Mr. Smith. There has not been----
    Ms. Schakowsky. [continuing] how many people----
    Mr. Smith. [continuing] an overwhelming number of people 
who have requested the reports. That would be correct.
    Ms. Schakowsky. Thousands of voters were inaccurately 
listed as felons by your company in 2000, and were denied the 
right to vote in the Florida election. That is very serious, 
and we are talking more about identity theft, et cetera, but 
this precious right to vote. Were any laws violated by that?
    Mr. Smith. Well, first, I appreciate the opportunity to 
respond to that particular question and situation. The incident 
you are referring to was a project done between a company 
called Data base Technologies and the State of Florida. It was 
operated and run between 1998 and roughly 2000. At that 
particular point in time, Data base Technologies was a very 
significant competitor to ChoicePoint.
    In the middle of 2000, but prior to the election, but after 
all of that information had been provided to the State of 
Florida, we acquired that company. So ChoicePoint was not 
involved in any way in screening the voter rolls, in dealing 
with the issues of what potential people were allowed to vote. 
We have not been involved in any such situation in that regard. 
So unfortunately, because we acquired that company, it has been 
interpreted that we were involved. But we were not involved at 
all in that particular situation.
    Ms. Schakowsky. Did you know about it when you acquired 
them?
    Mr. Smith. We--I--we did not. It was a contract between 
themselves and the State of Florida.
    Ms. Schakowsky. If I could ask this last question, I 
realize it may go over time, but I want to know from both of 
you, what quality assessment of your data do you do? How do you 
ensure that the information on people is correct, and perhaps, 
most importantly, what do you feel is your responsibility if 
someone is denied a home or a job or insurance because the 
information you are selling and profiting from about them is 
wrong?
    Mr. Sanford.
    Mr. Sanford. Sure. Congresswoman, we have a very few 
products that are governed by the FCRA. These are products that 
are involved in employment screening. And we follow a rigorous 
procedure to make corrections. I personally get emails from 
time to time, even phone calls from consumers that want to 
question the accuracy of data in our data bases. We have a 
group of lawyers who work with them. They have to first go 
through an authentication and verification procedure to make 
sure they really are who they say purport to be, and then, we 
work with them to make corrections in the data base. Sometimes, 
that requires them to go back to the source of where we got 
that data from. Perhaps there is an error in a credit header 
that we got from a credit bureau. The overwhelming majority 
of----
    Ms. Schakowsky. So they have to go back. You don't have to 
go back. They have to go back.
    Mr. Sanford. Well, normally, a credit bureau would not 
allow us to correct a record of a consumer, since we are not 
that consumer. We wouldn't have the legal authority to do that.
    Ms. Schakowsky. Well, it is a source of data that you got 
it from, though.
    Mr. Sanford. We help them. We, you know, we advise them of 
how they can make that correction. With respect to the rest of 
the data in our systems, it is principally public record 
information. And public record information is just that, 
information that we get from public sources.
    And again, we don't have the authority to change an 
official public record that we have in our data base. We tell 
people who ask these questions where we got the data from, 
where the source is, to the extent that we have the contact 
information, we provide them with that, and we ask them to go 
and correct that. As soon as that is corrected, our records are 
updated, and then, we have inaccurate information in our 
systems.
    Mr. Smith. Again, we apply extraordinarily rigorous 
standards to ensure the accuracy of the information. And I 
would suggest that--I believe that people should have the right 
to access their public records, and that if, in fact, they 
should have the right to question the accuracy of that 
information, and have it done in a very prompt way.
    Again, there are cases where, when that information is 
inaccurate, the important part is to direct them back 
immediately to the source of that information, which many 
times, is in some kind of State repository. Otherwise, even if 
we had the ability to change the information, it would 
perpetuate itself through the system, because the source 
document itself was fundamentally wrong.
    I do believe that we should allow consumers, though, to 
have, much like it is in a credit report, the ability to make a 
comment on their public record, if a record is deemed correct, 
but they want to make a comment, because there is some 
extenuating circumstance associated with that information, they 
should have the ability to do so, and I support that.
    Mr. Stearns. The gentlelady's time has expired. The 
gentlelady from Wisconsin.
    Ms. Baldwin. Thank you, Mr. Chairman. A couple of brief 
questions. Mr. Smith, you anticipated one of my questions in 
your testimony, when you expressed support for mandatory 
disclosure of any sort of security breach in which consumers' 
data is compromised.
    I didn't hear, Mr. Sanford, did you take such a position, 
and is that your position also?
    Mr. Sanford. Yes, we thought that the approach that the 
Chairwoman of the Federal Trade Commission has outlined in her 
testimony not only here today, but last week, in the Senate 
Banking Committee, is a very sensible approach.
    I can tell you that we, as a matter of policy, are 
notifying consumers, where we believe there is a significant 
risk that some harm could come to those consumers, irrespective 
of the State in which that consumer resides.
    I am very concerned that if we do have a host of 
notification bills enacted across the United States in 30, 40, 
50 jurisdictions, that we will actually defeat the intent of 
what those statutes were intended to do, which is to put 
consumers on notice, and have them take appropriate actions.
    If they get flooded with a whole variety of different 
standards, different bills, different approaches, I think we 
are going to confuse consumers, and defeat the purpose of what 
the legislation would have been intended from the first place.
    So a national standard, and Federal preemption is most 
appropriate here. We don't want to flood the market with a 
bunch of notices, not just from companies like information 
services, but financial institutions, where people lose things. 
I think if we do that, they are going to end up like the junk 
mail that people get and go right in the trashcan.
    Ms. Baldwin. Thank you.
    Mr. Smith, in your written testimony, and you also 
reiterated it in your oral testimony, you stated that 
ChoicePoint would no longer sell information products 
containing sensitive consumer data, and I quote, ``except where 
there is a specific consumer-driven transaction or benefit.''
    I am interested in precisely what that means, and 
particularly, does it mean that a consumer would have to give 
permission for the release of that specific information, and if 
not, how do you determine what would benefit the consumer?
    Mr. Smith. Well, to give you an example of a consumer-
initiated transaction, it would be things such as the purchase 
of insurance. It would be seeking employment, potentially, 
trying to rent an apartment. And so what we were trying to 
identify there were things that it was in the consumer's best 
interest, and they, in essence, initiated a transaction.
    There may be cases where, and I think, the majority of 
cases, they would, in fact, have given their consent, but there 
may be a circumstance where, in seeking a benefit, they didn't 
directly do that, but in fact, they benefited from that 
particular process that was taking place, and that certainly 
can be defined.
    Ms. Baldwin. And how are you defining that?
    Mr. Smith. Well, today, again, we are in the process, over 
the next 90-day period, as we said, that we were exiting that 
market. Today, we are not doing it at all. We will try to 
clarify that to a greater extent as the policy is implemented.
    Ms. Baldwin. Okay. Thank you.
    Mr. Stearns. The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I apologize, because of 
the vote schedule, and not being able to question our Chairman 
of the Federal Trade Commission, but hopefully, we can submit 
questions.
    Mr. Stearns. Absolutely.
    Mr. Green. Mr. Derek, Mr. Smith, one, I welcome, and up 
until I guess 2 months ago, I didn't know what ChoicePoint was, 
and as a lawyer, I understood what LexisNexis was, over the 
years, and the expansion. But to find out that not only do you 
gather this information, but you sell it to folks who want it, 
I know under current law, I have the right to question the 
three credit reporting agencies, and to get an annual report. 
Do any of your companies come under your--come under that 
requirement?
    Mr. Smith. I will speak first. I mean, over a majority of 
the products and services that we supply, particularly to the 
insurance industry, as well as to major employers, who are 
doing background pre-employment screenings, fall under the 
jurisdiction of the Fair Credit Reporting Act, and therefore, 
consumers have the same rights under those applications, as 
they would any other particular application.
    Mr. Green. So we would request from ChoicePoint or 
LexisNexis the information on individual Members of Congress, 
if we wanted? I mean, I could have my own information, for 
example. I don't really need it on on the chairman, but the 
chairman ought to, maybe ought to be interested in what his is 
in your data base.
    Mr. Smith. You can get information on yourself, yes, sir.
    Mr. Green. Okay. And I know one of the concerns we have is 
that the notification, I know California has a notification 
requirement. Is that notification only when the--what is the 
requirement under California law for notification?
    Mr. Smith. It is when sensitive personal information may 
have been compromised.
    Mr. Green. Okay. So for example, if I applied for a job, 
and my employer, or potential employer, requested information 
from you, I would not necessarily know that that is where my 
potential information was receiving that information from?
    Mr. Smith. No. In fact, that is an application, pre-
employment screening, again under the Fair Credit Reporting 
Act, and they would have to sign an application that allows 
that that particular background screen to take place. So they 
would know that the background screening was taking place on 
behalf of that employer.
    Mr. Green. Okay. Would they know it would be ChoicePoint or 
LexisNexis? Or would it just be--it is a general approval that 
I say yes, you can do a background check on me?
    Mr. Smith. I don't know whether all specific applications 
say the company. I would suggest generally that is not true. If 
you, though, are for some reason denied employment as a result 
of a particular instance, then that particular company is 
identified as the company that provided that employer with the 
specific information.
    Mr. Green. Again, is that employer required to tell that 
person----
    Mr. Smith. Yes. Yes, they are.
    Mr. Green. [continuing] the reasons that--and where the 
information was from? I guess the MSNBC story worried me a 
little bit, being from Texas, and when Ms. Pierce's report was, 
it said ``possible Texas criminal history.'' You know, it seems 
like that is just a mild innuendo, without saying if you are 
charged with something, it is public record, and there should 
be case number or something. Is that typical of what a pre-
employment search would say, would be ``possible Texas criminal 
history'' without any basis?
    Mr. Smith. No, a typical, in our case, we don't have arrest 
records that are part of a background pre-employment. These are 
the actual records that are warehoused by--you actually go into 
the courthouse, and actually acquire the record itself. So it 
would be reported as it was in the particular court.
    Mr. Green. Okay. So you would go to that court, for 
example, in Harris County, in Houston, Texas, we have the 
Justice Information Management System, called JIMS. That is 
public record, and only certain folks, law enforcement, have 
access to it, typically. And--but you could be able to access 
that.
    Mr. Smith. I can't speak to the specific instance in which 
you are talking about, but in general, when a record becomes 
public in the court itself, then anyone, not just ourselves, 
would have a right to go----
    Mr. Green. Okay.
    Mr. Smith. [continuing] and review the record.
    Mr. Green. Okay. That is true, and I guess what concerns 
me, instead of saying, you know, I don't know where Ms. Pierce 
is from, but she said she only visited Texas a few times, what 
would be the basis for putting in her employment record, 
``possible Texas criminal history?''
    Mr. Smith. I am not familiar with that. I will certainly be 
pleased to get back with you at that particular circumstance, 
but I can't really comment on that incident.
    Mr. Green. It just seems like in a report, it ought to be 
more specific, and say, you know, instead of--and this in 
quotes from the report, ``possible Texas criminal history,'' or 
``possible New York criminal history.'' It seemed like it would 
be--should be more specific. If you are providing that 
information, and you are responsible, as your company or both 
your companies, that it would seem like it would be much more 
specific.
    But I am glad to know that I can request my dossier, I 
haven't done it with the FBI, Mr. Chairman, maybe I ought to do 
with these two agencies, to see what reports. After my 
briefcase was stolen last August, I got my reports from Equifax 
and typically, it was just misnaming, there are a lot Gene 
Greens that I didn't realize were running around. But anyway, I 
appreciate that, Mr. Chairman. Thank you.
    Mr. Stearns. I thank the gentleman. The gentleman from 
Massachusetts.
    Mr. Markey. Thank you, Mr. Chairman, very much. Mr. Smith, 
I understand that ChoicePoint is offering consumers who have 
been victimized by this enormous leakage of personal 
information a free 1 year credit monitoring service that will 
enable victims to have access to their credit report, and will 
provide monitoring and email alerts of changes in consumers' 
credit report activity.
    My concern is what happens after 1 year? My constituents 
who have written to me, who have been victimized by 
ChoicePoint's privacy breach, are very concerned about the 1 
year time limit. They are afraid that these bandits will just 
wait 1 year, and then use all of this information, that will 
bring them great profit.
    Would you promise, Mr. Smith, to give these people a 
lifetime monitoring service, and instant email and postal 
alerts for each and every consumer who has been victimized as a 
result of ChoicePoint's negligence?
    Mr. Smith. Well, we will continue to look at other 
remedies. To date, that was, as people--we were trying to 
understand what was a reasonable amount of time to be done. We 
chose that particular period. To the extent that we should 
review that, or consider it, we will do so.
    Mr. Markey. Would you give them 10 years? One year just 
isn't enough time. Will you give them 5 years?
    Mr. Smith. I would be pleased to work with you and others 
of the committee, to find a way----
    Mr. Markey. No, no, no, no, no, no, no. I want to know 
right now. One year is not long enough. Will you give them more 
than 1 year? Will you give them 2 years?
    Mr. Smith. We will consider extending the period of time.
    Mr. Markey. I know your lawyers said to make no 
concessions. One year is too short, Mr. Smith. What do you 
think? What do you think is a reasonable time? Do you think 1 
year is a reasonable time, Mr. Smith?
    Mr. Smith. What I would say is I share your concern, and I 
will look at--to try to determine what is a reasonable amount--
--
    Mr. Markey. What do you think----
    Mr. Smith. [continuing] to extend that.
    Mr. Markey. Would you think 1 year is reasonable? You 
already made that decision. Now that you think about it, do you 
think 1 year is too short or not, Mr. Smith?
    Mr. Smith. Well, I can tell you that I personally was a 
victim of identity theft.
    Mr. Markey. All right. So what do you think?
    Mr. Smith. So I conclude that----
    Mr. Markey. Do you think--do you want these thieves to have 
your name now for than--do you think after a year, that they 
are not going to use it? Or do you think that you don't want 
them, maybe, for 5 years, to have some kind of notice that you 
are getting back that it is being compromised, Mr. Smith?
    Mr. Smith. Well, I mean, identity theft is obviously a 
very, you know, serious crime.
    Mr. Markey. Right. So give us more than 1 year. Give these 
people, give my constituents more than 1 year. Can you give 
them 2 years, Mr. Smith?
    Mr. Smith. As I said, I--we will take a very hard look----
    Mr. Markey. No, no. I want you, you run the shop. Will you 
give them more than 1 year, Mr. Smith? I don't want you to take 
it under advisement. You have been thinking about this your 
whole career. This is your business. You don't need any more 
time to think about it. Is 1 year enough time, or should they 
get more than 1 year----
    Mr. Smith. It was----
    Mr. Markey. [continuing] in terms of the protection that 
they get?
    Mr. Smith. It was our opinion at the time that 1 year was a 
reasonable and responsible thing to do.
    Mr. Markey. You think 1 year is reasonable and responsible.
    Mr. Smith. I think, given what I know today, it is, but I 
would be glad to, you know----
    Mr. Markey. It sounds like you are not going to change, 
then, Mr. Smith. Let me--and I don't think that is a good 
answer for this committee, and I don't think you should be 
coming in here letting us think that 1 year is enough time, 
when these people can just sit, lay in wait, while the 1 year 
statute of limitations runs, and then they are off with 145,000 
names, okay? That is just absolutely preposterous.
    Now, what types of personal information has been 
compromised? You just said in the letter to my constituent, 
``personally identifiable information, such as your name, 
address, or Social Security number may have been viewed by 
unauthorized individuals.'' Why can't you tell my constituents 
whether or not it is their bank numbers, their credit card 
numbers, their passwords, their children's names and ages, 
passport numbers, home addresses, Social Security numbers, and 
similar private information? Will you give my constituents and 
all people affected exactly what personal information was 
compromised, and not this vague letter telling them that it 
could include all of this, but we are not going to give you the 
exact information.
    Will you give them the specific information that has been 
compromised, and give all 145,000 people that specific 
information, Mr. Smith?
    Mr. Smith. Well, if they request this--again, we had to 
recreate the searches that were done, but if they would like 
the specific information that was on that report, that could--
potentially could have been used, then we will provide that 
information to them, yes.
    Mr. Markey. Well, why won't you just provide it to all of 
them as a matter of course? That is, the information that has 
been compromised? Why won't you just give each person that 
information, so they will know?
    Mr. Smith. Well, again, you have got to be--for their own 
benefit, you have got to be careful in how you disseminate that 
particular information. By simply sending that information out, 
you put it back in the public domain, where----
    Mr. Markey. Will you give a notification to each and every 
person whose information has been compromised? The notice that 
you will provide to them if they ask you for it, each and every 
piece of information which will have been compromised, will you 
give them that notice that you will do this search for them and 
provide it to them?
    Mr. Smith. To the extent that we can do that, because we 
had to go back and recreate the search, and to the extent that 
that doesn't compromise any law enforcement investigation that 
is going on, then we would be willing to do that.
    Mr. Markey. You will provide that information, and you--
will you notify them that they--that you will provide it for 
them?
    Mr. Smith. Given our ability to recreate the search, and 
our ability to make sure we don't compromise law enforcement, 
we will do that.
    Mr. Markey. Do you believe that there should be a ban on 
the sale of Social Security numbers?
    Mr. Smith. Again, I--my position is basically the same as 
the Chairperson of the FTC, in the sense that Social Security 
numbers, for the most part, should be restricted. There are 
certain uses----
    Mr. Markey. No, no, I am talking about----
    Mr. Smith. [continuing] of that information----
    Mr. Markey. [continuing] the sale of Social Security 
numbers. That is it. Just on the sale of Social Security 
numbers. Would you support the ban on the sale of Social 
Security numbers?
    Mr. Smith. Again, I would have to better understand the 
definition of sale, and how it is being done. But I don't 
support----
    Mr. Markey. Mr. Smith, you--this is your field. You are an 
expert in this field. Let us--I am talking about, plain and 
simple, the sale of Social Security numbers.
    Mr. Smith. Well, there are certain circumstances where the 
sale of those numbers are, in fact, in the consumer's best 
interest, and so to the extent that that is correct, just the 
direct sale of a Social Security number, without a consumer 
benefit being derived associated with it, I am against that.
    Mr. Markey. Give me one instance where you think the sale 
of a Social Security number would be appropriate. The sale of 
it.
    Mr. Smith. Well, I mean, there are cases where you are 
reviewing fraudulent circumstances associated with somebody's 
account, and you want to make sure that you have got the 
appropriate person, and you are matching them with the 
appropriate fraudulent circumstances----
    Mr. Markey. And who would you sell this number to? Who--to 
whom could this number be sold, in your opinion?
    Mr. Smith. Well, it could be potentially used by law 
enforcement people. It could be used----
    Mr. Markey. No, no, no. I am talking about the sale of the 
number. To whom do you think my Social Security number, my 
Social Security number could ever be sold, Mr. Smith? Who do 
you think it would be appropriate for you to sell it to? Sell 
it to.
    Mr. Smith. Well, again----
    Mr. Markey. Not law enforcement, not information given to a 
police officer pursuant to a legally obtained warrant. Who else 
besides a law enforcement official, in your opinion, Mr. Smith, 
could you, or should you be allowed to sell my Social Security 
number to?
    Mr. Smith. Again, it is used when--and you have been in a 
position to be defrauded by somebody. It could be an 
authentication transaction, where I am trying to determine 
whether or not you have, in fact, been a victim of identity----
    Mr. Markey. I am talking about selling my number as a 
product. Who do you think you should be allowed to sell it to, 
Mr. Smith?
    Mr. Smith. Well, again, if somebody is trying to determine 
whether or not there is a fraudulent transaction against your 
thing, they, in essence, get access to that Social Security 
number as part of a broader-based service. So I don't know 
whether you determine that a sale or not, but to the extent 
that we derive income from the use of that information, I don't 
know if that is what you determine a sale or not.
    Mr. Markey. Mr. Sanford, would you oppose the sale, would 
you oppose--would you support or oppose a ban on the sale of 
Social Security numbers of ordinary Americans?
    Mr. Sanford. I would not support a blanket ban on the sale 
of Social Security numbers, as you are describing. I think 
financial institutions need unique identifying Social Security 
number information when they are investigating fraud, making 
sure that they are doing business with the right individuals. I 
think law enforcement needs access to Social Security numbers. 
Businesses that are collecting legitimate debts, you need 
unique Social Security number identifying information to do 
their jobs.
    Mr. Markey. Do you feel that I, or any American, has a 
right to know that you have transferred my Social Security 
number to a financial institution, which is now doing an 
investigation of me? Do you have a responsibility to give me a 
notification that you have transferred my number for that 
purpose?
    Mr. Sanford. Sir----
    Mr. Markey. Do you think you should have a responsibility 
to notify an individual that my information, or any American's 
information, has been transferred to another party without my 
explicit permission?
    Mr. Sanford. No, I do not, sir. I think that the laws of 
the United States clearly lay out the permissible purposes for 
which sensitive information like Social Security numbers can be 
used. This deliberative body has decided what those legitimate 
and permissive uses are, and we responsibly use the information 
that is charged to us, to provide for permissible uses to, in 
fact, help consumers.
    Mr. Markey. Well, the question is not whether or not the 
laws that have already been passed are adequate. The question 
is--are sufficient. The question is going forward, and learning 
the lessons which we have learned, should we have tougher 
protections on the use of Social Security numbers by companies 
that collect them?
    My opinion is, Mr. Chairman, that what we are hearing today 
is basically an industry that is still in denial. It still 
doesn't recognize how highly all Americans value their privacy, 
and will hope to be able to ride out this scandal, without 
having Congress have made the changes that are necessary, and 
all I know is that Mr. Smith and his company are the largest 
single contributors to a lobbying effort to block truly 
effective privacy laws being passed in Congress. And that is 
all I have to know, okay? Because we are not going to have a 
discussion with him as he sits here, because his company is, in 
fact, effectively the chief lobbyist to block any effective 
privacy laws from being passed, and we are not going to get the 
answers we need for the public at this hearing.
    Mr. Stearns. The gentleman's time has expired. I would say 
to all members we might go a second round, if people feel 
strongly about it. We don't have a lot of members here. We have 
the time allotted for it. The gentleman--Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. A question 
for Mr. Smith. I wasn't real clear when you were answering Ms. 
Baldwin's question, Mr. Smith. In your testimony, it says ``we 
have decided to exit the consumer-sensitive data market not 
covered by the Fair Credit Reporting Act.'' And you explained 
some of that, about someone affirmatively asking for something 
that benefits the consumer, and so on.
    The incident in California, had you had that in place, that 
person would not have qualified for that information?
    Mr. Smith. The information on that particular report would 
not have had the driver's license or, in fact, the Social 
Security numbers on it under that situation. That is correct.
    Mr. Gonzalez. So what you have in place, you would avoid 
certain information having been transmitted to this fraudulent 
business that was requesting your services.
    Mr. Smith. That is correct.
    Mr. Gonzalez. What is--where do you get all this 
information? I am just curious. I know public record is public 
record, and I think Mr. Sanford has alluded to it, and we all 
know that. Once it is in the basic public domain, you collect 
it, disseminate it, and so on. But what are your sources for 
the Social Security numbers, Texas driver's license numbers, 
that type, that is not generally made public?
    Where do you get all that information? And I am not--Mr. 
Sanford, Mr. Smith.
    Mr. Smith. Well, I mean, the information comes from a 
myriad of sources. It comes from basic Federal, State, and 
local data repositories. It comes from--in terms of our Fair 
Credit Reporting Act business, it comes from the insurance 
industry itself. It comes, in some cases, from the consumers 
themselves, and information that they have provided.
    So there are a tremendous myriad of sources of the raw 
data, that we either directly acquire or we get through 
conduits for things such as the Fair Credit Reporting Act, and 
get credit reports through the credit reporting agencies.
    Mr. Gonzalez. Okay. And you have indicated in your 
testimony that maybe there were some red flags, you should have 
acted more quickly in responding to what happened in 
California. Is that correct?
    Mr. Smith. Now that we understand that situation, and how 
it evolved, we should have recognized sooner the magnitude of 
that particular crime, and escalated the processed to a greater 
extent. That is correct.
    Mr. Gonzalez. I am not familiar with specifics. Was this 
just one individual company fraudulently operating that got 
145,000 records or information on individuals?
    Mr. Smith. In this particular case, it was--I mean, this is 
an active law enforcement investigation, so I really can't talk 
in great detail.
    Mr. Gonzalez. Oh, you won't compromise anything, believe 
me.
    Mr. Smith. But the crime itself, but in essence, an 
individual was able to get a legitimate, but unfortunately 
fraudulent California business license, that was----
    Mr. Gonzalez. One business license----
    Mr. Smith. It was----
    Mr. Gonzalez. [continuing] with regard to 145,000----
    Mr. Smith. [continuing] with a business license, and then, 
they were able to get subsequent account structures under 
either that business license, or other fraudulent licenses 
associate with that particular situation. It depends on the 
type of small business in which you are, it would ring a flag 
in terms of whether or not 145,000 or whatever the specific 
number was in that case, would be abnormal or not. 
Historically, there would have been sometimes, collection 
agencies, for instance, would be using the information to help 
find people who were due bad debts.
    Mr. Gonzalez. So it was not unusual to have that kind of 
number, in the way of requests, from any particular entity.
    Mr. Smith. It depends on what the customer, the type of 
business in which that customer was, and in particular, the 
type of permissible purpose or access purpose in which they 
were granted. You know, again, I would remind you that it was 
through our audit processes, in this particular circumstance, 
that we found that it appeared to be usage that was outside of 
what would have been the normal patterns of this particular 
circumstance, that ultimately led to the investigation in 
California itself.
    Mr. Gonzalez. Okay. Let me ask you something quickly. And I 
am not real sure--I know it means a lot of work for you and 
such. If someone is making an inquiry on Congressman Gene 
Green, because someone--obviously, someone stole his briefcase. 
It could be identity theft. Is there a problem notifying the 
individual that an inquiry is being made by ABC Company, Wells 
Fargo, or whatever, just basically Congressman Gene Green, you 
are notified that our company has been requested to provide 
certain information to Company ABC. Because then Gene would 
know he has never gone into ABC Company. He has never made an 
application for any type of--there is no type of transaction 
relationship, transactional relationship.
    Mr. Smith. Again, it would depend upon why that information 
was being accessed. Many times, it is being accessed to 
determine whether or not a fraudulent transaction or some other 
situation, where not necessarily you would want to let the 
consumer alerted to the fact that that information was being 
accessed. So there are some cases where there certainly would 
be nothing wrong with alerting to somebody that, in fact, their 
information had been accessed. But in other situations, that 
could, in essence, defeat the very purpose of why the 
information was being used.
    Mr. Gonzalez. And then, real quick, I think I am out of 
time. I only need a minute, Mr. Chairman. And that is, if you 
are a victim of identity theft, let us say Congressman Green 
had been a victim of it, and he is trying to clear up all his 
records.
    Is it reflected in the information that you compile that 
someone is a victim? In other words, so there is future 
inquiries. Congressman Markey made a good point. You know, you 
have got 1 year running on this thing. I guarantee you that 
information has been sold, resold, it is all over the place. A 
year does nothing, and it is ongoing.
    Is there anything that alerts you guys that gather all this 
information that this was a victim of identity theft, and 
things that may be, again, relevant to that file, or account, 
may be part of that fraudulent act?
    Mr. Smith. There is no centralized system that allows for 
that to take place. You can put a fraud alert on your credit 
report that would indicate, in fact, that you have been a 
victim of identity theft, which would change the nature of 
which that report was being viewed.
    Mr. Gonzalez. And that is not mandatory, that is just----
    Mr. Smith. That is an option that the consumer, and some 
consumers choose to take that option, and some consumers do 
not.
    Mr. Gonzalez. All right. Last question quickly. And what 
would it cost to get a report? I know that from the credit 
reporting agencies, that I am entitled to get a free report or 
whatever it is, is it also free from ChoicePoint?
    Mr. Smith. It is. It is governed, again, those particular 
reports, on the Fair Credit Reporting Act, and you are entitled 
to a free report on an annual basis.
    Mr. Gonzalez. Thank you. Thank you, Mr. Chairman.
    Mr. Stearns. The gentleman----
    Mr. Strickland. Mr. Chairman--oh.
    Mr. Stearns. Yes.
    Mr. Strickland. I was just going to--expanding Mr. 
Gonzalez's last question----
    Mr. Stearns. Do you seek additional--unanimous consent?
    Mr. Strickland. The unanimous consent. Is that report that 
is at no cost similar to what we would get from a credit 
reporting agency, or would it be the expanded report, or the 
comprehensive report, that I know that was quoted in the MSNBC 
article?
    Mr. Smith. The public record report is not governed under 
the Fair Credit Reporting Act, and so that would be a separate 
report, in terms to be able to gain access to that report.
    Mr. Strickland. Although you package that into a 
comprehensive report for someone who subscribes to the service?
    Mr. Smith. Well, no, that is just a technical name of a 
public record report. That is not packaged together with those 
other types of reports that are covered under the Fair Credit 
Reporting Act. It is just--that is just a term used for a 
specific type of public record report.
    Mr. Strickland. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman.
    Mr. Strickland. Just trying to get our definitions right. 
Thank you. The full chairman of the committee.
    Mr. Stearns. The full chairman is recognized.
    Chairman Barton. Well, thank you. And of course, 
Congressman Gonzalez just left, but we were in the enviable 
position just then, that Ranking Member Schakowsky and 
subcommittee Chairman Stearns were so lucky to be surrounded by 
three Texans on the right and the left. Sometimes, it is just 
fun to be alive in this committee, isn't it? There you go.
    I want to first thank you two gentlemen for testifying 
voluntarily. You know, we didn't have to subpoena you, and we 
were able to work with your representatives to make sure that 
you all could come, and felt comfortable coming. So I do want 
to publicly on the record thank you for that.
    I am going to ask one of the same questions that 
Congressman Markey asked in his questions. I am really 
wrestling with this issue of selling people's Social Security 
numbers without their permission, and I asked this to the 
Chairwoman of the Federal Trade Commission, and she has 
indicated that she--if I heard her correctly, she didn't think 
it should be traded or sold without the permission of the 
individual, unless there was a law enforcement reason to do 
that.
    So I wanted to give you two folks, since you are two of the 
biggest data collectors in the country, an opportunity to tell 
why, if you do think it should be legal to continue to sell the 
Social Security number, without the permission of the 
individual, why that is so.
    Mr. Sanford. Would you like me to go first?
    Chairman Barton. Either one.
    Mr. Sanford. All right. Chairman Barton, a Social Security 
number is a particular unique identifying number, and there are 
some Federal laws that govern the use of that, and which 
provide for legally permissible uses. The intent of that law 
was to facilitate commerce, to help law enforcement. And in 
addition to law enforcement situations, having the ability to 
actually associate broad records and information with a 
particular individual, that Social Security number is that 
unique identifying piece of information that allows financial 
institutions, for example, to determine whether or not they are 
having a fraudulent transaction in their business.
    It clearly is critical for law enforcement. It is critical, 
also, in the collection of debts, collection of debts for 
companies. It is very, very important in terms of keeping costs 
down for the rest of the consumer. We restrict the use of 
Social Security numbers in our data bases for these specific 
permissive uses. At LexisNexis, we truncate the Social Security 
number, the last 4 digits, so that unless you have a specific 
permissible use, under Federal law, you will not see that 
Social Security number displayed in the answer for a query that 
you do on the system.
    We are also extending that kind of masking to sensitive 
other information, like driver's license numbers, and our 
restrictions are more restrictive than what is currently 
required by law. I think that strikes the right balance, in 
terms of making sure that we provide for lawful, legitimate 
uses of this information, but at the same time, protecting the 
privacy of the consumers.
    Chairman Barton. Okay. Mr. Smith.
    Mr. Smith. Well, first, you know, I would say that I do 
support stronger legislation regarding the uses of Social 
Security numbers, in particular, in the display of those Social 
Security numbers, so that while they may need to be used to 
validate and verify an individual, or help support a 
transaction, the actual printing out of those numbers, or at 
least certainly in their totality, I don't believe is a 
necessary thing to do, and could be restricted in very dramatic 
ways.
    I think what you hear coming from at least me, and I think, 
you know, my colleague shares this, is that there are more than 
23,000 William Smiths in the United States, and as we try, and 
society tries to determine how you can legitimately determine 
one individual from another, or particularly, to ensure that 
their data is correctly put with that individual and another, 
people who are trying to find appropriate mechanisms to create 
the uniqueness of that individual. One of the mechanisms that 
has been used to do that has been the Social Security number. 
Others, driver's licenses, so that--and what we are trying to 
suggest is that there needs to be a recognition that the 
ability to use some type of personal identifier, whatever 
correct one it is. If you could get to a better, more specific 
one, and not use Social Security numbers, that would be 
terrific, so that you can make sure that you are dealing with 
that unique individual.
    As William Smith moves around statistically, will move 
around the United States, 15 percent of them will move, you 
want to make sure that you put the data with the correct one. 
So I agree, the publishing and making available for anybody to 
see a Social Security number is not an appropriate thing to do. 
We just need to make sure that we can maintain the uniqueness 
of individuals, and allow for those applications, such as fraud 
or law enforcement, where it provides a very important tool.
    Chairman Barton. Well, I don't want to belabor the point, 
and we didn't do this for this hearing, but I thought about it, 
to prove a point. I could have asked the staff to take your two 
names, and without too much trouble, gotten your Social 
Security number, and with that, gotten lots of information out 
there that is collated on you two gentlemen. A lot of it, I 
didn't need to know, you know, just almost for prurient 
interest, to get a profile on you two gentlemen. Just to 
prove--now, I didn't do that, because that would have been kind 
of hitting below the belt, but it is--it would have been easily 
done. And that is wrong.
    You know, we had banks long before we had the Social 
Security system, and bankers made loans, and bankers checked 
up, and we had fraud long before the Internet, but the Internet 
has made fraud a lot easier to commit, and you two folks are in 
the business of collecting information, which is totally 
legitimate, but sometimes, the information you collect, when 
people apply to get that information, they apparently use this 
loophole of trying to prevent fraud. They want to--and you sell 
them the information totally legally, not illegal, but they 
don't use it for that purpose, and you folks don't make any 
real attempt to try to guarantee that it is used for the 
purpose for which you allegedly, they purportedly ask that you 
give it to them, and I think that is just wrong.
    I mean, we have got to find a way to allow you folks to do 
what you do, and protect the privacy of the average citizen, 
and I am not sure what we are going to do, but I think there is 
a very good chance we are going to put together a bill that 
will make it illegal to sell the Social Security number without 
the permission of the individual, unless there is a legitimate 
law enforcement purpose, or there may be one or two other 
exceptions. I don't know what they would be. I have just--I 
have not heard anything that explains to me why we should allow 
that to go on.
    Mr. Chairman, I have exceeded my time. Thank you.
    Mr. Stearns. I thank the full chairman. Let me just, we are 
going to allow a second round here, if the chairman wishes. But 
let me just follow up a little bit with what the chairman 
mentioned. And with Mr. Markey. He was trying to ask you 
specifically to give us a case example when you could sell the 
Social Security number, and I would like each of you just to 
take John Doe, for example. Under what circumstances would you 
sell the Social Security number for John Doe? Just give me 
specifically what that would be, each of you.
    Mr. Sanford. Well, would you like a law enforcement 
example?
    Mr. Stearns. Well, let us--okay.
    Mr. Sanford. Or a financial institution example?
    Mr. Stearns. For selling, would you--do you actually sell 
to the law enforcement, do the----
    Mr. Sanford. What we----
    Mr. Stearns. Does the FBI and the Justice Department pay 
you for the Social Security numbers for John Doe?
    Mr. Sanford. We enter into subscription agreements at 
LexisNexis with----
    Mr. Stearns. Okay.
    Mr. Sanford. [continuing] law enforcement agencies, 
financial institutions. They are subscribers----
    Mr. Stearns. Financial institution means banks.
    Mr. Sanford. Yes, sir.
    Mr. Stearns. All the banks in America. If they----
    Mr. Sanford. That would be our hope.
    Mr. Stearns. Yeah, if they----
    Mr. Sanford. Not yet.
    Mr. Stearns. [continuing] subscribe. Okay. Financial 
institutions, law enforcement, who else?
    Mr. Sanford. You would have credit departments of 
legitimate businesses who are trying to collect legitimate----
    Mr. Stearns. Right.
    Mr. Sanford. [continuing] debts of----
    Mr. Stearns. Okay.
    Mr. Sanford. [continuing] that organization. And then, on a 
case by case basis, you could have a particular, you could have 
a particular organization----
    Mr. Stearns. Could this----
    Mr. Sanford. [continuing] a government body who is 
investigating----
    Mr. Stearns. Yeah.
    Mr. Sanford. [continuing] criminal or fraudulent activity.
    Mr. Stearns. Well, let us say Chairman Barton wanted to get 
the Social Security number for John Doe. Could he pay you?
    Mr. Sanford. He would have to have a--one of the permissive 
uses, and not just because he wanted to look it up. He would 
not gain access.
    Mr. Stearns. But if he had the permissive--permitted uses, 
he could buy it from you.
    Mr. Sanford. He would, as part of a subscription 
agreement----
    Mr. Stearns. Okay.
    Mr. Sanford. [continuing] do a query on the service, and he 
would get an answer.
    Mr. Stearns. Okay.
    Mr. Sanford. And if he was----
    Mr. Stearns. So let us say he goes out and opens up a 
business. He gets a business license, and he calls himself 
whatever is necessary to get this permitted use, then you would 
give it to him.
    Mr. Sanford. Well, I would like to tell you that our 
verification procedures are not going to allow someone like 
that to gain access, first of all, even to a--that kind of 
information. We have a very, very rigorous verification 
authentication process. And then, just because we credentialed 
you, and we are willing even to do business with you, then we 
go through a special access credentialing to make sure that you 
have legitimate purposes.
    Just because you are a bank doesn't mean we are 
automatically going to----
    Mr. Stearns. But in the case of ChoicePoint, they did all 
this, and it still didn't work, and this person got the Social 
Security numbers, right? That is what happened.
    Mr. Sanford. Well, we are never going to--I can't guarantee 
you that----
    Mr. Stearns. So----
    Mr. Sanford. Sir, I can't guarantee you that----
    Mr. Stearns. So you are credentialing Chairman Barton to 
get John Doe's Social Security number is the key. If that 
credentialing is not done rigorously, robust, then for all 
intents and purposes, that Social Security number is being sold 
and being used--the key is that credentialing, don't you think?
    Mr. Sanford. I think it is one of the keys. I think there 
is actually a lot more to it than that.
    Mr. Stearns. Okay.
    Mr. Sanford. I think credentialing is the first step. I 
think strong security protocols is the second step. Making sure 
that companies that would appear to be legitimate businesses 
still have a need, have a permissive use to use that, and then, 
ongoing monitoring and security to make sure that the usage by 
those customers is not abnormal. Detection software that people 
like us use to monitor to see whether or not we have abnormal 
usage.
    Mr. Stearns. Now, I am not suggesting this, but is there a 
possibility that we need an outside third party to credential 
your credential? In other words, the credential is between you 
and Chairman Barton in this case. Is it possible that we need 
some kind of corroboration, authentication of what, how you 
credential these people, some standards, or the fair--I mean, I 
don't know. I mean, just your--I mean, I am just asking 
whether----
    Mr. Sanford. Yeah. I mean, we contract ourselves with third 
parties to conduct security audits----
    Mr. Stearns. Okay.
    Mr. Sanford. [continuing] to advise us. We talk to law 
enforcement. We ask them what else should we be doing, not just 
in this current----
    Mr. Stearns. Okay.
    Mr. Sanford. [continuing] situation, where we have----
    Mr. Stearns. Okay.
    Mr. Sanford. [continuing] an investigation----
    Mr. Stearns. All right.
    Mr. Sanford. [continuing] ongoing.
    Mr. Stearns. Mr. Smith, you have written a book called Risk 
Revolution, and you have talked about how information 
technology can be used to reduce risk and increase peace of 
mind, and you also talk about personal privacy and how we need 
to--need not trade civil liberties for civil defense, if we act 
now, in this book called risk. But one of your quotes in the 
book is, it says: ``Each of us have a right to privacy. 
However, none of us have a right to absolute anonymity.'' And 
could you explain that, what you mean by----
    Mr. Smith. Yes.
    Mr. Stearns. [continuing] that expression?
    Mr. Smith. I will be glad to. What I am saying is is that 
as people seek rights and privileges in society, for instance, 
you are trying to drive a hazardous waste truck through the 
Holland Tunnel in New York, where you could potentially put 
millions of people at risk, then your ability to be anonymous, 
or not having to disclose who you are, when you are trying to 
get that particular right or privilege, is something that I 
think in today's risky world, would be extraordinarily 
problematic, and would create more problems than it would 
solve.
    Mr. Stearns. So any American who wants to be anonymous 
cannot be so, in your--he will not have this absolute----
    Mr. Smith. No.
    Mr. Stearns. [continuing] anonymity, because he cannot have 
it, in your expression?
    Mr. Smith. No. Not at all. If you are sitting at a sidewalk 
cafe, and you are not seeking any right or privilege from 
society, or you are not at any risk to anyone else, then I 
absolutely don't believe that people should have the right to 
know who you are. This is more as you interact throughout 
society, because there are risks that are being created every 
day, and to give you an example, 3 percent of all volunteer 
workers today have undisclosed serious criminal violations, and 
just recently, we had a situation where, in Texas, in fact, 
where somebody was applying to be a volunteer at a youth, 
female youth organization, who had just been released for his 
eighth conviction of child molestation 2 weeks prior to him 
trying to volunteer. That is a circumstance and situation where 
we can't allow someone to be anonymous and put our children at 
risk. That is the kind of situation in which I was referring to 
in the book.
    Mr. Stearns. All right. Thank you. And the gentlelady.
    Ms. Schakowsky. Thank you, Mr. Chairman. Our subcommittee 
asked both of you to submit sample reports, that can be 
redacted reports, for the record. And I wanted to be sure that 
you are going to provide us with that information.
    Mr. Smith. I didn't know we were asked to. Go ahead.
    Mr. Sanford. I apologize. I understand we have not yet 
submitted that. Chairman Stearns and I talked about my 
attendance on Thursday, last week, so I am sure we will get you 
that in a matter of days.
    Ms. Schakowsky. And Mr. Smith.
    Mr. Smith. We would be pleased to do that.
    Ms. Schakowsky. You act as if you don't know that you were 
asked for it.
    Mr. Smith. I checked--I was not aware personally that we 
were asked for that.
    Ms. Schakowsky. Okay. Well----
    Mr. Smith. But we would be pleased to do so.
    Ms. Schakowsky. Okay. Thank you. I have a number of 
questions I wanted to ask. Mr. Smith, how much does it cost you 
to provide that information for--to provide that monitoring for 
a year? How much is your company going to expend per year to 
try and protect those whose privacy was breached?
    Mr. Smith. That is a two--it approaches $2 million.
    Ms. Schakowsky. Okay. And Mr. Smith, how much did your 
company spend last year--well, let me just read you the quote 
from the Wall Street Journal. ``These data sellers,'' and I am 
assuming that would include LexisNexis, I am not sure, ``have 
developed a deft combination of lobbying and industry-
affiliated think tanks to head off increased oversight. 
ChoicePoint, and six of the country's other largest sellers of 
private consumer data, spent at least $2.4 million last year to 
lobby Members of Congress in a variety of Federal agencies, 
according to disclosure forms filed with the U.S. House and 
Senate. ChoicePoint was the biggest spender, with $970,000 
either paid to outside lobbyists, or spent directly by the 
company.'' And let me just make an editorial comment here. You 
know, at the same time as you are saying that now, after the 
fact, you want to help these consumers, your company, at least, 
and I don't know about Mr. Sanford's, are engaged in lobbying 
efforts to defeat increased oversight, to the tune, it appears, 
of about $1 million last year.
    Mr. Smith. Well, it is my understanding that the majority 
of the dollars you just spent there were not spent in lobbying 
for no regulation in our industry. A lot of that was done for 
business development here in Washington. We serve a lot of 
clients in this particular area. I mean, I would be glad to get 
you a more accurate data as to what was done lobbying-wise. I 
would----
    Ms. Schakowsky. Well, I--let me ask you this. If both of 
you could provide us with information on positions that you 
have taken on legislation that has dealt--or regulations that 
have dealt with privacy, I would appreciate seeing that 
information.
    Let me ask one final question that deals with victims of 
domestic violence. I wondered if either of your companies make 
any special efforts--I actually don't know if you are required 
by law, if you voluntarily do anything to protect the 
information of domestic violence victims?
    Mr. Smith. I will have to get back with you to answer this. 
I don't believe so, but I don't know the answer to your 
question.
    Ms. Schakowsky. You realize what I am getting at, that the 
fact that this information, even as basic information as 
address, could put the lives of people who have been victims of 
domestic violence at risk.
    Mr. Smith. Well, we take domestic violence very seriously. 
We sponsored the National Rape Evidence Project, in which we 
raised, as a company, over $200,000 to help get rape kits 
tested----
    Ms. Schakowsky. Well, sorry, but----
    Mr. Smith. [continuing] the police, yeah, so this is an 
issue that we believe very strongly in, and so we support you 
in any way, in order to make sure that in no circumstance, 
somebody could be subject to violence as a result of this 
information.
    Ms. Schakowsky. So you--I would hope that, then, you would 
check what policies you have to prevent, and Mr. Sanford.
    Mr. Sanford. Yes, we have a policy that under limited 
situations, individual consumers can opt out of our data bases, 
and that is actually one of the examples where people do opt 
out, because making their identity known to others, then, would 
put them at future risk.
    Ms. Schakowsky. How would one opt out?
    Mr. Sanford. I have on our LexisNexis website, we have a 
privacy page that lays out the procedures, who they call, and 
they usually submit documentation. It lays out, you know, what 
is the reason.
    Ms. Schakowsky. How would someone know to do that? How 
would someone that is a victim of domestic violence know how to 
avail themselves of that option?
    Mr. Sanford. I think unless a consumer agency or a 
counselor made them aware of it, they probably wouldn't know.
    Ms. Schakowsky. Thank you.
    Mr. Stearns. I thank both of you for your time and 
forbearance here. We are completed with the second panel, and 
we invite the third panel to come forward.
    Mr. Joseph Ansanelli, Chairman and Chief Executive Officer 
of Vontu, Incorporated, and Mr. Marc Rotenberg, Executive 
Director, Electronic Privacy Information Center. We welcome 
both of you, and thank you for your patience for waiting 
through the second panel.
    And Mr. Ansanelli, we will start with you, with your 
opening statement.

    STATEMENTS OF JOSEPH ANSANELLI, CHIEF EXECUTIVE OFFICER, 
VONTU, INC.; AND MARC ROTENBERG, EXECUTIVE DIRECTOR, ELECTRONIC 
                   PRIVACY INFORMATION CENTER

    Mr. Ansanelli. Chairman Stearns, Ranking Member Schakowsky, 
and members of the committee, good afternoon, and thank you for 
inviting me to testify, and thank you for your ongoing efforts 
and focus on this issue of the protection of consumer data. I 
am Joseph Ansanelli, CEO of Vontu. We provide information 
security solutions to help Fortune 500 companies, such as Best 
Buy, Prudential, Charles Schwab, and others prevent the loss of 
consumer data over the Internet.
    Given my work with these companies, I hope to provide a 
unique viewpoint for policy considerations, and add to the 
discussion of a need for a national consumer data security 
standard. In order to reduce identity theft, it seems that 
there are at least three important areas for policy.
    The first is the criminals who actually steal the 
identities. Second is the consumers who need education on the 
importance of protecting their identities, as well as help if 
they become victims. And the third area is the organizations 
that actually store consumer data. It is third area, companies, 
businesses, government agencies that store consumer data, in 
which I have particular expertise, and is the focus of my 
testimony.
    An important point to understand is that these 
organizations are not the criminals perpetrating identity 
theft. In fact, all the companies with which I work invest 
significant resources, and are fully committed, to protecting 
consumer information. However, today, the question that many 
people are asking is are these organizations doing enough to 
ensure the security of consumer data?
    To answer that question, I suggest we must first ask the 
question, is it clear to these organizations what is required 
and expected of them to ensure the security of consumer data? 
Unfortunately, despite existing legislation, there is some 
confusion around what is required, and confusion is the enemy 
of consumer protection. To date, Congress has taken important 
steps to address consumer data protection, through industry and 
organization-specific regulations. For example, Congress has 
passed Section 501(b) of Gramm-Leach-Bliley for financial 
services, Part 164, subpart C of HIPAA for healthcare 
providers, the Driver's Privacy Protection Act, the Fair Credit 
Reporting and FACT Act, and many others. Additionally, many 
States are creating de facto national standards and 
requirements, such as California S.B.1386, which requires 
notification in the case of a breach. These different 
legislative acts have--all have aspects of consumer data 
protection, yet each has tackled the problem differently, based 
on either industry or State-specific requirements. And that is 
where the confusion begins.
    I think one important question for this committee to 
consider is what is the difference in how a bank versus how a 
retailer, versus how a utility provider should treat the 
security of a Social Security number or any other consumer 
information, and should the focus of policy be on the industry, 
or instead, on the data itself? I think everyone would agree 
that the data is what needs to be protected across all 
industries. We support the suggestion of the Chairwoman of the 
FTC earlier today that one possible solution to raise the level 
of consumer data protection is to extend existing regulations, 
such as GLBA, and the Safeguard Rules, to any organization 
which stores data. This would enable and create a preemptive 
and unified national consumer data security standard. We 
suggest the standard would require organizations that store 
nonpublic consumer information to one, ensure the security of 
that information. This would create an affirmative obligation 
of companies that store it to protect it.
    Second, we think that organizations should protect against 
reasonably anticipated threats to the security of such data. As 
new threats emerge, this would allow the requirements to evolve 
without requiring new legislation. Third, it is important that 
companies protect against unauthorized access to or use of such 
information that could result in substantial harm to a 
consumer. This would help prevent against fraudulent efforts to 
gain access to the data by outsiders or insiders, as is the 
case in many recent breaches. Fourth, we think that companies 
have an obligation, and should have an obligation, to ensure 
compliance with their security policies by both their employees 
and workforce, as well as third parties that they give access 
to that information.
    This would help address the issue of the insider threat, 
which was the situation in the recent Teledata case, as well as 
concerns regarding offshoring and outsourcing. These first four 
are very similar to what is currently required under GLBA and 
HIPAA.
    The last requirement we suggest and we support is the idea 
of notification. Companies should disclose any loss of 
information, when it is reasonably believed that such loss 
could result in substantial harm to the consumer. This would 
clearly help consumers proactively protect themselves by 
monitoring their credit reports, setting up fraud alerts, and 
other efforts to watch for potential issues.
    In addition, while these requirements serve as the 
proverbial stick, I suggest the committee also consider any new 
legislation also potentially provide a carrot as an incentive 
to go beyond any base requirements. It is important to remember 
that security is a journey, and like any other crime, it is 
unlikely we will completely eliminate the theft of identities. 
Therefore, a carrot might provide some level of protection 
against the risk of excessive punitive damages for those 
organizations with qualifying security programs. This is not 
protection against economic or reasonable pain and suffering 
damages, but against excessive punitive actions when companies 
are already meeting or exceeding these requirements.
    In summary, to reduce identity theft, policy should focus 
on the three areas of criminals, the consumers, and the 
organizations that store consumer data. I suggest this 
committee consider the idea of a preemptive national consumer 
data security standard that also protects organizations from 
potential excessive punitive damages, when they are making the 
best efforts to protect the data.
    Thank you, and I look forward to any questions.
    [The prepared statement of Joseph Ansanelli follows:]
 Prepared Statement of Joseph Ansanelli, Chairman and CEO, Vontu, Inc.
    Chairman Stearns, Ranking Member Schakowsky and all the Committee 
members, thank you for your ongoing focus on the protection of consumer 
data.
    I am Joseph Ansanelli, CEO of Vontu, an information security 
solutions company that helps Fortune 500 organizations such as Best 
Buy, Prudential, Charles Schwab and others, prevent the loss of 
consumer data over the Internet. Given my experience with helping some 
of the largest companies in America protect their consumer data, I hope 
to provide a unique viewpoint on the question of policy considerations 
as a result of recent cases of consumer data loss and if there is a 
need for a national consumer data security standard.

          PROBLEM: IDENTITY THEFT AFFECTS MILLIONS EVERY YEAR
    The FTC <SUP>1</SUP> estimated that in one year alone approximately 
10 million people--or almost 5% of the US adult population--were 
victims of Identity Theft. These victims reported $5 billion in out-of-
pocket expenses and countless hours of lost time repairing their credit 
histories. In the previous five years, almost 30 million people were 
victims of identity theft.
---------------------------------------------------------------------------
    \1\ Federal Trade Commission--Identity Theft Survey Report, 
September, 2003
---------------------------------------------------------------------------
    This is not only a problem for consumers, but for business as well. 
As part of the same FTC report, the losses to businesses totaled nearly 
$50 billion.
    Additionally, there is a risk to companies that is not mitigated 
through insurance or other strategies--loss of consumer trust. Vontu 
commissioned a survey <SUP>2</SUP> of 1000 consumers in the United 
States to better understand the effect that security of customer data 
has on consumer trust and commerce. Some of the findings include:
---------------------------------------------------------------------------
    \2\ Vontu Consumer Trust Survey, See Appendix 1

<bullet> Security drives purchasing decisions--More than 75 percent of 
        consumers said security and privacy were important in their 
        decisions from whom they purchase.
<bullet> Consumers will speak with their wallets--Fifty percent said that they 
        would move their business to another company if they did not 
        have confidence in a company's ability to protect their 
        personal data.
<bullet> Insider theft increases concerns about a company's data security 
        efforts--More than 50 percent of the consumers surveyed said an 
        insider breach would cause them to be more concerned about how 
        a company secures their information
    Clearly, financial costs and loss of consumer trust as a result of 
identity theft are a significant problem today.
                   identity theft policy implications
    In order to reduce Identity Theft, there are at least three areas 
of focus for policy:

1. Criminals who steal identities. This is important not only for 
        reducing Identity Theft, but other crimes and threats to 
        national security. Professor Judith Collins of Michigan Statue 
        University's ID Theft Crime Lab states that virtually all 
        identity thieves are involved in other felonies or terrorist 
        acts. The Identity Theft Penalty Enhancement Act, which became 
        law in July 2004, was a positive step in the right direction to 
        increase the penalties and provide additional tools for law 
        enforcement and the courts to punish those found guilty of 
        identity theft.
2. Consumers who need continued education on the importance of 
        protecting their identities and as well as help if they are 
        victims. The efforts of the FTC with the ID Theft hotline, 
        privacy website and on-going educational efforts are important 
        and more can be done to raise awareness of those efforts. 
        Additionally, the FACT Act provided much needed tools for 
        consumers including free annual credit reports, the ability to 
        place fraud alerts in their credit report, and ability to more 
        easily correct inaccuracies in their credit report resulting 
        from identity theft.
3. Organizations that store consumer data.

                    RESPONSIBILITY OF ORGANIZATIONS
    The third area, companies, government agencies and organizations 
that store consumer data, is the one in which I have the most 
experience and is the focus of my testimony. An important point to 
understand, before we can truly begin to address the problem, is that 
these organizations are not the criminals perpetrating Identity Theft. 
In fact, all of the companies that I have worked with invest 
significant resources and are thoroughly committed in their efforts to 
protect consumer data.
    However, we all recognize that organizations with consumer data are 
a crucial ``link in the chain'' to prevent identity theft and the 
question that many people are asking is:
          ``Are these organizations doing enough to ensure the security 
        of consumer data?''
    To answer that question, I suggest one must first ask:
          ``Is it clear to organizations what is expected of them to 
        best protect consumer information?''
    Unfortunately, despite existing legislation, there is confusion 
around what is required of organizations and confusion is the enemy of 
consumer protection.

             CONFUSION IS THE ENEMY OF CONSUMER PROTECTION
    To date, Congress has taken important steps to address consumer 
information protection through industry and organization specific 
regulations. For example, Section 501 (b) of Gramm Leach Bliley for 
financial services, PART 164--Subpart C of HIPAA for healthcare 
providers, the Driver's Privacy Protection Act for state DMVs, the Fair 
Credit Reporting and FACT Act, and others. Additionally, many states 
are creating de facto national requirements such as California SB 1386 
which requires notification in the case of a breach.
    These different legislative acts have aspects of consumer data 
protection yet each has tackled the problem differently based on 
industry or state specific requirements. And that is where the 
beginning of the confusion lies.
    One important question for this committee to consider is:
          ``What is the difference in how a bank versus a retailer 
        versus a utility provider should treat the security of a social 
        security number, and should the focus of policy be on the 
        industry of the data itself?''

                NATIONAL CONSUMER DATA SECURITY STANDARD
    I am sure everyone would agree, it is the data that matters and 
needs to be protected across all industries. One possible solution to 
raise the level of consumer data protection is to extend existing 
industry specific consumer data protection requirements to cover any 
organization which stores private consumer data and create a preemptive 
and unified, National Consumer Data Security Standard.
    One alternative would be very similar to GLBA and HIPAA 
<SUP>3</SUP> in addition to a requirement for notification. The 
difference is that it would apply to any organization that stores 
consumer information regardless of industry or location.
---------------------------------------------------------------------------
    \3\ See attached Appendix 2 and 3
---------------------------------------------------------------------------
    This standard would require any organization that stores non-public 
consumer data to:

1. Ensure the security and confidentiality of consumer information. 
        This would create an affirmative obligation of the companies to 
        protect the data.
2. Protect against any reasonably anticipated threats to the security 
        of such information. This would allow the requirements to 
        evolve as new threats emerge without new legislation.
3. Protect against unauthorized access to or use of such information 
        that could result in substantial harm to a consumer. This would 
        help prevent against fraudulent efforts to gain access to the 
        data by outsiders or insiders as is the cause in many recent 
        breaches.
4. Ensure compliance with their security policies by an organization's 
        workforce and third parties who are given access to the 
        information. This would address the issue of the insider 
        threat, which was the situation in the recent Teledata case, as 
        well as concerns regarding off shoring and outsourcing;
5. Disclose any loss of the information when it is reasonably believed 
        that such loss could result in substantial harm to a consumer. 
        This would help consumers to proactively protect themselves by 
        monitoring their credit reports, setting up fraud alerts and 
        other efforts to watch for potential issues.
    Rule making for this legislation would exist in relevant agencies 
and I believe that the FTC has already done much of the work under the 
GLBA Safeguards Rule 16 CFR Part 314 and could apply this rule beyond 
entities covered under GLBA.
    In addition, while these requirements serve as the proverbial 
``stick'', I suggest the Committee consider any new legislation also 
provide a ``carrot'' as an inventive to go beyond any base 
requirements. This ``carrot'' might provide some level of protection 
against excessive punitive damages for those organizations with 
qualifying security programs. This is important to help remove existing 
and valid concerns that organizations have about increased litigation 
risk as they proactively uncover new threats with respect to consumer 
data security. This is not protection against economic or reasonable 
pain and suffering damages, but against excessive punitive actions when 
companies are clearly meeting and exceeding these requirements.

                                SUMMARY
    In summary, to reduce identity theft policy must focus on the 
criminals, consumers and organizations that store the data.
    I suggest this Committee consider the idea of a preemptive, 
national consumer data security standard that also protects 
organizations from potential excessive punitive damages when they are 
making best efforts to protect consumer information. The standard would 
clearly state what is required of an organization and encourage them to 
use their best efforts to improve the protection of consumer 
information and help to reduce Identity Theft.

                   Appendix 1: Relevant GLBA Section
                          Gramm Leach Blilely
                            TITLE V--PRIVACY
        Subtitle A--Disclosure of Nonpublic Personal Information
        Sec.  501. PROTECTION OF NONPUBLIC PERSONAL INFORMATION.
    (b) FINANCIAL INSTITUTIONS SAFEGUARDS.--In furtherance of the 
policy in subsection (a), each agency or authority described in section 
505(a) shall establish appropriate standards for the financial 
institutions subject to their jurisdiction relating to administrative, 
technical, and physical safeguards--

(1) to insure the security and confidentiality of customer records and 
        information;
(2) to protect against any anticipated threats or hazards to the 
        security or integrity of such records; and
(3) to protect against unauthorized access to or use of such records or 
        information which could result in substantial harm or 
        inconvenience to any customer.

                   Appendix 2: Relevant HIPAA Section
                      HIPAA Security Requirements
                     PART 164--SECURITY AND PRIVACY
Subpart C Security Standards for the Protection of Electronic Protected 
                           Health Information
                 Section 164.306--General requirements
    Covered entities must do the following:

(1) Ensure the confidentiality, integrity, and availability of all 
        electronic protected health information the covered entity 
        creates, receives, maintains, or transmits.
(2) Protect against any reasonably anticipated threats or hazards to 
        the security or integrity of such information.
(3) Protect against any reasonably anticipated uses or disclosures of 
        such information that are not permitted or required under 
        subpart E of this part.
(4) Ensure compliance with this subpart by its workforce.
          Attachment 1: 2003 Consumer Information Trust Survey
     Attachment 2: Harris Interactive Database Security Highlights
        Attachment 3: Ponemon Research on Data Security Breaches
          Attachment 4: Vontu 2004 Data Security Trends Report
                 2003 customer information trust survey
    Those organizations that sit on the highest perch when it comes to 
customer trust have the farthest to fall if they lose that trust 
according to the 2003 Customer Information Trust Survey commissioned by 
security technology innovator Vontu, Inc.
    Consumers have the greatest amount of trust that companies within 
the health care industry have measures in place to protect personal 
information from identity thieves. Web retailers and retailers scored 
near the bottom in consumer trust in a ranking of 14 major industries. 
However, even the companies that scored well with consumers can face 
serious financial consequences if security breaches within their 
organization lead to a loss of consumer trust. Some of the major 
findings of the survey are:

<bullet> Security is important in the purchasing decision. More than 75 
        percent of the consumers said security and privacy was 
        important in their decisions from whom they purchase.
<bullet> Not all security breaches are equal in the eye of the customer. More 
        than 54 percent said security breaches by insiders or 
        employees, now one of the fastest growing contributors to 
        identity theft, would have the greatest impact on their trust 
        in an organization.
<bullet> Consumers choose with their wallets. Fifty percent said that they 
        would move their business to another company if they did not 
        have confidence in a company's ability to protect their 
        personal data.

                   VONTU INFORMATION TRUST RANKINGS*
Hospital or Clinic 82%
Pharmacy 79%
Bank 78%
Charity/Religious Org. 78%
Airlines 60%
Car Rental Company 53%
Utility 48%
Credit Card Company 47%
Cable Company 42%
Restaurants 42%
Hotels 41%
Web Retailers 41%
Retail Stores 38%
Grocery Store 25%

    * The Vontu Information Trust Rankings rate 14 major industries 
based on the level of trust consumers surveyed said they had that these 
organizations would protect personal information from identity theft.

    Two examples of the questions from the survey are:
    How important is privacy and security to your purchasing decision?
<bullet> Very important 19%
<bullet> Important 57%
<bullet> Not important 9%
<bullet> Unsure/No Comment 14%
    If an insider (such as an employee of the company) stole your data 
rather than an outsider (such as a computer hacker), would it change 
your answers to previous question about trust?
<bullet> Yes--More concerned about insider 54%
<bullet> Yes--Less concerned about insider 12%
<bullet> No--No difference 17%
<bullet> Unsure/No comment 18%
<SUP><dbl-dagger></SUP>2003 Vontu Inc.

    Mr. Stearns. I thank the gentleman. Mr. Rotenberg, welcome.

                   STATEMENT OF MARC ROTENBERG

    Mr. Rotenberg. Mr. Chairman, Congresswoman Schakowsky, 
members of the committee. Thank you so much for the opportunity 
to appear today. My name is Marc Rotenberg. I am Executive 
Director of the Electronic Privacy Information Center. We are a 
nonpartisan research organization here in Washington, and we 
have been before the committee before, and we thank you, Mr. 
Chairman, for holding this very important hearing today.
    With all the news reporting of the ChoicePoint matter over 
the last several weeks, I think it is very important to keep in 
mind what actually happened here. This was not a computer hack. 
This was not a theft. ChoicePoint sold this information on 
American consumers to a criminal ring engaged in identity 
theft.
    ChoicePoint is in the business of selling personal 
information about American consumers, and while many other 
companies in the last few weeks have reported significant 
security breaches, I think it is critical for the committee not 
to lose sight of what is at issue here.
    Our organization, EPIC, wrote to the Federal Trade 
Commission in December, before any of this became public, and 
we urged the FTC to open an investigation into ChoicePoint's 
practices. We were concerned about whether current Federal 
privacy law, and particularly, the Fair Credit Reporting Act, 
adequately protected the privacy of American consumers. We were 
also concerned because it became increasingly aware to us that 
ChoicePoint had developed a number of products and services 
that seemed to us very similar to the type of information 
products that would otherwise be covered by the Fair Credit 
Reporting Act, but ChoicePoint had, in fact, artfully found 
ways to avoid Federal oversight. And so it seemed obvious to us 
that the Federal Trade Commission would open an investigation, 
and try to determine what, in fact, was happening with the 
personal information of American consumers.
    I have to say, Mr. Chairman, I was very disappointed this 
morning, when I heard the Chairwoman of the FTC say that, in 
fact, they did not open the investigation until the after the 
incident was publicly reported. I don't think it can be the 
case that the Federal Trade Commission waits until they read 
about a matter in the morning newspaper before they pursue what 
we believe was a very well-founded complaint that we had 
pursued at the Federal Trade Commission.
    Now, there are a number of others points that I make in my 
testimony about the lessons that I believe we can draw from the 
ChoicePoint matter. One of the critical concerns that I know 
you have, sir, over the years, as we have talked about privacy 
legislation, is the need to show that there is actual harm to 
consumers. And I think here, with ChoicePoint, it should be 
clear that the absence of effective privacy protection leads to 
significant harms. In fact, the harm here, the harm of identity 
theft, is the No. 1 crime that American consumers face, and the 
crime is increasing, as the FTC's own reports show. Over the 
last 5 years, the level of identity theft in this country is 
becoming the No. 1 problem that American consumers have.
    I think the question as to whether privacy protection is 
necessary to prevent consumer harm has simply been answered by 
the ChoicePoint matter. I think it is also important to 
understand that with ChoicePoint, unlike a lot of other 
American businesses, consumers do not have a direct 
relationship. They can't exercise market control, as they might 
with a bank or an insurer, or somebody else who might have a 
bad privacy policy. People say about the Internet, for example, 
if you don't like a website's privacy policy, you can go 
somewhere else. But with ChoicePoint, consumers have no such 
control to go somewhere else, because they have no direct 
relationship with that company that simply collects and sells 
personal information about them.
    We know already that there are problems with the adequacy 
of privacy protection, and we think particularly in this 
industry, information brokers such as ChoicePoint have made 
clear the need for more effective privacy regulation.
    I think it is also important to understand from the 
ChoicePoint episode just how important State legislation is. 
Now, this has been another consideration before this committee, 
and we fully understand why it may be the case that companies 
would prefer to have a single, uniform standard, rather than 50 
different State laws, and of course, we have had this 
discussion in the past. But please don't lose sight of what 
happened here.
    Because the State of California took the initiative, and 
said we are going to try a new, innovative approach, it wasn't 
a comprehensive law, by the way, it was merely notification. 
They simply told people after the fact, after the breach had 
occurred, that they might be at heightened risk of identity 
theft, and because of that, American consumers, and consumers, 
you know, all across the country, outside of California, who 
were also notified, will be able to respond more effectively to 
this threat.
    And I think we have to keep this in mind, even a national 
notification standard should not prevent States from coming up 
with more innovative solutions. States may find certain ways of 
notification, maybe by electronic means, that turn out to be 
more effective than what can be done here in Washington. So 
there is a strong case, following from the ChoicePoint matter, 
I believe, to avoid Federal preemption.
    Now, I would like to say just a couple of words about the 
proposals that have been discussed this morning, and again, 
express a bit of concern that apparently, there has been some 
significant discussion between the Chair of the Federal Trade 
Commission, and the witnesses that have appeared before you, 
about what might be done. But there has been no discussion with 
the consumer organizations about what might be effective 
privacy legislation to respond in this situation.
    The Chairwoman proposes, for example, the extension of the 
Gramm-Leach-Bliley security standards rule. Now, that is not a 
bad proposal, and we certainly wouldn't oppose it, but we think 
it is an inadequate proposal, because it simply deals with a 
security matter, and as I have made clear at the outset, we 
were talking about the routine sale of personal information on 
American consumers by an information broker. So an effective 
solution certainly must do something more than simply extend 
the security standard rule.
    In similar fashion, we think the California notification 
law provides a good basis to notify consumers after the fact 
when a breach has occurred, and without preemption, we think 
that would be a sensible thing for the committee to support, 
but what we really believe needs to be done at this point is 
legislation that brings this industry within some type of 
Federal control, accountability, oversight, that will safeguard 
American consumers.
    We think the legislation that Mr. Markey has introduced is 
a very sensible starting point, and we have made some 
proposals, in fact, about how that can be strengthened. We 
think it is important that the Federal Trade Commission take a 
proactive stand on these issues. It is not sufficient to create 
a circumstance where there may be privacy violations, and the 
FTC can effectively sit on that fact, and not provide the type 
of assurance that would be necessary to safeguard American 
consumers.
    So in conclusion, Mr. Chairman, I thank you again for 
holding this hearing. It is extremely important, for the 
150,000 American consumers who are today at a heightened risk 
of identity theft, that the Congress act swiftly and 
effectively to make sure that we have no future incidents like 
the one that has occurred recently.
    [The prepared statement of Marc Rotenberg follows:]
         Prepared Statement of Marc Rotenberg, President, EPIC
    Mr. Chairman, and members of the Committee, thank you for the 
opportunity to appear before you today. My name is Marc Rotenberg and I 
am Executive Director and President of the Electronic Privacy 
Information Center in Washington, DC. EPIC is a non-partisan public 
interest research organization established in 1994 to focus public 
attention on emerging civil liberties issues. We are very pleased that 
you have convened this hearing today on protecting consumer's data and 
the policy issues raised by Choicepoint.
    In my statement today, I will summarize the significance of the 
Choicepoint matter, discuss EPIC's efforts to bring public attention to 
the problem before the incident was known, suggest several lessons that 
can be drawn from this matter, and then make several specific 
recommendations.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Many other organizations have also played a critical role in 
drawing attention to the growing problem of identity theft. These 
include Consumers Union, the Identity Theft Resource Center, Privacy 
International, the Privacy Rights Clearinghouse, the Privacy Times, the 
US Public Interest Research Group, and the World Privacy Forum.
---------------------------------------------------------------------------
    The main point of my testimony today is to make clear the 
extraordinary urgency of addressing the unregulated sale of personal 
information in the United States and how the data broker industry is 
contributing to the growing risk of identity theft in the United 
States. Whatever your views may be on the best general approach to 
privacy protection, Choicepoint has made clear the need to regulate the 
information broker industry.

               THE SIGNIFICANCE OF THE CHOICEPOINT MATTER
    With all the news reporting of the last several weeks, it has often 
been difficult to tell exactly how a criminal ring engaged in identity 
theft obtained the records of at least 145,000 Americans. According to 
some reports, there was a computer ``break-in. ``Others described it as 
``theft.'' <SUP>2</SUP> In fact, Choicepoint simply sold the 
information. <SUP>3</SUP> This is Choicepoint's business and it is the 
business of other companies that are based primarily on the collection 
and sale of detailed information on American consumers. In this most 
recent case, the consequences of the sale were severe.
---------------------------------------------------------------------------
    \2\ Associated Press, ``ChoicePoint hacking attack may have 
affected 400,000,'' Feb. 17, 2005, available at http://www.ledger-
enquirer.com/mld/ledgerenquirer/news/local/10920220.htm.
    \3\ Robert O'Harrow Jr., ``ID Theft Scam Hits D.C. Area 
Residents,'' Washington Post, Feb. 21, 2005, at A01.
---------------------------------------------------------------------------
    According to California police, at least 750 people have already 
suffered financial harm. <SUP>4</SUP> Investigators believe data on 
least 400,000 individuals may have been compromised.<SUP>5</SUP> 
Significantly, this was not an isolated incident. Although Choicepoint 
CEO Derek Smith said that the recent sale was the first of its kind, 
subsequent reports revealed that Choicepoint also sold similar 
information on 7,000 people to identity thieves in 2002 with losses 
over $1 million.<SUP>6</SUP> And no doubt, there may have been many 
disclosures before the California notification law went into effect as 
well as more recent disclosures of which that we are not yet aware.
---------------------------------------------------------------------------
    \4\ Bob Sullivan, ``Data theft affects 145,000 nationwide,'' MSNBC, 
Feb. 18, 2005, available at http://www.msnbc.msn.com/id/6979897/.
    \5\ Associated Press, ``ChoicePoint hacking attack may have 
affected 400,000,'' Feb. 17, 2005, available at http://www.ledger-
enquirer.com/mld/ledgerenquirer/news/local/10920220.htm.
    \6\ David Colker and Joseph Menn, ``ChoicePoint CEO Had Denied Any 
Previous Breach of Database,'' Los Angeles Times, March 3, 2005, at 
A01.
---------------------------------------------------------------------------
    The consumer harm that results from the wrongful disclosure of 
personal information is very clear. According to the Federal Trade 
Commission, last year 10 million Americans were affected by identity 
theft. Identity theft is the number one crime in the country. For the 
fifth year in a row, identity theft topped the list of complaints, 
accounting for 39 percent of the 635,173 consumer fraud complaints 
filed with the agency last year.<SUP>7</SUP> And there is every 
indication that the level of this crime is increasing.
---------------------------------------------------------------------------
    \7\ Federal Trade Commission, ``FTC Releases Top 10 Consumer 
Complaint Categories for 2004,'' (Feb. 1, 2005), available at http://
www.ftc.gov/opa/2005/02/top102005.htm.
---------------------------------------------------------------------------
    Choicepoint is not the only company that has improperly disclosed 
personal information on Americans. Bank of America misplaced back-up 
tapes containing detailed financial information on 1.2 million 
employees in the federal government, including many members of 
Congress.<SUP>8</SUP> Lexis-Nexis made available records from its 
Seisint division on 32,000 Americans to a criminal ring that exploited 
passwords of legitimate account holders.<SUP>9</SUP> DSW, a shoe 
company, announced that 103 of its 175 stores had customers' credit and 
debit card information improperly accessed.<SUP>10</SUP>
---------------------------------------------------------------------------
    \8\ Robert Lemos, ``Bank of America loses a million customer 
records,'' CNet News.com, Feb. 25, 2005, available at http://
earthlink.com.com/Bank+of+America+loses+a+million+customer+
records/2100-1029_3-5590989.html?tag=st.rc.targ_mb.
    \9\ Jonathan Krim and Robert O'Harrow, Jr., ``LexisNexis Reports 
Theft of Personal Data,'' Washingtonpost.com, March 9, 2005, available 
at http://www.washingtonpost.com/ac2/wp-dyn/A19982-
2005Mar9?language=printer.
    \10\ Associated Press, ``Credit Information Stolen From DSW 
Stores,'' March 9, 2005, available at http://abcnews.go.com/Business/
wireStory?id=563932&CMP=OTC-RSSFeeds0312.
---------------------------------------------------------------------------
    But there are factors that set Choicepoint apart and make clear the 
need for legislation for the information broker industry. First, 
Choicepoint is the largest information broker in the United Stares. The 
company has amassed more than 19 billion records and has acquired a 
large number of smaller companies that obtain everything from criminal 
history records and insurance claims to DNA databases. The private 
sector and increasingly government rely on the data provided by 
Choicepoint to determine whether Americans get home loans, are hired 
for jobs, obtain insurance, pass background checks, and qualify for 
government contracts.
    Choicepoint has become the true invisible hand of the information 
economy. Its ability to determine the opportunities for American 
workers, consumers, and voters is without parallel.
    Second, the Choicepoint databases are notoriously inaccurate. A 
recent article in MSNBC, ``Choicepoint files found riddled with 
errors,'' recounts the extraordinary errors in just one Choicepoint 
report that was provided to a privacy expert.<SUP>11</SUP> Among the 
statements in the 20-page National Comprehensive Report was an 
inaccurate entry that described ``possible Texas criminal history'' and 
a recommendation for a follow-up search. The report listed an ex-
boyfriend's address, even though she had never lived with the fellow. 
As MSNBC reporter Bob Sullivan writes, ``The report also listed three 
automobiles she never owned and three companies listed that she never 
owned or worked for.''
---------------------------------------------------------------------------
    \11\ Bob Sullivan, ``ChoicePoint files found riddled with errors 
Data broker offers no easy way to fix mistakes, either,'' MSNBC, March 
8, 2005, available at http://www.msnbc.msn.com/id/7118767/.
---------------------------------------------------------------------------
    The report on the document provided to Deborah Pierce is very 
similar to an earlier report described by another privacy expert 
Richard Smith, ``who paid a $20 fee and received a similar report from 
Choicepoint several years ago. The company offers a wide variety of 
reports on individuals; Smith purchased a commercial version that's 
sold to curious consumers. Smith's dossier had the same kind of errors 
that Pierce reported. His file also suggested a manual search of Texas 
court records was required, and listed him as connected to 30 
businesses that he knew nothing about.''
    Third, Choicepoint and other information brokers have spent a great 
deal of time and money trying to block effective privacy legislation in 
Congress. According to disclosure forms filed with the U.S. House and 
Senate, obtained by the Wall Street Journal, Choicepoint and six of the 
country's other largest sellers of private consumer data spent at least 
$2.4 million last year to lobby members of Congress and a variety of 
federal agencies. The Journal reports that, ``Choicepoint was the 
biggest spender, with $970,000 either paid to outside lobbyists or 
spent directly by the company.'' <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Evan Perez and Rick Brooks, ``Data Providers Lobby to Block 
More Oversight,'' Wall Street Journal, March 4, 2005, at B1.
---------------------------------------------------------------------------
    This improper disclosure and use of personal information is 
contributing to identity theft, which is today the number one crime in 
the United States. According to a 2003 survey by the Federal Trade 
Commission, over a one-year period nearly 5% of the adult populations 
were victims of some form of identity theft.<SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Federal Trade Commission, ``Identity Theft Survey Report'' 
(Sept. 2003), available at http://www.ftc.gov/os/2003/09/
synovatereport.pdf.
---------------------------------------------------------------------------

     EPIC'S EFFORTS TO BRING PUBLIC ATTENTION TO THE PROBLEMS WITH 
                              CHOICEPOINT
    Well before the recent news of the Choicepoint debacle became 
public, EPIC had been pursuing the company and had written to the FTC 
to express deep concern about its business practices and its ability to 
flout the law. On December 16, 2004, EPIC urged the Federal Trade 
Commission to investigate Choicepoint and other data brokers for 
compliance with the Fair Credit Reporting Act (FCRA), the federal 
privacy law that helps insure that personal financial information is 
not used improperly.<SUP>14</SUP> The EPIC letter said that Choicepoint 
and its clients had performed an end-run around the FCRA and was 
selling personal information to law enforcement agencies, private 
investigators, and businesses without adequate privacy protection.
---------------------------------------------------------------------------
    \14\ Letter from Chris Jay Hoofnagle, Associate Director, EPIC, and 
Daniel J. Solove, Associate Professor, George Washington University Law 
School, to Federal Trade Commission, Dec. 16, 2004, available at http:/
/www.epic.org/privacy/choicepoint/fcraltr12.16.04.html.
---------------------------------------------------------------------------
    Choicepoint wrote back to us to say, in effect, that there was no 
problem The company claimed to fully comply with FCRA and that the 
question of whether FCRA, or other federal privacy laws, should apply 
to all of its products as simply a policy judgment. It made this claim 
at the same time it was spending several million dollars over the last 
few years to block the further expansion of the FCRA.
    Mr. Chairman, hindsight may be 20-20, but it is remarkable to us 
that Choicepoint had the audacity to write such a letter when it 
already knew that state investigators had uncovered the fact that the 
company had sold information on American consumer to an identity theft 
ring. They were accusing us of inaccuracy at the same time that state 
and federal prosecutors knew that Choicepoint, a company that offered 
services for business credentialing, had exposed more than a hundred 
thousand Americans to a heightened risk of identity theft because it 
sold data to crooks.
    But the problems with Choicepoint long preceded this recent 
episode. Thanks to Freedom of Information Act requests relentlessly 
pursued by EPIC's Senior Counsel Chris Hoofnagle, we have obtained over 
the last several yeas extraordinary documentation of Choicepoint's 
growing ties to federal agencies and the increasing concerns about the 
accuracy and legality of these products.<SUP>15</SUP> So far, EPIC has 
obtained FOIA documents from nine different agencies concerning 
Choicepoint. Much of the material is available on our web site at 
http:www.epic.org/privacy/Choicepoint. One document from the Department 
of Justice, dated December 13, 2002, discusses a ``Report of 
Investigation and Misconduct Allegations . . . Concerning Unauthorized 
Disclosure of Information.'' <SUP>16</SUP> There are documents from the 
IRS that describe how the agency would mirror huge amounts of personal 
information on IRS computers so that Choicepoint could perform 
investigations.<SUP>17</SUP> Several documents describe Choicepoint's 
sole source contracts with such agencies as the United States Marshals 
Service and the FBI.<SUP>18</SUP>
---------------------------------------------------------------------------
    \15\ EPIC v. Dep't of Justice et al., No. 1:02cv0063 (CKK)(D.D.C.).
    \16\ Available at http://www.epic.org/privacy/choicepoint/
default.html.
    \17\ Id.
    \18\ Id.
---------------------------------------------------------------------------
    Among the most significant documents obtained by EPIC were those 
from the Department of State, which revealed the growing conflicts 
between the United States and foreign governments that resulted from 
the efforts of Choicepoint to buy data on citizens across Latin America 
for use by the US federal law enforcement agencies.<SUP>19</SUP> One 
document lists news articles that were collected by the agency to track 
outrage in Mexico and other countries over the sale of personal 
information by Choicepoint.<SUP>20</SUP> A second document contains a 
cable from the American Embassy in Mexico to several different 
government agencies warning that a ``potential firestorm may be brewing 
as a result of the sale of personal information by 
Choicepoint.<SUP>21</SUP> A third set of documents describes public 
relations strategies for the American Embassy to counter public anger 
surrounding the release of personal information of Latin Americans to 
Choicepoint.<SUP>22</SUP>
---------------------------------------------------------------------------
    \19\ Available at http://www.epic.org/privacy/choicepoint/
default.html.
    \20\ Id.
    \21\ Id.
    \22\ Id.
---------------------------------------------------------------------------
    Choicepoint's activities have fueled opposition to the United 
States overseas and raised the alarming prospect that our country 
condones the violation of privacy laws of other 
government.<SUP>23</SUP> As USA Today reported on September 1, 2003:
---------------------------------------------------------------------------
    \23\ EPIC and Privacy International, Privacy and Human Rights: An 
International Survey of Privacy Laws and Developments 123-24, 182, 493 
(2004) (Public Records, Argentina country report, Mexico country 
report)
---------------------------------------------------------------------------
          After the Mexican government complained that its federal 
        voter rolls were the source, and were likely obtained illegally 
        by a Mexican company that sold them to Choicepoint, the 
        suburban Atlanta company cut off access to that information.
          In June, ChoicePoint wiped its hard drives of Mexicans' home 
        addresses, passport numbers and even unlisted phone numbers. 
        The company also backed out of Costa Rica and Argentina.
          ChoicePoint had been collecting personal information on 
        residents of 10 Latin American countries--apparently without 
        their consent or knowledge--allowing three dozen U.S. agencies 
        to use it to track and arrest suspects inside and outside the 
        United States.<SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ Associated Press, ``Vendor sells Latin American citizen data 
to U.S.,'' Sept. 1, 2003, available at http://www.usatoday.com/tech/
news/techpolicy/2003-09-01-choicepoint_x.htm.
---------------------------------------------------------------------------
          The revelations helped kindle privacy movements in at least 
        six countries where the company operates. Government officials 
        have ordered--or threatened--inquiries into the data sales, 
        saying ChoicePoint and the U.S. government violated national 
        sovereignty.

                         LESSONS OF CHOICEPOINT
    The Choicepoint incident proves many important lessons for the 
Congress as it considers how best to safeguard consumer privacy in the 
information age.
    First, it should be clear now that privacy harms have real 
financial consequences. In considering privacy legislation in the past, 
Congress has often been reluctant to recognize the actual economic harm 
that consumers suffer when their personal information is misused, when 
inaccurate information leads to the loss of a loan, a job, or 
insurance. Consumers suffer harms both from information that is used 
for fraud and inaccurate information that leads to lost opportunities 
through no fault of the individual.
    A clear example of how the company has contributed to the growing 
problem of identity theft may be found in Choicepoint's subscriber 
agreement for access to AutoTrackXP, a detailed dossier of individuals' 
personal information. A sample AutoTrackXP report on the ChoicePoint 
web site shows that it contains Social Security Numbers; driver license 
numbers; address history; phone numbers; property ownership and 
transfer records; vehicle, boat, and plane registrations; UCC filings; 
financial information such as bankruptcies, liens, and judgments; 
professional licenses; business affiliations; ``other people who have 
used the same address of the subject,'' ``possible licensed drivers at 
the subject's address,'' and information about the data subject's 
relatives and neighbors.<SUP>25</SUP> This sensitive information is 
available to a wide array of companies that do not need to articulate a 
specific need for personal information each time a report is purchased. 
Choicepoint's subscriber agreement shows that the company allows access 
to the following businesses: attorneys, law offices, investigations, 
banking, financial, retail, wholesale, insurance, human resources, 
security companies, process servers, news media, bail bonds, and if 
that isn't enough, Choicepoint also includes ``other.''
---------------------------------------------------------------------------
    \25\ ChoicePoint, AutoTrackXP Report, http://www.choicepoint.com/
sample_rpts/AutoTrack
XP.pdf.
---------------------------------------------------------------------------
    Second, it should be clear that market-based solutions fail utterly 
when there is no direct relationship between the consumer and the 
company that proposed to collect and sell information on the consumer. 
While we continue to believe that privacy legislation is also 
appropriate for routine business transactions, it should be obvious to 
even those that favor market-based solutions that this approach simply 
does not work where the consumer exercises no market control over the 
collection and use of their personal information. As computer security 
expert Bruce Schneier has noted, ``ChoicePoint doesn't bear the costs 
of identity theft, so ChoicePoint doesn't take those costs into account 
when figuring out how much money to spend on data security.'' 
<SUP>26</SUP> This argues strongly for regulation of the information 
broker industry.
---------------------------------------------------------------------------
    \26\ ``Schneier on Security: Choicepoint'' available at http://
www.schneier.com/blog/archives/2005/02/choicepoint.html.
---------------------------------------------------------------------------
    Third, there are clearly problems with both the adequacy of 
protection under current federal law and the fact that many information 
products escape any kind privacy rules. Choicepoint has done a 
remarkable job of creating detailed profiles on American consumers that 
they believe are not subject to federal law. Products such as 
AutoTrackXP are as detailed as credit reports and have as much impact 
on opportunities in the marketplace for consumers as credit reports, 
yet Choicepoint has argued that they should not be subject to FCRA. 
Even their recent proposal to withdraw the sale of this information is 
not reassuring. They have left a significant loophole that will allow 
them to sell the data if they believe there is a consumer 
benefit.<SUP>27</SUP>
---------------------------------------------------------------------------
    \27\ Aleksandra Todorova, ``ChoicePoint to Restrict Sale of 
Personal Data,'' Smartmoney.com, March 4, 2005, available at http://
www.smartmoney.com/bn/index.cfm?story=20050304015004.
---------------------------------------------------------------------------
    But even where legal coverage exists, there is insufficient 
enforcement, consumers find it difficult to exercise their rights, and 
the auditing is non-existent. According to EPIC's research, there is no 
indication that commercial data brokers audit their users and refer 
wrongdoers for prosecution. In other words, in the case where a 
legitimate company obtains personal information, there is no publicly 
available evidence that Choicepoint has any interest in whether that 
information is subsequently used for illegitimate purposes.
    Law enforcement, which has developed increasingly close ties to 
information brokers such as Choicepoint seems to fall entirely outside 
of any auditing procedures. This is particularly troubling since even 
those reports that recommend greater law enforcement use of private 
sector databases for public safety recognize the importance of auditing 
to prevent abuse.<SUP>28</SUP>
---------------------------------------------------------------------------
    \28\ See Chris J. Hoofnagle, ``Big Brother's Little Helpers: How 
Choicepoint and Other Commercial Data brokers Collect, process, and 
Package Your Data for Law Enforcement,'' University of North Carolina 
Journal of International Law & Commercial Regulation (Summer 2004), 
available at http://ssrn.com/abstract=582302.
---------------------------------------------------------------------------
    And of course there are ongoing concerns about the broad 
permissible purposes under the FCRA, the use of credit header 
information to build detailed profiles, and the difficulty that 
consumers continue to face in trying to obtain free credit reports that 
they are entitled to under the FACTA.
    Fourth, we believe this episode also demonstrates the failure of 
the FTC to aggressively pursue privacy protection. We have repeatedly 
urged the FTC to look into these matters. While on some occasions, the 
FTC has acted.<SUP>29</SUP> But too often the Commission has ignored 
privacy problems that are impacting consumer privacy and producing a 
loss of trust and confidence in the electronic marketplace. In the late 
1990s, the FTC promoted self-regulation for the information broker 
industry and allowed a weak set of principles promulgated as the 
Individual References Service Group to take the place of effective 
legislation. It may well be that the Choicepoint fiasco could have been 
avoided if the Commission chose a different path when it considered the 
practices of the information broker industry.
---------------------------------------------------------------------------
    \29\ See FTC's investigation into Microsoft's Passport program. 
Documentation available at http://www.epic.org/privacy/consumer/
microsoft/passport.html.
---------------------------------------------------------------------------
    The FTC has also failed to pursue claims that it could under 
section 5 of the FTC Act that prohibits unfair practices. Practices are 
unfair if they cause or are likely to cause consumers substantial 
injury that is neither reasonably avoidable by consumer nor offset by 
countervailing benefits to consumers and competition.<SUP>30</SUP> It 
may be that the unfairness doctrine could be applied in cases where 
there is no direct relationship between the consumer and the company, 
but to date the FTC has failed to do this.<SUP>31</SUP>
---------------------------------------------------------------------------
    \30\ 15 U.S.C. 45(n); Letter from Michael Pertschuk, FTC Chairman, 
and Paul Rand Dixon, FTC Commissioner, to Wendell H. Ford, Chairman, 
House Commerce Subcommittee on Commerce, Science, and Transportation 
(Dec. 17, 1980), at http://www.ftc.gov/bcp/policystmt/ad-unfair.htm.
    \31\ In FTC v. Rapp, the ``Touch Tone'' case, the FTC pursued 
private investigators engaged in ``pretexting,'' a practice where an 
individual requests personal information about others under false 
pretenses. No. 99-WM-783 (D. Colo. 2000), 2000 U.S. Dist. LEXIS 20627. 
In a typical scheme, the investigator will call a bank with another's 
Social Security Number, claim that he has forgotten his bank balances, 
and requests that the information be given over the phone. The FTC 
alleged that this practice of the defendants, was deceptive and unfair. 
It was deceptive because the defendants deceived the bank in providing 
the personal information of another. The practice was unfair in that it 
occurs without the knowledge or consent of the individual, and it is 
unreasonably difficult to avoid being victimized by the practice.
---------------------------------------------------------------------------
    Fifth, we believe the Choicepoint episode makes clear the 
importance of state-based approaches to privacy protection. Congress 
simply should not pass laws that tie the hands of state legislators and 
prevent the development of innovative solutions that respond to 
emerging privacy concerns. Many states are today seeking to establish 
strong notification procedures to ensure that their residents are 
entitled to at least the same level of protection as was provided by 
California.<SUP>32</SUP>
---------------------------------------------------------------------------
    \32\ ``Choicepoint Incident Prompts State Lawmakers to Offer Data 
Notification Bills,'' 10 BNA Electronic Commerce & Law Report 217-18 
(March 9, 2005)
---------------------------------------------------------------------------
    In this particular case, the California notification statute helped 
ensure that consumers would at least be notified that they are at risk 
of heightened identity theft. This idea makes so much sense that 38 
attorney generals wrote to Choicepoint to say that their residents 
should also be notified if their personal information was wrongly 
disclosed.<SUP>33</SUP> Choicepoint could not object. It was an obvious 
solution.
---------------------------------------------------------------------------
    \33\ Associated Press, ``38 AGs send open letter to ChoicePoint,'' 
available at http://www.
usatoday.com/tech/news/computersecurity/infotheft/2005-02-19-ag-letter-
to-choicepoint_x.htm.
---------------------------------------------------------------------------
    Finally, there is still a lot we do not know about the Choicepoint 
company. This firm has expanded so rapidly and acquired so many 
companies in the last few years, it is very difficult to assess how 
much information it actually has on Americans. As a starting point for 
further work by the Committee, I would urge you and Committee Staff to 
obtain your own Choicepoint records in the AutoTrackXP service as well 
as the National Comprehensive Report. This is the information about you 
that Choicepoint sells to strangers. If you want to understand the 
serious problem of record accuracy, this is one good place to start.

                            RECOMMENDATIONS
    Clearly, there is a need for Congress to act. Although Choicepoint 
has taken some steps to address public concerns, it continues to take 
the position that it is fee to sell personal information on American 
consumers to whomever it wishes where Choicepoint, and not the 
consumer, believes there ``consumer-driven benefit or transaction.'' 
<SUP>34</SUP> Moreover, the company remains free to change its policies 
at some point in the future, and the steps taken to date do not address 
the larger concerns across the information broker industry.
---------------------------------------------------------------------------
    \34\ ``Choicepoint Halts Sale of Sensitive Information, as Agencies 
Launch Probes,'' 10 BNA Electronic Commerce and Law Report 219 (March 
9, 2005).
---------------------------------------------------------------------------
    Modest proposals such as the extension of the Gramm-Leach-Bliley 
Act's Security Safeguards Rule are unlikely to prevent future 
Choicepoint debacles. The Safeguards Rule merely requires that 
financial institutions have reasonable policies and procedures to 
ensure the security and confidentiality of customer information. Recall 
that the disclosure by Choicepoint did not result from a ``hack'' or a 
``theft'' but from a routine sale. Moreover, the Security Safeguards 
Rule will do nothing to give consumers greater control over the 
transfer of their personal information to third parties or to promote 
record accuracy.
    Extending notification statutes such as the California bill would 
be a sensible step but this is only a partial answer. Notification only 
addresses the problem once the disclosure has occurred. The goal should 
be to minimize the likelihood of future disclosure. It is also 
important to ensure that any federal notification bill is as least as 
good as the California state bill and leaves the states the freedom to 
develop stronger and more effective measures. What happens for example, 
when at some point in the future, we must contend with the 
extraordinary privacy problems that will result from the disclosure of 
personal information contained in a database built on biometric 
identifiers?
    At this time, legislation such as the Information Protection and 
Security Act, H.R. 1080, provides a good starting point to safeguard 
consumer privacy and reduce the growing threat of identity theft. It 
would allow the FTC to develop fair information practices for data 
brokers; violators would be subject to civil penalties. Enforcement 
authority would be given to the FTC and state attorneys general. 
Consumers would be able to pursue a private right of action, albeit a 
modest one. And states would be free to develop stronger measures if 
they chose.
    But a stronger measure would establish by statute these same 
authorities and impose stricter reporting requirements on the 
information broker industry. It would include a liquidated damages 
provision that sets a floor, not a limit, on damages when a violation 
occurs, as is found in other privacy laws. It is even conceivable that 
Congress could mandate that information brokers provide to consumers 
the same information that they propose to sell to a third party prior 
to the sale. This would make consent meaningful. It would promote 
record accuracy. And it would allow the consumer to determine for 
himself or herself whether in fact the transaction will provide a 
``consumer-driven benefit.'' Proposals for credit report ``freeze'' 
legislation that allow consumers to determine when it is in their 
benefit to release personal credit information provides a good parallel 
for strong legislation in the data broker field.
    Furthermore, to the extent that information brokers, such as 
Choicepoint, routinely sell data to law enforcement and other federal 
agencies, they should be subject to the federal Privacy Act. A 
``privatized intelligence service,'' as Washington Post reporter Robert 
O'Harrow has aptly described the company, Choicepoint should not be 
permitted to flout the legal rules that help ensure accuracy, 
accountability, and due process in the use of personal information by 
federal agencies.<SUP>35</SUP>
---------------------------------------------------------------------------
    \35\ Robert O'Harrow, No Place to Hide: Behind the Scenes of Our 
Emerging Surveillance Society (Free Press 2005).
---------------------------------------------------------------------------
    Also, a very good framework has been put forward by Professor 
Daniel Solove and EPIC's Chris Hoofnagle.<SUP>36</SUP> This approach is 
similar to other frameworks that attempt to articulate Fair Information 
Practices in the collection and use of personal information. But Solove 
and Hoofnagle make a further point that is particularly important in 
the context of this hearing today on Choicepoint. Increasingly, the 
personal information made available through public records to enable 
oversight of government records has been transformed into a privatized 
commodity that does little to further government oversight but does 
much to undermine the freedom of Americans. While EPIC continues to 
favor strong open government laws, it is clearly the case that open 
government interests are not served when the government compels the 
production of personal information, sells the information to private 
data vendors, who then make detailed profiles available to strangers. 
This is a perversion of the purpose of public records.
---------------------------------------------------------------------------
    \36\ Daniel Solove and Chris Jay Hoofnagle, ``A Model Regime of 
Privacy Protection,'' March 8, 2005, available at http://
papers.ssrn.com/sol3/papers.cfm?abstract_id=681902.
---------------------------------------------------------------------------
    Looking ahead, there is a very real risk that the consequences of 
improper data use and data disclosure are likely to accelerate in the 
years ahead. One has only to look at the sharp increase in identity 
theft documented by the Federal Trade Commission, consider the 
extraordinary rate of data aggregation in new digital environments, as 
well as the enormous efforts of the federal government to build ever 
more elaborate databases to realize that the risk to personal privacy 
is increasing rapidly. Congress can continue to deal with these 
challenges in piecemeal fashion, but it seems that the time has come to 
establish a formal government commission charged with the development 
of long-terms solutions to the threats associated with the loss of 
privacy. Such a commission should be established with the clear goal of 
making specific proposals. It should include a wide range of experts 
and advocates. And it should not merely be tasked with trying to 
develop privacy safeguards to counter many of the government new 
surveillance proposals. Instead, it should focus squarely on the 
problem of safeguard privacy.
    Congress needs to establish a comprehensive framework to safeguard 
the right of privacy in the twenty-first century. With identity theft 
already the number one crime, and the recent spate of disclosures, any 
further delay could come at enormous cost to American consumers and the 
American economy.
    Finally, Mr. Chairman, there are several practical questions left 
open by the Choicepoint matter. First, as we said to the FTC in 
December, Choicepoint has done a poor job tracking he use of personal 
information on American consumers that it routinely sells to strangers. 
Now is the time for Choicepoint to go back to its audit logs and 
determine what the legal basis was for selling the information that was 
provided to the identity theft ring. In fact, we believe that 
Choicepoint should be required to review all of its audit logs for the 
past year and report to this committee on whether it has uncovered any 
other instance of breaches within the company. Just as heads of 
financial companies are now required to vouch for the accuracy of their 
financial statements, the heads of the information broker companies 
should be required to make an annual representation tot he public that 
they have reviewed the audit logs of their companies and are assured 
that the information they have disclosed has only been used for lawful 
purposes.
    Second, there is the question of what Choicepoint intends to do 
with the money that it received from the sale of personal information 
to an identity theft ring. How can Choicepoint possibly keep the funds 
from those transactions? In a letter that EPIC sent to Choicepoint COO 
Douglas Curling, we urged the company to ``disgorge the funds that you 
obtained from the sale of the data and make these funds available to 
the individuals who will suffer from identity theft as a result of this 
disclosure.'' Since Mr. Smith, the company's President is at the 
hearing today, perhaps he can explain what Choicepoint will do with the 
funds.
    Third Choicepoint has still not provided to the victims of the 
negligent sale the same information that it disclosed to the identity 
thieves. At the very least, we think the company should give people the 
same records it sold to the crooks.

                               CONCLUSION
    For many years, privacy laws came up either because of the efforts 
of a forward-looking Congress or the tragic experience of a few 
individuals. Now we are entering a new era. Privacy is no longer 
theoretical. It is no longer about the video records of a federal judge 
or the driver registry information of a young actress. Today privacy 
violations affect hundreds of thousands of American all across the 
country. The harm is real and the consequences are devastating.
    Whatever one's view may be of the best general approach to privacy 
protection, there is no meaningful way that market-based solutions can 
protect the privacy of American consumers when consumers have no direct 
dealings with the companies that collect and sell their personal 
information. There is too much secrecy, too little accountability, and 
too much risk of far-reaching economic damage. The Choicepoint debacle 
has made this clear.
    The Committee may not be able to solve every privacy problem, but I 
urge you today to focus on the information broker industry and to pass 
legislation such as the Information Protection and Security Act. The 
information broker industry has been flying under the radar for too 
long.
    I appreciate the opportunity to be here today. I will be pleased to 
answer your questions

                               REFERENCES
    EPIC Choicepoint Page, available at http://www.epic.org/privacy/
choicepoint/

    Mr. Stearns. I thank the gentleman, and I will start the 
questions. Just the two of us. Mr. Rotenberg, I think you are 
saying that ChoicePoint, in your opinion, violated the Fair 
Credit Reporting Act. Is that true?
    Mr. Rotenberg. Well, it is not clear to us, sir, at this 
point, if we can say that, because we don't know exactly what 
type of information was disclosed, and if it was subject to the 
Fair Credit Reporting Act.
    Mr. Stearns. But you are saying that, you know, that you 
thought the products and service they are providing, they 
provided something so they wouldn't have to comply, so they 
just tweaked a bit, tailored a bit, so that they could avoid 
oversight that you feel is critical to the consumer, and would 
have the applicability of the Fair Credit Reporting Act.
    Mr. Rotenberg. Yes.
    Mr. Stearns. So you are sort of--you are suggesting that 
they did this so that they wouldn't have to comply, so the 
question is, you can't really say whether they violated it at 
this point, only because you don't know--you are asking the FTC 
to tell us, right?
    Mr. Rotenberg. Right.
    Mr. Stearns. Yes.
    Mr. Rotenberg. Well, we did say in our letter that we 
believe that a particular product, the AutoTrack XP product, 
which contains a great deal of detailed personal information on 
American consumers, much like a credit report does, should be 
subject to rules like the Fair Credit Reporting Act. Now, 
ChoicePoint has taken the position that that product is not 
subject to the Fair Credit Reporting Act.
    Mr. Stearns. It is called Auto----
    Mr. Rotenberg. AutoTrack XP.
    Mr. Stearns. XP. Gee, I don't think many people, Members of 
Congress----
    Mr. Rotenberg. No, I don't think so.
    Mr. Stearns. [continuing] know anything about the 
AutoTrack--so it is pretty much like a consumer report.
    Mr. Rotenberg. Yes, that is our view.
    Mr. Stearns. Yeah, and they are--they don't think it is.
    Mr. Rotenberg. No. In fact, we had an exchange of letters 
with them when we filed our complaint at the Federal Trade 
Commission, I heard from Mr. Curling, who is their Chief 
Operating Officer, and he said that their company had simply 
taken the position that this product was not subject to the 
FCRA. He----
    Mr. Stearns. Is the AutoTrack XP, still--are they still 
doing it? Is ChoicePoint----
    Mr. Rotenberg. This is the interesting question that is 
raised by the hearing today, because Mr. Smith suggested that 
ChoicePoint was withdrawing from the non-FCRA products.
    Mr. Stearns. Okay. So doesn't----
    Mr. Rotenberg. But then, he left----
    Mr. Stearns. [continuing] the withdrawal now, that 
attention has been called.
    Mr. Rotenberg. That is right. But he left significant 
loopholes.
    Mr. Stearns. Yeah.
    Mr. Rotenberg. And he said for example, products that might 
provide a consumer benefit, they would continue with. So it is, 
I think an open question at this point, what they plan to do 
with this particular product.
    Mr. Stearns. Mr. Ansanelli, you have software, is that what 
you have, is your company providing software? Is that primary--
your product?
    Mr. Ansanelli. That is correct. We provide software for 
information security.
    Mr. Stearns. And do you work with ChoicePoint, or do you 
work with LexisNexis at all?
    Mr. Ansanelli. Currently, neither of those are customers of 
ours now.
    Mr. Stearns. Tell me some of your customers.
    Mr. Ansanelli. Companies like Prudential Financial, Best 
Buy, Charles Schwab, basically a lot of companies that store 
lots of consumer data, and want to make sure that it doesn't 
get out inappropriately over the Internet.
    Mr. Stearns. Do you feel--you have heard most of the 
testimony today--do you feel that we need Federal legislation, 
as Mr. Rotenberg has talked about?
    Mr. Ansanelli. I think there has been a discussion about 
two parts of Federal legislation, both security and privacy. I 
am a little bit more knowledgeable on the security side, and I 
would----
    Mr. Stearns. Right.
    Mr. Ansanelli. [continuing] say that things like Gramm-
Leach-Bliley, in financial services, have made an impact in 
terms of the data at banks and other financial institutions 
being more secure, and I do think it is a question why, when 
the similar data is stored by other organizations that might 
not be in financial services, like a Social Security number, or 
a credit card, why that data does not have to be protected in 
the same way we require a bank or a financial institution. And 
I think that in order to ever get to a state where we have 
improved privacy, you must first have security, so that is why 
we do suggest that some improvements in clarifying what the 
requirements are for data security, regardless of the industry, 
would make a big difference.
    Mr. Stearns. When I was talking to Mr. Sanford, he didn't 
quite understand my question. Maybe outsourcing was not the 
right word, but I was saying that if you had a company, and you 
bought me, as another company, and then I had employees that 
had access to all these passwords right on up the line, how do 
you have the assurance that the password he has, he works for 
me, he is not using that for his own personal use? So how does 
a CEO, in this case, of LexisNexis, control the company they 
bought's employees, who have access to, all up the line, the 
passwords? And that is why I started to go--I mean, how would 
you suggest we control the security on that?
    Mr. Ansanelli. I think you are commenting on something many 
people refer to as the insider security threat.
    Mr. Stearns. Yeah, insider. That is better than 
outsourcing. That is why--he didn't quite--that is what I mean, 
insider security threat.
    Mr. Ansanelli. And it is obviously quite complicated.
    Mr. Stearns. Yeah.
    Mr. Ansanelli. Most security and infrastructure has focused 
on the issue of hackers trying to break into networks, and 
trying to get access to data, where many of the very known 
cases are actually issues of people with legitimate, allegedly 
legitimate credentials, either by borrowing a password, or 
stealing a password, gaining access to information.
    Mr. Stearns. But you could include the customers, not just 
the employees, too.
    Mr. Ansanelli. Correct. I mean----
    Mr. Stearns. So you have not only the insider trading, but 
you have customers having this access.
    Mr. Ansanelli. Correct. I mean, the case at AOL, it is 
alleged that there was an IT professional who stole all the 
email addresses at AOL, because he borrowed a password from 
somebody else and got access to that data base. A number of 
things that people can do. Clearly, you know, one of the things 
is clearly what we do, which is monitoring to make sure that 
the data is not getting out. So for example, if someone gets 
access to that data that shouldn't be sending it, either via 
email or over the Web, we can help organizations to understand 
when information like Social Security numbers or credit card 
numbers are being distributed inappropriately electronically, 
outside the company. That is clearly an important thing that 
many, many companies are starting to do.
    There is also--there is important things in terms of sort 
of physical precautions. How do you limit----
    Mr. Stearns. You change the passwords frequently.
    Mr. Ansanelli. Changing passwords frequently, making sure 
that the--there is also technologies which allow for stronger 
things than just a password and a name. You might have to 
actually have a physical card that has an identifier which is 
constantly changing, for example. So there is many, many things 
that people can do, and you know, one thing I would say, 
though, is I think it is important that legislation not 
recommend any particular technology.
    Mr. Stearns. No, no. I understand. It is just that----
    Mr. Ansanelli. There is lots going----
    Mr. Stearns. My time has expired. Mr. Rotenberg, when I had 
the discussion with the CEOs, I sort of alluded to the fact 
there might be a third party required to authenticate their--
that their system is secure, or that they are--have best 
practices. And I don't think they want that. Do you think that 
is something that is necessary? I mean, like, to verify that 
the corporations P&L, they have an outside accounting firm. And 
he--the accounting firm authenticates, and if it turns out, 
like in the case of Enron, in which--and that accounting firm 
shows a lack of credibility, and they lose their business. So 
it is to the advantage of the accounting firm, just like it 
would be to the security firm, to say this company is secure, 
and is doing best practices.
    I don't know. Is that----
    Mr. Rotenberg. I think that is a very good proposal, Mr. 
Chairman. In fact, when we wrote to the FTC in December, one of 
the issues that we raised with them was the lack of auditing. 
You know, under the FCRA, people get information for 
permissible purposes, but very little effort is made after the 
information is disclosed, to determine if, in fact, the 
information was used for a permissible purpose. And we think 
systems of better auditing and outside auditing would reduce 
the likelihood of the misuse of information, and I think it 
would make the companies more accountable.
    Mr. Stearns. I mean, just the fact if you kept a data base 
of companies that have breaks in security, and you pretty soon 
knew which companies did and which didn't, and it started to be 
a reoccurring pattern, that would be something that would be 
very helpful to alert the Federal Trade Commission and 
everybody else, hey, there is a problem here with our security. 
Just the reporting process.
    Mr. Rotenberg. Yeah, I think it is a very good proposal, 
and I think also for the CEO to certify the adequacy of the 
auditing, the accounting of this personal information, would 
serve much of the same purpose that was done when concerns were 
raised about financial reporting, and the risks to consumers 
are very similar. When mistakes are made, consumers carry those 
costs.
    Mr. Stearns. Well, obviously, you could do this voluntarily 
through a best practice association that does this for them, 
but it seems to me, in the case of ChoicePoint, this individual 
in Los Angeles, they did everything, yet the individual was 
using it fraudulently, and there is nothing they could have 
done about it.
    My time has expired. Ms. Schakowsky.
    Ms. Schakowsky. You know, Mr. Chairman, there actually was 
a report issued. I don't know much about--the Ponemon, Ponemon 
Institute, of 163 U.S. companies that were surveyed in the past 
12 months, 75 percent reported a serious security breach 
resulting in stolen data, and of those breaches, 27 percent 
involved customer information.
    I mean, we haven't heard reports about that. I am 
wondering, is this because there is unwillingness to make the 
investment, because they don't know best practices, because we 
have failed to make requirements on them to implement certain 
practices? Mr. Ansanelli?
    Mr. Ansanelli. I do think that one of the issues is clear 
requirements for organizations that store data. I mean, 
financial services organizations under GLBA clearly now, and 
have a requirement, and guidelines both by the FTC, as well as 
the financial services agencies, to what they are supposed to 
do. But other companies in different industries that have 
similar data don't have the same requirements. So without clear 
requirements, with respect to protecting the data, as well as 
notification, I don't think it should be too much of a surprise 
that necessarily people haven't come forward with it.
    I do think that one of the other challenges and issues is 
that there is a concern that if companies are proactive in 
doing things, that they are taking on additional litigation 
risk, that people are going to sue them for punitive damages, 
and that has definitely been something which, I think, presents 
a bit of a stumbling block for some companies, that I suggest 
we can deal with as well.
    Ms. Schakowsky. To both of you. A few--California and a few 
other States have laws that allow consumers to put security 
freezes on their credit reports, and the freezes mean that 
their credit reports can't be accessed, unless the consumer 
allows it to be accessed, an opt-in. Do you think laws of this 
type would be useful for other personal information that is 
held by data brokers? Mr. Rotenberg.
    Mr. Rotenberg. I think it is a very sensible proposal. I 
mean, all of us understand that this disclosure of personal 
information will, in some circumstances, provide important 
benefits to consumers, to obtain a loan or, you know, a job, or 
some of these other things. But if there is a benefit to the 
consumer, it would seem obvious that the consumer should be 
able to decide when the information is disclosed. And what 
consumer organizations have realized over the last couple of 
years is that if we simply say, if you are intending to get a 
home loan, for example, at that point, you will make your 
credit report available, and others can make use of it, and 
make a determination, and if you are not intending to get a 
loan, or there is no other basis for someone to get access to 
your credit report, then it really should be in the offsetting.
    So that particular approach, which both recognizes that 
this information is important to businesses making decisions 
about consumers, and gives consumers control over the 
disclosure of the information, I think is absolutely the right 
approach. I hope we will follow it in more areas.
    Ms. Schakowsky. Thank you. I wanted to follow up on this 
issue of victims of domestic violence, where it didn't sound 
like--well, at least off the top of their head, that either 
company was aware of the kind of procedures that may be put in 
place.
    Is this a problem, and is there an obvious solution to that 
problem, where even an address could put someone's life in 
jeopardy?
    Mr. Rotenberg. Congresswoman, I am not certain about the 
specific practices of the information broker industry today. I 
can tell you that in the privacy world, we confronted a very 
similar issue more than 15 years ago, when Caller ID first 
became available, and you know, and people who were in shelters 
and elsewhere were very concerned about their ability to make 
contact with family members, without having their location or 
actual phone number disclosed, and at that time, when we were 
arguing for privacy protection as Caller ID was being 
introduced, the telephone companies agreed to put in place what 
was called per line blocking, so that people calling from 
shelters would not have their numbers disclosed, and they 
wouldn't even have to worry about it.
    I think today, you know, to do at least something like 
that, in the information broker industry, should be expected.
    Ms. Schakowsky. You know, the fact that these data brokers 
are required, under--to have certain data under the Fair Credit 
Reporting Act, under Gramm-Leach-Bliley, under all those 
protection, the usefulness of that fact is dependent on anybody 
knowing about it. I mean, I have been asking all the witnesses 
who the heck knew before the ChoicePoint scandal came out 
really, that these companies even really existed? I mean, in 
terms of mass knowledge of this, I think it was nonexistent.
    So is this really useful, that they have to comply, and 
they have to provide information back to consumers, if nobody 
knows about it, and what are we going to do about that?
    Mr. Rotenberg. Well, as I tried to explain in my testimony, 
I think the absence of the relationship between the consumer 
and the business makes clear that market-based solutions simply 
can't work. I mean, you have to regulate in this area, because 
there is no other effective mechanism, and in fact, this was 
exactly the same theory that the Congress pursued, leading up 
to the passage of the Fair Credit Reporting Act in 1970. And 
the Congress looked at it, and they said well, this information 
is being compiled on American consumers. They are not going to 
have a choice over which credit reporting agency is going to 
collect and use this information, so it has to be regulated, 
and you have to do what you can to minimize the misuse of this 
information, which continues to be a problem as well.
    Ms. Schakowsky. I would agree with that. Do you want to----
    Mr. Ansanelli. I think the one thing I would add is again, 
with respect to ID theft, I do think that consumer education is 
really, really important, and I do think that the FTC has done 
a fair amount in that area, and I think they continue to do 
more, in terms of people just not understanding what is going 
on. There is no--there is very--there is not an obvious place 
where they go right now to get that information about where 
their data is, and how they can deal with it, and I do think 
more can be done there.
    Ms. Schakowsky. That is true, but I think that putting the 
onus on the consumer is ultimately a problem, because I think 
there are so many actors in this field that you could spend 
your life trying to get that information, and make sure that 
you are protected. I think we do have a role here.
    Mr. Ansanelli. I would agree. I wasn't suggesting that 
would be the only thing. I do think that there are those three 
areas, again, the criminals, the companies, and the consumers 
all play a role in this, and I think we could do more on all 
three of those efforts.
    Ms. Schakowsky. Thank you very much.
    Mr. Stearns. Well, I want to thank you for staying with us 
all through this roughly 4 hours, and your contribution is very 
helpful, and I think it is nice to have a little bit of a 
different slant.
    So we are going to conclude the hearing. I think it has 
been very productive, and I want to thank you again for waiting 
for the other two panels.
    And with that, the committee is adjourned.
    [Whereupon, at 2 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED] T9916.001
    
    [GRAPHIC] [TIFF OMITTED] T9916.002
    
    [GRAPHIC] [TIFF OMITTED] T9916.003
    
    [GRAPHIC] [TIFF OMITTED] T9916.004
    
    [GRAPHIC] [TIFF OMITTED] T9916.005
    
    [GRAPHIC] [TIFF OMITTED] T9916.006
    
    [GRAPHIC] [TIFF OMITTED] T9916.007
    
    [GRAPHIC] [TIFF OMITTED] T9916.008
    
    [GRAPHIC] [TIFF OMITTED] T9916.009
    
    [GRAPHIC] [TIFF OMITTED] T9916.010
    
    [GRAPHIC] [TIFF OMITTED] T9916.011
    
    [GRAPHIC] [TIFF OMITTED] T9916.012
    
    [GRAPHIC] [TIFF OMITTED] T9916.013
    
    [GRAPHIC] [TIFF OMITTED] T9916.014
    
    [GRAPHIC] [TIFF OMITTED] T9916.015
    
    [GRAPHIC] [TIFF OMITTED] T9916.016
    
    [GRAPHIC] [TIFF OMITTED] T9916.017
    
    [GRAPHIC] [TIFF OMITTED] T9916.018
    
    [GRAPHIC] [TIFF OMITTED] T9916.019
    
    [GRAPHIC] [TIFF OMITTED] T9916.020
    
    [GRAPHIC] [TIFF OMITTED] T9916.021
    
    [GRAPHIC] [TIFF OMITTED] T9916.022
    
    [GRAPHIC] [TIFF OMITTED] T9916.023
    
    [GRAPHIC] [TIFF OMITTED] T9916.024
    
    [GRAPHIC] [TIFF OMITTED] T9916.025
    
    [GRAPHIC] [TIFF OMITTED] T9916.026
    
    [GRAPHIC] [TIFF OMITTED] T9916.027
    
    [GRAPHIC] [TIFF OMITTED] T9916.028
    
    [GRAPHIC] [TIFF OMITTED] T9916.029
    
    [GRAPHIC] [TIFF OMITTED] T9916.030
    

</pre></body></html>
